<html>
<title> - COAST GUARD READINESS: HOW FAR CAN WE STRETCH OUR NATION'S ONLY MULTI-MISSION, MILITARY FORCE?</title>
<body><pre>[Senate Hearing 115-646]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-646

                         COAST GUARD READINESS:
HOW FAR CAN WE STRETCH OUR NATION'S ONLY MULTI-MISSION, MILITARY FORCE?

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-229 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdcdd2fddec8cec9d5d8d1cd93ded2d093">[email&#160;protected]</a>               
       
    
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 
                                 
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2017................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Peters......................................     3
Statement of Senator Nelson......................................     4
Statement of Senator Wicker......................................    14
Statement of Senator Schatz......................................    17
Statement of Senator Inhofe......................................    19
Statement of Senator Cantwell....................................    20
Statement of Senator Blumenthal..................................    21
Statement of Senator Markey......................................    25

                               Witnesses

Admiral Paul F. Zukunft, Commandant, U.S. Coast Guard............     5
    Prepared statement...........................................     7
Etta Kuzakin, President, Agdaguux Tribe of King Cove, Lifelong 
  Resident.......................................................    28
    Prepared statement...........................................    29
Dr. Guy A. Meadows, Director, Great Lakes Research Center, 
  Michigan Technological University..............................    38
    Prepared statement...........................................    39
Lee W. Smithson, Director, Mississippi Emergency Management 
  Agency.........................................................    41
    Prepared statement...........................................    42

                                Appendix

Response to written questions submitted to Admiral Paul F. 
  Zukunft by:
    Hon. Dan Sullivan............................................    51
    Hon. Deb Fischer.............................................    51
    Hon. Roger F. Wicker.........................................    52
    Hon. Bill Nelson.............................................    53
    Hon. Gary Peters.............................................    55
    Hon. Maria Cantwell..........................................    61
    Hon. Brian Schatz............................................    67
Response to written questions submitted by Hon. Gary Peters to:
    Etta Kuzakin.................................................    67
    Dr. Guy Meadows..............................................    68
Response to written questions submitted to Lee W. Smithson by:
    Hon. Roger F. Wicker.........................................    76
    Hon. Gary Peters.............................................    77

 
                         COAST GUARD READINESS:
HOW FAR CAN WE STRETCH OUR NATION'S ONLY MULTI-MISSION, MILITARY FORCE?

                              ----------                              


                      THURSDAY, NOVEMBER 16, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Peters, Nelson, 
Wicker, Fischer, Inhofe, Young, Cantwell, Blumenthal, Schatz, 
and Markey.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order.
    Today's hearing will focus on the readiness of the U.S. 
Coast Guard, specifically, how a string of recent natural 
disasters have affected our Nation's only multi-mission 
military force's ability to continue operations at such a high 
tempo. Although the Coast Guard is the Nation's smallest 
military branch, and as I'm sure the Commandant can attest, it 
is definitely a military branch of the U.S. military, it's an 
organization that clearly punches above its weight class. As we 
sit here today, the women and men of the U.S. Coast Guard are 
deployed across the globe, throughout our country, from the 
Arctic to the Persian Gulf, and everywhere in between.
    The recent hurricanes that have made landfall this year 
have significantly stretched the Coast Guard's service 
capabilities. In these three disasters alone, the Coast Guard 
has rescued over 11,000 Americans, utilizing 95 aircraft, 55 
cutters, 129 rescue craft, and mobilized almost 3,000 
additional personnel. This tremendous effort comes at a cost 
measured in dollars, maintenance hours, and personnel. Coast 
Guard rotary-wing aircraft alone flew almost 1,600 hours, over 
double the total program annual hours for a Jayhawk helicopter, 
and almost four times the annual program hours for a single DoD 
equivalent Black Hawk series aircraft.
    The initial cost estimate to the Coast Guard for storm 
preparation, search and rescue, and infrastructure 
reconstruction is approximately $1 billion. That is another 
reason why we need to move the Coast Guard Reauthorization Act 
that the Commerce Committee favorably voted out of the 
Committee in a bipartisan way several months ago. The Coast 
Guard's assets are spread thin, but likely nowhere more so than 
in the vast areas of my home state of Alaska. There are places 
where the Coast Guard often has the only available assets 
capable of providing lifesaving medical transportation and 
service that the majority of the lower 48 states often taken 
for granted, and even these assets of the Coast Guard are often 
hours and hundreds of miles away from constituents of mine in 
Alaska.
    I had the privilege of accompanying Admiral Zukunft earlier 
this summer on a trip throughout Alaska, in particular, a trip 
to King Cove, a community on the western tip of the Alaskan 
Peninsula. King Cove is a robust fishing community and, like 
much else of Alaska, is accessible only by air and sea. 
Emergency medical transportation is very challenging, and this 
is especially true during severe weather, which restricts 
accessibility of King Cove's local airstrip over 100 days a 
year.
    Nearby the community, though, is Cold Bay, which has one of 
the longest runways in Alaska, one of the longest runways in 
the country, which is rarely closed and is capable of handling 
large jet aircraft. As a matter of fact, the Commandant and I 
actually saw a diverted FedEx aircraft land at King Cove when 
we were out at Cold Bay.
    Despite being only a few miles apart, there is no road 
access to Cold Bay from King Cove, leaving the U.S. Coast Guard 
as the only alternative to evacuate patients during inclement 
weather, which, as I said, is often. These Coast Guard assets 
are normally dispatched from Kodiak, over 500 miles away, the 
closest air station, and costs the Coast Guard and the taxpayer 
as much as $210,000 per trip. As a result, the City of King 
Cove, Aleutians East Borough, the local tribal entities, and 
others have long sought a simple 11-mile, one-lane, gravel 
emergency use road that would connect these communities.
    In 2009, Congress and former President Obama signed into 
law legislation that authored a land exchange and construction 
of the road. This legislation would have seen the State of 
Alaska and various Alaska Native entities add 56,000 acres of 
land to the Izembek National Wildlife Refuge in exchange for 
just 206 acres and the ability to construct this road. However, 
on December 23, 2013, former Secretary of Interior Sally Jewell 
callously denied this exchange and blocked the road, what we 
call in Alaska the ``lump of coal on Christmas Eve'' from Sally 
Jewell.
    I strongly opposed Secretary Jewell's decision, as I 
believe the safety of the inhabitants of King Cove is paramount 
to other interests. No community, no community, in America 
should be deprived access to necessary emergency care, and 
Senators from the lower 48 would have howled at something this 
outrageous.
    In the 5 years since that proposal was blocked, almost 70 
medevacs have taken place out of King Cove, a significant 
portion of which were conducted by the U.S. Coast Guard. And as 
the Commandant mentioned in this hearing room almost 3 years 
ago, this is more than a financial cost, these rescue missions, 
there is a very real cost of risk that this is not a benign 
operating environment at all, some of the most dangerous 
weather in the world.
    As it stands, we are allocating the Coast Guard very finite 
resources and risking the lives of the brave men and women in 
the Coast Guard on a problem that could easily be mitigated by 
a simple 11-mile road that would solve this problem and provide 
the peace of mind and basic access to emergency medical 
treatment for the residents of King Cove. One of the residents 
whose life was saved by the Coast Guard medevac is here with us 
today. We look forward to her testimony.
    And I want to thank all our witnesses for being here, many 
of whom traveled thousands of miles from Alaska. And, of 
course, it's always great to have the Commandant of the Coast 
Guard here as well to testify on our first panel.
    I now recognize my friend and colleague Senator Peters for 
his opening statement.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Mr. Chairman.
    And good morning, Admiral Zukunft. It's great to see you 
here. And I want to take this opportunity to thank all of team 
Coast Guard for your endless, hard work responsibilities to 
numerous different incidents and natural disasters.
    As we all saw the past few months, the Coast Guard's 
response to the hurricanes that ravaged the Gulf Coast, Puerto 
Rico, and the U.S. Virgin Islands was nothing less and I think 
continues to be outstanding. And certainly our thanks go out to 
all of the men and women of the Coast Guard for those 
outstanding efforts.
    I'm looking forward to learning more today about the Coast 
Guard's response capabilities and how we can help you maintain 
your readiness standards. The Coast Guard, made up of just 
88,000 personnel, is multi-mission. There are 11 different 
missions with the Coast Guard in every region of our Nation and 
give them presence all around the world.
    Even after an unusually active hurricane season, the Coast 
Guard's duties do not let up. Yes, winter is coming, as we 
talked about before the hearing, and I want to emphasize that 
the Coast Guard's missions will not stop because the weather is 
getting colder. While we don't have hurricanes in the State of 
Michigan, we do have a lot of bad weather as well, and many 
times some of the worst storms hit during the winter and the 
challenge of ice becomes great.
    In recent years, the Great Lakes have seen record levels of 
ice cover threatening to interrupt commercial shipping that is 
vital to the Michigan economy. We need continuous icebreaking 
support in the winter months provided by the Coast Guard to 
keep our ports, cities, and towns open for business. Keeping 
commerce moving is vital to our Nation's economy.
    The Coast Guard also has a vital role in keeping the Great 
Lakes pristine. The Coast Guard's mission includes Marine 
Environmental Protection. MEP is essential to the Great Lakes 
and most critical at the Straits of Mackinac, where a 64-year-
old oil pipeline runs along the bottom across a 5-mile stretch 
of water connecting Lake Huron with Lake Michigan. According to 
a University of Michigan study, the Straits are the worst 
possible location across the Great Lakes for an oil pipeline 
and the potential for a spill or leak under them.
    Despite the challenge, the Coast Guard works hard to be 
prepared just in case the worst happens there, and I look 
forward to working with you, Commandant, to further increase 
our readiness.
    We ask a lot of our Coast Guard. Their 11 missions protect 
our people, our waters, and our nation, but if we are not 
careful, we could end up hurting, not helping, the men and 
women who make up the Coast Guard. If we do not ensure that 
service members have the right equipment, if we do not ensure 
that they are being taken care of in terms of retirement and 
medical benefits, then we are not doing our job.
    Back in March, I was part of a bipartisan group of Senators 
that prevented the administration from cutting the Coast 
Guard's budget by $1.3 billion. And I'm proud of that 
accomplishment, but it is not enough. The Coast Guard needs to 
recapitalize its assets and improve its shore facilities and 
military housing in order to continue to do the hard job that 
we ask them to do.
    We cannot expect the Coast Guard to be always ready if the 
service is not able to repair its infrastructure or give its 
members the best equipment that they need to carry out their 
missions safely and successfully.
    Admiral, as we close in on 2018, which will bring your last 
few months to lead the Coast Guard, I hope that today's hearing 
will allow for a very direct and frank conversation about the 
Coast Guard's response capabilities and your needs and how we 
can help you meet those needs.
    Thank you, Admiral.
    Senator Sullivan. Thank you, Senator Peters.
    And we have the Ranking Member of the full Commerce 
Committee here, Senator Nelson, who I know is a big fan of the 
Coast Guard.
    And, Senator Nelson, sir, if you would like to say a few 
words at the outset, you're more than welcome.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, Senator Peters, 
and thank you both for leading this important Subcommittee. I'm 
here in my capacity as a cheerleader for the Coast Guard 
because it's the nightly news every night, as you two have 
already pointed out, what we hear on the nightly local news, 
that the Coast Guard has done another heroic act.
    And let me tell you what they did yesterday. Officials 
seized $300 million worth of heroin and cocaine, from Mexico 
and Central America. And they brought this into Port 
Everglades. It is 10 tons of cocaine, and more than 50 pounds 
of heroin, and the Coast Guard cutters seized these vessels in 
the waters off of Mexico and Central America.
    I've been with the Commandant in a Coast Guard go-fast, and 
you can't believe how fast they go following the bad guy in a 
go-fast. I've been in the helicopter as they're showing me how 
the Coastie is perched in the side of the open door of the 
helicopter, and with his high-powered rifle, he is shooting out 
the engine of the go-fast who's trying to get away. Of course, 
they can't get away, and they stop them dead in the water and 
then seize all of the illegal drugs. And you can imagine that 
this is just one of the many seizures of drugs.
    By the way, the Navy, in Alaska, as you know Senator 
Sullivan, has pretty well ceded the water of Alaska for the 
Coast Guard to protect, in addition to it doing all of its 
civilian role of protection of the fishing fleet. Well, that's 
the case down in the Caribbean, too, although when we have 
military vessels down there, they're in coordinating, but they 
don't have the law enforcement capability that the Coast Guard 
has, so they call the Coast Guard to go in and seize the bad 
guy and get the drugs. And, of course, here's a big one that 
happened just yesterday.
    And I would just finish by saying, Admiral, I'm so proud of 
you and all the Coasties. And now here's another one, you've 
been doing all the repair work and the rescues after the 
hurricanes in Puerto Rico, and all of the critical response 
work that the Coast Guard has done in and around Florida, but 
especially down in the Virgin Islands and Puerto Rico. They 
saved over 11,000 lives and 1,500 pets while responding to 
these hurricanes. Helicopters deployed to the one hurricane and 
flew over 1,500 hours, more than double the annual program 
flight hours for one aircraft. They stepped it up when we 
needed them most.
    The Helicopter Interdiction Tactical Squadron, which 
celebrated its 500th go-fast interdiction this year, the crews 
prevented over $3 billion worth of drugs from entering the U.S. 
So you can see the Coast Guard is doing its duty every day, and 
it's not just in these waters represented here--Alaska, the 
Great Lakes, and the Caribbean, and Florida--but it's all over 
the world that the Coast Guard is doing the job.
    I know what you need is resources, and we're going to try 
to provide it for you, Admiral.
    Mr. Chairman, with your permission, we have a little thing 
called a tax bill that are being marked up in the Finance 
Committee. It's now become a health care bill. With your 
permission, I'm going to go back to that markup.
    Senator Sullivan. Without objection.
    [Laughter.]
    Senator Sullivan. Well, Admiral, welcome. And the floor is 
yours for a 5-minute opening statement. And we will, of course, 
include a longer written statement in the record if you so 
desire.

       STATEMENT OF ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, 
                        U.S. COAST GUARD

    Admiral Zukunft. OK. Good morning, Mr. Chairman, Ranking 
Members, and distinguished Members of the Committee. I 
appreciate the opportunity to testify today. I thank you for 
supporting your United States Coast Guard, and I ask that my 
written statement be entered into the record.
    Senator Sullivan. Without objection.
    Admiral Zukunft. The Coast Guard offers a unique and 
enduring value to the Nation. We are first and foremost, as you 
mentioned, Chairman, an armed service, with broad law 
enforcement authorities that span the globe and a service that 
is called upon time and again during natural and manmade 
disasters.
    We are a flat organization with a bias for action that 
enables us to surge the entire Coast Guard when our nation is 
threatened with disaster. This agility was applied during 
Hurricanes Harvey, Irma, and Maria, and culminated in the 
rescue of over 11,000 people and, yes, 1,500 pets while 
restoring our ports and waterways and correcting over 1,200 
damaged aids to navigation and directing the removal of over 
3,600 damaged or sunken vessels from the marine environment. 
This was truly an all-hands-on-deck campaign that drew Coast 
Guard personnel and assets from across the Nation, but it came 
with several costs.
    The first cost was readiness, and the Coast Guard used 
resources well above planned rates, canceled depot-level 
maintenance on cutters and aircraft, and terminated training 
investments, and our most important resource, our people.
    The second cost is opportunity costs. Cutters and aircraft 
were taken away from search and rescue, counter-drug, and 
security operations in order to save lives, restore affected 
waterways, and deliver critical disaster relief supplies and 
equipment to impacted areas. Nowhere was this more profound 
than in the eastern Pacific. And the transnational criminal 
organizations were benefactors of our diminished presence at a 
time when over 60,000 Americans perish each year from drug 
overdoses.
    And the third cost is a real cost. And based on Harvey, 
Irma, and Maria alone, we need nearly a billion dollars to 
rebuild damaged infrastructure and restore eroded readiness. Of 
the three categories, this is my greatest concern. It is 
compounded by outstanding bills from previous events.
    In particular, the Coast Guard incurred over $90 million in 
damages from Hurricane Matthew, yet supplemental relief was 
diminished to $15 million. And we have units operating out of 
make-shift piers that have not been hardened to withstand any 
kind of significant weather.
    So given the many competing demands in our country today 
and the propensity to fix only what is broken, I am concerned 
the Coast Guard will continue to be known solely for our 
success, and not what we need to be made whole.
    As a military service, only 4 percent of my budget is 
funded through what is called defense discretionary 
appropriations. The other 96 percent are non-defense, and I 
must compete with every other Federal discretionary account to 
fund a broad array of missions that span the globe and have not 
diminished over time. Ironically, 40 percent of the Coast 
Guard's major cutter fleet acquired, maintained, and operated 
with non-defense discretionary dollars are serving today under 
the operational command of a Department of Defense geographic 
combatant commander around the globe.
    For the past 5 years, we have been funded below the Budget 
Control Act floor as the other armed services lament the 
prospect of even being funded at the BCA base. The Coast Guard, 
an armed service, is contending with identical readiness 
challenges, yet is funded below the BCA floor, in the basement, 
if you will.
    So going forward, we require 5 percent annualized growth in 
our operations and maintenance account and a floor of $2 
billion minimum to our acquisition account. This would allow me 
to dig out of the Budget Control Act basement, sustain 
operations, grow our workforce. We're also building out our 
modernized fleet and reduce our $1.6 billion shore 
infrastructure backlog.
    I am truly honored to lead the world's best Coast Guard, 
but without a stable and predictable increase in our annual 
funding, I will have to continue to defer such critical 
initiatives.
    Thank you, Mr. Chairman. And I welcome your questions.
    [The prepared statement of Admiral Zukunft follows:]

      Prepared Statement of Admiral Paul F. Zukunft, Commandant, 
                            U.S. Coast Guard
Introduction
    Good morning Mr. Chairman and distinguished members of the 
Committee. I appreciate the opportunity to testify today and thank you 
for your enduring support of the United States Coast Guard.
    As the world's premier, multi-mission, maritime service, the Coast 
Guard offers a unique and enduring value to the Nation. The only branch 
of the U.S. Armed Forces within the Department of Homeland Security 
(DHS), a Federal law enforcement agency, a regulatory body, a first 
responder, and a member of the U.S. Intelligence Community--the Coast 
Guard is uniquely positioned to help secure the maritime border, combat 
transnational criminal organizations (TCO), and safeguard commerce on 
America's waterways.
    The Coast Guard's combination of broad authorities and 
complementary capabilities squarely align with the President's national 
security and economic prosperity priorities and offer an agile toolset 
to address the Nation's most pressing challenges. Appropriately 
positioned in DHS, the Coast Guard is a military service and a branch 
of the Armed Forces of the United States at all times.\1\ We are also 
an important part of the modern Joint Force \2\ and currently have 
forces assigned to each of the five Geographic Combatant Commanders as 
well as Cyber Command.
---------------------------------------------------------------------------
    \1\ 14 U.S.C. Sec. 1; 10 U.S.C. Sec. 101
    \2\ In addition to the Coast Guard's status as an Armed Force (10 
U.S.C. Sec. 101), see also Memorandum of Agreement Between the 
Department of Defense and the Department of Homeland Security on the 
Use of Coast Guard Capabilities and Resources in Support of the 
National Military Strategy, 02 May 2008, as amended 18 May 2010.
---------------------------------------------------------------------------
    As demonstrated in the 2017 record hurricane activity, the Coast 
Guard is the Nation's ``maritime first responder'' and plays a leading 
role in executing the National Response Framework (NRF) for disaster 
situations. Our bias for action and ability to rapidly surge resources 
in response to emerging threats or contingencies distinguishes the 
Coast Guard and are critical to success across the spectrum of missions 
we prosecute.
Agile Force
    The Coast Guard's 88,000 active duty, reserve, civil service and 
auxiliary members offer a unique mix of authorities and extensive 
experience operating with both military and interagency response 
organizations. Beyond our statutory search and rescue requirements, 
which traditionally result in an average of 3,600 lives saved each 
year, the Coast Guard supports the Federal Emergency Management Agency 
(FEMA) and states during nationally declared disasters by:

  (1)  Saving lives in distress, and ensuring the survivability of our 
        own forces and assets for immediate post-disaster response 
        operations;

  (2)  Securing and reconstituting ports, waterways, and critical 
        maritime infrastructure;

  (3)  Conducting environmental response operations (oil, chemical and 
        hazardous material); and

  (4)  Supporting other agencies and the whole-of-government response 
        effort.

    Coast Guard personnel are well trained and experienced in response 
operations, which make them a sound choice to serve in visible 
positions in the NRF structure. This ability to operate concurrently in 
both military Joint Task Force and civilian NRF frameworks enhances 
unity of effort and dramatically improves effectiveness.
    As an armed force, the Coast Guard can be a supported or supporting 
commander, and our forces are frequently integrated with Department of 
Defense (DoD) services in Joint Task Force organizations. We regularly 
provide forces in support of DoD exercises, Combatant Commander 
contingency plans, and theater security cooperation activities, all of 
which enable Coast Guard and DoD forces to integrate seamlessly during 
response operations.
    Saving lives in distress is our first priority, and Coast Guard 
crews are typically the first Federal responders on-scene. As a storm 
approaches, Coast Guard personnel make risk-based decisions to 
reposition assets and people to safe locations just outside of the 
storm's path, ultimately facilitating rapid response as soon as it is 
safe to do so. Brave men and women on the front lines make it happen, 
invoking a deeply ingrained bias for action to repeatedly go into 
harm's way and serve others.
    In addition to conducting SAR operations, the Coast Guard surges 
forces and assets into the impacted regions to restore the $4.6 
trillion maritime transportation system, respond to pollution, provide 
security and additional law enforcement capability, and protect 
offshore petrochemical platforms.
Critical Success Factors
    The Coast Guard employs a decentralized command and control 
structure and distributed decision-making to provide operational 
commanders with the authority to move forces quickly to respond to 
large contingencies.
    Our two Area Commanders, and their nine subordinate District 
Commanders, shift and reallocate forces from one region to another 
based on risk and the anticipated demand for operational capabilities. 
Well-reasoned and regularly exercised Continuity of Operations Plans 
preserve operational effectiveness while offering safe refuge for 
displaced operational commanders.
    Coast Guard cutters, aircraft, and boats are built to respond to a 
variety of missions without the need for any reconfiguration or the 
addition of special equipment. During the recent hurricanes, cutters 
conducting counter-drug patrols in the Transit Zone quickly diverted to 
disaster areas to provide command and control, deliver rotary wing air 
capability from the sea, provide forward staging facilities, and 
deliver critical relief commodities--particularly in the U.S. Virgin 
Islands and Commonwealth of Puerto Rico.
    Coast Guard aircraft that normally perform law enforcement 
surveillance to thwart transnational maritime criminal activities were 
dynamically repositioned and re-tasked to deliver disaster relief 
supplies, additional responders, and equipment to affected areas.
    Additionally, Coast Guard forces were and are on station at key 
locations around the nation, most of them on short-notice recall, so 
they can respond quickly to emergent events. When a major catastrophe 
occurs, or is anticipated, we can reposition forces quickly to that 
area to optimize the response.
    Over a five week period, Hurricanes HARVEY, IRMA, MARIA, and NATE 
impacted over 2,540 miles of shoreline \3\, and Coast Guard women and 
men in helicopters, boats, cutters, vehicles and on foot rescued over 
11,300 people and over 1,500 pets. Mere hours before Hurricane HARVEY 
made landfall, Coast Guard helicopter crews rescued mariners in peril 
\4\ off the coast of Corpus Christi, Texas before repositioning to 
Alice, Texas.
---------------------------------------------------------------------------
    \3\ Using CRS method of Shoreline Measurement: Texas: 367 mi, 
Louisiana: 397 mi, Florida: 1,350 mi, Puerto Rico: 311 mi, USVI: 117 mi
    \4\ Two MH-65's from Sector/Air Station Corpus Christi saved 12 
lives off a vessel taking on water in 45 knot sustained/60 knot gusting 
winds.
---------------------------------------------------------------------------
    The Coast Guard resolved over 1,269 aids to navigation 
discrepancies, handled 290 pollution cases, located and assessed more 
than 3,623 grounded vessels, with more than 1,585 removed to date. 
Within hours after each storm's passage, Coast Guard Damage and 
Recovery Assessment Teams were on-scene determining the status of ports 
and waterways, leveraging electronic aids to navigation when feasible 
to facilitate the rapid reopening of the maritime transportation system 
and energy sectors vital to recovery, and assessing impacts to Coast 
Guard facilities and capabilities.
Enduring Challenges
    Operational successes introduced real costs. Damage to Coast Guard 
facilities, IT, aids to navigation, and the cost of deferred 
maintenance are significant. Similar to any prolonged natural disaster 
or security event, responding to consecutive major hurricanes severely 
strained capacity and required us to assume additional risk in other 
geographic regions and mission areas. Across the recent disaster 
response operations, more than 3,000 Coast Guard women and men, and 200 
assets or platforms deployed from places as far away as Alaska, Hawaii 
and Maine.
    As a result, the rest of the Coast Guard assumed additional risk, 
and units were significantly challenged to sustain maintenance and 
training standards while diminishing future readiness. The Medium 
Endurance Cutter MOHAWK, already aged and well beyond its designed 
service life, deferred major maintenance in order to get underway and 
avoid Irma. Cutter FORWARD diverted from a counter-drug patrol to 
provide supplies and critical command and control services after all 
three major hurricanes.
    Given the heavy demand for aviation services following each storm, 
training at Aviation Training Center Mobile was suspended, creating a 
backlog in the pilot training pipeline at a time when we are facing a 
critical aviator shortage. Maintaining a full-time SAR response posture 
at our air stations requires at least three aircraft, yet many of our 
units that contributed assets to hurricane operations were forced to 
get by with just one. Forces available for counter-drug, fisheries 
enforcement, and migrant interdiction operations in the Eastern Pacific 
Ocean, Caribbean Sea, and Florida Straits were significantly reduced as 
well. In total, risk-based choices to maximize hurricane response 
operations stretched our existing resources to their limits.
    The size of the Service also limits our capacity to respond to 
prolonged and sequential events. While the Coast Guard is well-
positioned for immediate and effective first response, our ``bench 
strength'' makes it impossible to sustain these operations for an 
extended period of time. In addition, many of our heroic first 
responders suffered life-changing personal loss as well. Approximately 
700 Coast Guard families' homes were damaged to the point where they 
will need to be relocated.
Conclusion
    The Coast Guard's unique blend of authorities, capabilities, 
capacities, and partnerships position us well for success during 
maritime SAR events and natural disasters. Flexible, multi-mission 
forces and agile command and control systems provide the solid 
foundation from which we base these critical response operations.
    When the Coast Guard has the opportunity to recapitalize our 
facilities, we need to make them more storm-resilient and survivable. 
In fact, several of our shore facilities that were rebuilt following 
Hurricane IKE suffered minimal damage along the paths of HARVEY and 
IRMA, a testament to modern building codes and standards.
    Modern assets bring exceptional capability, but our greatest 
strength will always be our people. Coast Guard operations require a 
capable, proficient, and resilient workforce that draws upon the broad 
range of skills, talents, and experiences found in the American 
population. Together, modern platforms and a strong, resilient 
workforce will maximize the Coast Guard's capacity to meet future 
challenges.
    History has proven that a responsive, capable, and agile Coast 
Guard is an indispensable instrument of national security. With the 
continued support of the Administration and Congress, the Coast Guard 
will continue to live up to our motto. We will be Semper Paratus--
Always Ready. Thank you for the opportunity to testify before you today 
and for all you do for the men and women of the Coast Guard. I look 
forward to your questions.

    Senator Sullivan. Thank you, Admiral. And thank you and the 
men and women of the Coast Guard for your exceptional service 
to our country. I agree 100 percent, it is the world's best 
Coast Guard by far. There is no doubt about that.
    Let me just ask a quick question off the top. As I 
mentioned in my opening statement, we have passed, in a very 
strong bipartisan manner out of this Committee several months 
ago, the Coast Guard Authorization Act. How important is it for 
us to take action here in the Senate and get that passed so we 
can get it signed by the President?
    Admiral Zukunft. Absolutely critical. And, again, I support 
the work of this Committee to make that a reality. And so you 
have my ardent support to press on. Thank you.
    Senator Sullivan. Good. We will continue to press that. You 
know, I mentioned, and we have pictures here from King Cove and 
Cold Bay. You and I were out there this summer. Thank you again 
for visiting our great state. It was actually ironically a 
beautiful crystal clear day, which, as you know, normally 
that's not the case out there, some of the most severe weather 
literally in the world.
    And as you noted when we discussed this previously, the 
real costs, beyond finances, which are quite significant for 
the rescue missions that you conduct out there, are the costs 
associated with the risks to the men and women in the Coast 
Guard who fly in that weather to save lives. Can you talk about 
that a little bit more, given your experience, and would a road 
between King Cove and Cold Bay, as I mentioned in my opening 
statement, help you and your service better respond to these 
emergency rescue missions that you're--again, the men and women 
you lead, undertake these--as a matter of fact, when you and I 
were out there, they were conducting a rescue mission off a 
fishing vessel--just how much that would help in terms of 
costs, but also risks to the lives of the men and women, the 
brave men and women, who you lead?
    Admiral Zukunft. Chairman, I sincerely appreciate your 
leadership on this very critical issue that is not widely known 
in the 48 contiguous states. This is not a benign operating 
environment. As you well know, and as the residents of King 
Cove only know too well, it has been over 5 years since I have 
had to make a phone call to the family members of an aircrew 
whose loved one was killed in the conduct of doing Coast Guard 
operations.
    We lost one of these very same helicopters during the 
rescue of Selendang Ayu. Our aircrew all survived, but the 
rescuers--the folks we rescued did not. We owe it first and 
foremost to the residents of King Cove.
    And, secondarily, this is a high-risk evolution. It is not 
benign. You and I saw this 11-mile stretch. This is very 
attainable at a very moderate cost, but you can't put a dollar 
sign on a life. To a community that this is not a highly 
trafficked area to begin with, so I cannot foot stomp loud 
enough the criticality of building out this 11-mile stretch of 
road and provide the lifeline that this community needs to 
higher level health care.
    Senator Sullivan. I think that's a great point, you can't 
point a dollar sign on a life, whether it's a life of an 
Alaskan resident in King Cove, and we're going to hear about 
that more in the second panel, or a life of a brave young man 
or woman serving in the Coast Guard. So I take it you fully 
support finalizing this road, making it happen once and for 
all, and saving lives, and saving money.
    Admiral Zukunft. I do.
    Senator Sullivan. Thank you. One other issue I wanted to 
mention, and it's something that you and I, Senator Peters, a 
number of us have been talking about is with regard to 
icebreakers. And it's good to see my colleague Senator Wicker 
here. But one disappointment--a number of us serve on the Armed 
Services Committee as well--and one disappointment in the NDAA 
conference report is that it authorizes the procurement of one 
new icebreaker, but then caps the availability of DoD funds for 
icebreaker acquisition.
    Senator Wicker and I are going to be soon having a joint 
hearing relatively soon of this Committee, the Subcommittee, 
and the Armed Services Seapower Subcommittee, which Senator 
Wicker chairs, on this broader issue of icebreakers and how 
important they are to the national security of our nation, but 
how there has been, to be perfectly honest, a bureaucratic--I 
don't know how you want to describe it--fight between the Coast 
Guard, the Navy, the different committees in the Congress on 
how to actually procure, pay for, these critical assets.
    I had the opportunity to go out on the two current heavy 
icebreakers, homeported in Seattle. And the men and women do a 
great job there, but those ships were commissioned in the early 
1970s, and to be honest, I don't think the men and women who 
wear the uniform of the United States should be deploying on 
such old and decrepit icebreakers. The Russians have 40, 
they're building 13 more, several of which are nuclear-powered. 
We have 2 heavies, one is broken. I think it's a disgrace.
    Can you talk more to the national security need of 
icebreakers and recommendations to this body of what we need to 
do to jump-start the procurement and building of these 
icebreakers?
    Admiral Zukunft. Absolutely, Chairman. And let me just 
provide the strategic context for this. Russia has claimed the 
Northern Sea Route as their internal waters. They've laid a 
claim for a good portion of the Arctic Ocean through the 
procedures under the Law of the Sea Convention. And this is a 
part of the world where we know that there are rich resources--
oil, gas, minerals--on the sea floor.
    And don't take your eye off of China either. China is 
delivering a second icebreaker. China is very active in 
Antarctica. The treaty in Antarctica, as it expires, I would 
not be surprised if China looks to extract resources from 
Antarctica.
    And now you've got a land-grab going on in some of these 
locations. And if you are virtually there, you're absolutely 
absent. And so having presence to exert our national security 
interest is critical, and you need to do it from the surface of 
the ocean. You cannot do it under the sea, which is why we need 
to make these investments.
    As sea ice retreats, we're seeing more and more human 
activity. We're seeing northern migration of fish at a point in 
time where fish stocks are under strain.
    And then there's a military component. Russia will deliver 
two icebreaking corvettes on or about 2020 that will have 
cruise missiles on them, and we have no surface capability to 
even monitor that activity or to counter it if that were to be 
necessary.
    So we're talking about $1 billion. And I'm confident we can 
build an icebreaker. We have a great working relationship with 
Navy shipbuilding. We have an integrative program office. We've 
awarded five shipyards to go out and do industry studies, and 
they are well along their way to submit bids on a proposal this 
next year so we can get the first heavy icebreaker in the water 
by 2023. We need to look at block buys beyond that first one.
    There will be costs with a lead ship because we have not 
built a heavy icebreaker in 40 years. The technology 
investments a shipyard will have to make up front, but they 
will want some certainty that we're going to build more than 
one icebreaker.
    We look at carrier strike groups as strategic assets. We 
need to look at icebreakers in the very same realm, that these 
are strategic assets, and, quite honestly, we're about out of 
them, and we have abdicated this strategic game of Chess to 
other potential adversaries in the high latitudes.
    Senator Sullivan. Great. Thank you for that very powerful 
testimony.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And thank you again, Admiral, for your service and for all 
the men and women of the Coast Guard who do an outstanding job 
each and every day.
    I want to expand on this discussion on icebreakers. I share 
Chairman Sullivan's concern about heavy icebreakers in the 
polar region, and Senator Wicker as well. I serve on the Armed 
Services Committee with both of these gentlemen as well, and 
we're going to do everything we can to make sure you have the 
resources that you need in the Arctic region. There's no 
question that's of strategic importance to our country.
    But we also have icebreaking needs in the Great Lakes as 
well that you and I have talked about, and you stated back in 
March in your testimony then that the 140-foot icebreaking tugs 
have been extended for a few years, but there's a finite life 
on those. The Great Lakes in some recent years have experienced 
unprecedented ice cover, and, as you're well aware, that is 
about economic security for our country to make sure that we're 
moving material to the plants and the heavy materials necessary 
for manufacturing to occur here in North America, in addition 
to your statutory requirement to keep those lanes open as well 
during ice cover.
    Could you expand on your comments regarding icebreakers to 
include the Great Lakes and how important it is that we 
recapitalize that fleet as well, which is also extremely old 
and needs some immediate attention?
    Admiral Zukunft. Yes, sir, Senator. We're making strides in 
extending the service life on those 140-foot icebreaking tugs 
that are doing great work up in the Great Lakes. We had a bit 
of a reprieve these last two ice seasons, so we're not putting 
additional wear and tear. So we're coming back on step, but 
that only buys us about 10 years. We're going to have to 
recapitalize that 140-foot fleet and look at parent craft 
designs.
    I was out in Helsinki a week ago to see what Finland is 
building; very capable, using azipods instead of propellers, 
and looking at what the state-of-the-art is in terms of 
icebreaking. So as we look at those ships timing out, there is 
better capability. And those ships do one thing and they do one 
thing only, they break ice. And the same thing in Finland, they 
do one thing, and they break ice. There are some great parent 
craft designs. And so as we build out our 20-year capital 
investment plan, we need to look at those 140-foot icebreaking 
tugs having much more capability than the ships that we have in 
our inventory right now.
    The good news is for a very modest cost, you know, this can 
deliver up to the same capability of our Great Lake icebreaker, 
the Mackinaw. So that's what we're looking in the outyears as 
we have bought ourselves some time with our service life 
extension program.
    Senator Peters. Although it has bought us some time, what 
is the critical timeline? When do we need to make these 
decisions?
    Admiral Zukunft. We're probably talking 2030 and beyond. 
We're----
    Senator Peters. When they come into service; 2030?
    Admiral Zukunft. When we'll have to--again, that will be 
condition based on--you know, it will vary one ice season to 
the next, but conservatively speaking, 2030 we need to start 
looking at design work and looking at a modernization program.
    Senator Peters. Also, Admiral, back in March, we discussed 
the concerns about oil in fresh water, and given the fact that 
the Coast Guard has primary responsibility to oversee cleanup, 
and the concern that I have and many folks in my state have 
regarding an oil spill particularly in the Straits of Mackinac 
and the devastating impact that would have on the lakes and 
also the fact that we don't have a whole lot of research into 
how we clean up fresh water. We have a great body of work in 
terms of salt water, we have a lot of proven techniques to 
clean it up in salt water, and salt water has the advantage of 
having microorganisms that actually break down oil that do not 
exist in fresh water. So it creates a tremendous challenge for 
cleanup.
    Since we talked in March, could you give me an update on 
the research being done at the Coast Guard to deal with 
freshwater spills? And what do we need? What additional 
resources do you need? Because in March, you mentioned you were 
not comfortable that we could clean up a major spill in the 
Great Lakes now given the current state of resources. What do 
you need and how concerned are you?
    Admiral Zukunft. I can't put a dollar figure on it, but we 
do need to make further investments in our research and 
development. We did receive a significant plus up this last 
year, but that was to address unmanned aerial systems, or 
remotely piloted systems, if you will. We are paying very close 
attention to two anomalies when it comes to oil spill recovery: 
oil in an iced environment and then tar sand that has the 
specific gravity of water, and it sinks, and then how do you 
recover that?
    We're using a facility in Leonardo, New Jersey. It's a 
several-hundred-yard-long tank that you can actually spill 
water--oil in. You can use different water. You can use fresh, 
salt. You can freeze it. So we've been using that facility to 
do proof-of-concept work.
    We recognize that there are research labs and subject 
matter experts in the Great Lakes, and so if we're going to do 
research and development as we look at our area contingency 
plans, in an oil spill, all things are local. And so we need to 
make sure that we have full inclusiveness with subject matter 
experts who are very familiar with this. You've got water 
intakes, drinking water for communities and the like. What is--
you know, do you use a dispersant or not? And what are the 
harmful effects of doing that?
    So there's still a lot of science that needs to be done. 
And meanwhile, we have pipelines crossing the lakes. And, you 
know, I will go on the record to say that the Coast Guard is 
not semper paratus for a major pipeline oil spill in the 
Greater Lakes. More science needs to be done in that regard, 
and I know you understand that quite well.
    Senator Peters. Thank you.
    Senator Sullivan. Great. Thank you.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. All right. Now, Mr. Chairman, I understand 
you'd like for me first to mention how delighted we are that 
Mr. Smithson, of Mississippi, is going to be with us for the 
second panel, and so I'll take a moment to do that at your 
suggestion.
    Senator Sullivan. And we will not--we will not take that 
from your precious 5 minutes of questioning the Commandant.
    Senator Wicker. Thank you. I do appreciate it.
    Well, in the second panel, we are delighted to have Mr. Lee 
Smithson. He possesses a wealth of experience and expertise in 
hurricane preparedness, disaster response, and community 
resilience efforts. He has served more than 3 decades of public 
service in the U.S. Army, the Mississippi National Guard, and 
particularly as Mississippi's National Guard Director of 
Military Support.
    During his time in the National Guard, Mr. Smithson 
supported operations for Hurricanes Isidore, Lili, Katrina, 
Gustav, Ike, and Isaac. So he knows what he's talking about 
when it comes to hurricane response, in addition to our 
recovery efforts for the Deepwater Horizon oil spill.
    He is currently Executive Director of the Mississippi 
Emergency Management Agency. As Director of MEMA, Mr. Smithson 
coordinates all activities within our local communities to save 
lives, protect property, and reduce suffering for those 
citizens impacted by disasters.
    So we're delighted that he's here and that he'll be part of 
the expertise for our second panel. And I appreciate you 
indulging me on that because, as the Chair knows, we are back 
and forth between two hearings at the present time.
    Now, let me just follow up, Admiral, on icebreakers. I'm 
learning there are icebreakers and then there are icebreakers. 
Now, there's sort of a notion going around that some of our 
allies can build a pretty good icebreaker for $200 million, and 
why aren't we doing that? I think you were explaining to me 
earlier in a private conversation that the kind of icebreaker 
that we've authorized in the NDAA is far more complicated than 
that and gives us a lot more capabilities.
    So if you would tell us what this almost billion dollar 
icebreaker is capable of doing, and how many of those we need, 
and how many of these less capable vessels we need?
    Admiral Zukunft. Thank you, Senator. So I was, again, in 
Finland, and they're one of the offerors, if you will, for 
icebreakers. I'm of the mind that our U.S. shipyards can build 
this, and we can build this with U.S. steel and with U.S. prime 
movers as well. So, yes, I would consider this as an investment 
in our military industrial complex in our shipyards. And we 
have five U.S. shipyards that have now weighed in to compete to 
build the first heavy icebreaker. But they will look at other 
commercial designs. Rather than----
    Senator Wicker. So that's a heavy icebreaker?
    Admiral Zukunft. Right.
    Senator Wicker. What capabilities does it give us?
    Admiral Zukunft. It gives you the ability to break ice up 
to 21 feet thick. And you might say, ``Well, does that ever 
happen?'' Last year, the Polar Star broke through over 80 miles 
of ice 14 feet thick. A medium icebreaker would never even make 
2 or 3 miles of headway in those icing conditions.
    So we're still seeing heavy icing. And this was to be able 
to sustain our mission in Antarctica. In the U.S., if there's 
an area where the United States leads, it is in the mission in 
Antarctica. We have a significant vote, but we're seeing China 
in particular stepping up its presence in Antarctica with less 
than transparent initiatives going forward of why so much China 
moving to Antarctica.
    Senator Wicker. What could these less expensive Finnish 
icebreakers not do for us that this heavy icebreaker will be 
able to do?
    Admiral Zukunft. So when we look at our icebreakers, they 
do more----
    Senator Wicker. They help on the Great Lakes?
    Admiral Zukunft. They wouldn't fit through the Soo Locks.
    Senator Wicker. OK.
    Admiral Zukunft. Yes, they're----
    Senator Wicker. So we need lighter tugs on the Great Lakes.
    Admiral Zukunft. So you're limited by the Soo Locks and the 
width of the ship.
    Senator Wicker. We've got at least three kinds we're 
talking about now.
    Admiral Zukunft. The main one we're talking right now is 
the heavy icebreaker. We have a medium----
    Senator Wicker. I'm talking about all three, sir.
    Admiral Zukunft. OK. Let me take it from the top.
    Senator Wicker. Good.
    Admiral Zukunft. Yes, the most critical one is our heavy 
icebreaker, the Polar Star. She's going to leave in a few weeks 
for Antarctica. If she is beset in ice, the United States has 
no way to recover that ship. There's nothing in our inventory 
that can break it loose. We would probably have to ask Russia, 
``Can you break us out of the ice, please?'' I don't want to be 
put in that position. I don't think our Nation wants to find 
ourselves in that vulnerable situation. We have no self-rescue 
capability. Our other icebreakers, we have self-rescue 
capability. But operating in heavy ice, we have one. We are a 
one-trick pony, and that is it.
    An icebreaker does more than break ice. It gathers 
information. It can do law enforcement if necessary and exert 
sovereign presence.
    The icebreakers in the Baltic do one thing only, and that's 
to open up a shipping channel to resupply the ports in the 
Baltic. A medium icebreaker, less capable, it can break ice up 
to 8 feet thick. It supports a scientific mission. A lot of the 
work the Healy did this year, it was a classified program, but 
working for the Office of Naval Research. So these are multi-
mission platforms that can operate in an ice environment.
    Senator Wicker. OK. Well, let's say you and the experts in 
your field decide we need X number of heavy icebreakers, and we 
need Y number of smaller, less expensive icebreakers. We can 
certainly build those at our American shipyards, can we not?
    Admiral Zukunft. We can.
    Senator Wicker. OK. But we don't have plans to do so at 
this point.
    Admiral Zukunft. We do. So there's $150 million in the 2017 
appropriation. We have five shipyards doing industry studies. 
We'll put a request for proposal----
    Senator Wicker. What type of icebreaker?
    Admiral Zukunft. A heavy icebreaker.
    Senator Wicker. No, I'm asking about plans for the smaller 
icebreakers?
    Admiral Zukunft. We won't look at the smaller ones. I'm 
talking the Great Lake icebreakers, we're over a decade out.
    Senator Wicker. In the Arctic, our plans are to have one 
kind of icebreaker and one only, is that what you're saying? A 
heavy icebreaker. And we have plans to make one.
    Admiral Zukunft. We have a high-latitude study. It was 
commissioned over 5 years ago that said we need six 
icebreakers--three heavy, three medium--and that's----
    Senator Wicker. OK. We could build those three mediums in 
the United States, couldn't we?
    Admiral Zukunft. Absolutely.
    Senator Wicker. But we don't have plans to do so, do we?
    Admiral Zukunft. We do.
    Senator Wicker. OK. And what are those plans?
    Admiral Zukunft. Well, we need to build our first heavy 
first. You know, I am scraping money to get----
    Senator Wicker. But what are those plans, though, even if 
they're long-range?
    Admiral Zukunft. Build the first heavy icebreaker in the 
water by 2023. Do a block buy to buy two more. There's a 
National Academy of Sciences----
    Senator Wicker. And then and only then we would look at 
buying the medium icebreakers. So we really don't have plans to 
buy three smaller, less expensive icebreakers, do we?
    Admiral Zukunft. Let's make sure we're talking heavy, 
medium, and then we have great--we have three different 
icebreakers----
    Senator Wicker. OK. Well, let's not talk about Great Lakes 
right now.
    Admiral Zukunft. OK. So----
    Senator Wicker. I think I'm asking, Mr. Chairman, about 
whether we have any plans to build beyond the three heavy 
icebreakers that you've talked about. Do we have any plans to 
use our American shipyards to build medium icebreakers?
    Admiral Zukunft. We do.
    Senator Wicker. Or is that just a notion down----
    Admiral Zukunft. No.
    Senator Wicker. OK. What are those specific plans? I ask 
again.
    Admiral Zukunft. Three heavy and three medium icebreakers. 
And we've been in a 10--a decade-long battle to get $150 
million that doesn't even build one icebreaker. So I can't tell 
you when I'm going to get the funding to build out this fleet. 
But we need a fleet of six icebreakers, and I need an 
appropriation to do that. If I have a floor of $2 billion in my 
acquisition budget, I can move on with this, but I don't have 
the money.
    Senator Wicker. OK. Well, we want to be teammates with you 
on this. And I think we're just--Mr. Chairman, I think we're 
just scratching the surface this morning. We'll get into this 
more in detail at the specific hearing.
    Senator Sullivan. Yes, sir.
    Senator Wicker. But I appreciate the Chair and the Ranking 
Member bringing this to the attention of the public and the 
Coast Guard.
    Senator Sullivan. Well, I think this exchange underscores 
the need for a joint hearing between this Committee and the 
Seapower Subcommittee, that you chair, Senator Wicker, on the 
Armed Services Committee, and we look forward to doing that 
sooner rather than later because this is an important issue.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Admiral, thank you for being here. Thank you for everything 
you do, especially in the Pacific. I will not ask about 
icebreakers, as you might imagine.
    [Laughter.]
    Senator Schatz. I understand there are sort of two aspects 
of being resource-constrained. One is what we've talked about, 
the need for real appropriations, not just for your national 
security cutters, but for icebreaking and other things. But the 
other is that even if you got all the money that was needed, 
you still have to make resource allocation issues--decisions.
    And I want to ask you about one specific resource 
allocation that troubles me, and it's very simple. It's that 
we've got our heavy endurance cutters in the State of Hawaii, 
and a lot of them actually move east, not west, even though we 
have IUU, we have territorial issues, and other challenges 
throughout the Pacific all the way to the western Pacific. And 
we are now using a lot of Coast Guard resources in 2014 for 
drug interdiction.
    And the basic question I have for you is, if you kind of 
look at this from the standpoint of stopping drug supply, I 
think you're getting about 20 percent of the drugs coming over 
the water. So that's not bad, but that's not enough. Also, most 
of the drugs that come into the United States are actually not 
coming over the water.
    So it's not that what you're doing is not important, it's 
just that we're deciding to move Coast Guard resources into 
this drug fight, and it's at the expense of something else. You 
know, you have a number of statutory missions, but fighting 
this drug fight, it seems to me, you know--I guess the question 
for you is, who makes the decision on resource allocation? When 
was it made?
    Because I worry, frankly, that there's institutional 
inertia, there's a desire to fight that fight, but if we're 
only getting 20 percent of the stuff that comes over water, and 
that's 20 percent of less than 50 percent of the total drugs 
coming into the United States, we're still fighting a 1980s 
drug war, and in the meantime, everybody across all service 
branches, is worried about presence in the Pacific. You say 
virtual presence is actual absence, as Harry Harris says.
    So how do you sort of square this? And what's your thought 
process? And is there any consideration sort of reevaluating 
whether this is even the smart thing to do?
    Admiral Zukunft. Yes, let me approach that on two different 
points. Those decisions rest with me. So in 2014, we had 
unprecedented unaccompanied minors arrive at our border. And 
the Department of Homeland Security was looking for beds and, 
where do we put these young kids? I looked at, why are they 
leaving? The reason they were leaving is those drugs, they 
don't come directly to the--they land in the tri-border region 
of El Salvador-Guatemala-Honduras.
    I've met with the Presidents of all three countries. 
They're awash in cocaine right now that's destined for the 
United States. Violent crime has taken off. And so families are 
putting their kids in the hands of a human smuggler to get out 
of Dodge, to get to the United States, because of this drug 
problem. In 2014, we knew where 85 percent of these drug 
shipments were across the entire ocean, but I only had enough 
resources to go after 8 percent. So it became a resource 
imbalance.
    We're using that same level of intelligence to look at our 
2.2 million square miles of remote EEZs to look at, Is there 
illegal fishing? We partnered with China, with Russia, Japan, 
Canada, the United States lead an effort, and for 12 years 
we've been doing extended patrols in the western Pacific, 
central Pacific, to target IUU fishing. One of our buoy tenders 
we should probably paint white that is stationed in Hawaii, 
they are going out and doing these patrols. It has been 6 
years, with all the intelligence, with the overflies, but we 
are not seeing the risk of IUU activity.
    If the risk warranted the resources, we would reallocate 
resources. But, again, as we look at intelligence driving 
operations, we also have to look at, where can we afford to go 
at risk? And that is one area where we have gone at some degree 
of risk, but we have not seen the activity to warrant further 
resources.
    I will just add we also work with Admiral Harris, and they 
do provide naval platforms with Coast Guard law enforcement 
detachments. We call it the Oceania Maritime Security 
Initiative, and we're doing quarterly patrols off of Navy 
platforms instead of Coast Guard ships because there are no 
heavy Navy ships in the eastern Pacific today.
    Senator Schatz. Right. Well, listen, I think you make the 
case persuasively, but I'll just offer this: it is not at all 
clear to me that we're winning the drug war, you know, 1980s 
style. And we have more and more needs. And I think the Chair 
and the Ranker of the Subcommittee, as well as the Seapower 
Subcommittee, really have to make maybe some tough decisions 
about what we're doing with all these resources. You know, I 
think we're on deck for at least another couple of national 
security cutters, and we could throw another--I mean, we could 
throw lots of person-hours at this, and we could throw 
another--a few cutters from Hawaii at this. I personally would 
rather see those forward in the Pacific, I'd rather see them do 
what we think of the Coast Guard to be best at.
    And I'll just insert for the record a question for you 
about the status of the C-130Js coming to Hawaii.
    Thank you.
    Senator Sullivan. Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. It's good to be 
back and visiting with you. I remember when we met in March. I 
meant to tell you, and I forgot to do it, so I'll mention it 
now, that I had occasion just a short while ago to fly an 
airplane around the world emulating the flight of Wiley Post, 
and one of the best times I had was in your shop in Alaska. And 
in terms of the missions, the search and rescue, the drug 
addiction--all of that stuff, I really encourage members of 
this Committee and Members of the House and Senate, you don't 
really know what you guys are doing till you go there and see 
it. So we're going to encourage that to share those 
experiences.
    Well, I know that Wicker has been concerned about 
icebreakers, and let me be the voice of concern about another 
vehicle that we talked about when you were here in March. Now, 
one of the best kept secrets in America is that we in Oklahoma 
are navigable. We have an inland waterway that goes all the way 
to the Port of Catoosa.
    And we're concerned about the tenders, the river tenders, 
and the condition of these things. The vessels, we talked about 
this in March, maintain the navigation age of the buoys and the 
marking of the water channels. And the channels must be marked 
for river barges to safely move, again, the fertilizer, all 
this stuff that we move around.
    So at that time--and I know you're working with us because 
we've been with the Coast Guard talking about it. Give us a 
status right now in terms of the acquisition strategy of river 
tenders.
    Admiral Zukunft. Yes, sir, Senator. We're standing up an 
acquisition office right now. We have a million dollars set 
aside right now to start looking at design work. These are not 
high-tech designs. We're working with the Army Corps of 
Engineers to look at parent craft, very affordable platforms. 
But the average age of our fleet of inland tenders is 56 years 
old.
    Senator Inhofe. Yes.
    Admiral Zukunft. These tenders maintain a waterway highway 
that moves $4.6 trillion of commodities each and every year. 
You take that out of inventory, you know, you have now just 
deprived our true economic potential. And in many of these 
ports, you know, these are export commodities that are helping 
our trade imbalance for a very modest investment. So we are 
moving out to start recapitalizing this fleet. This will be 
very appropriation-dependent, but we have made the argument, 
and we are ready to move out to recapitalize these old ships.
    Senator Inhofe. Because they're not all that expensive 
there, and then the decision still has to be made. Has it been 
made in terms of new versus renovated?
    Admiral Zukunft. These are beyond renovation.
    Senator Inhofe. Are they?
    Admiral Zukunft. We've done mitigation work on asbestos, 
lead abatement. And what really disturbs me is these ships were 
designed in an era where we did not have mixed genders in the 
United States Coast Guard.
    Senator Inhofe. Yes.
    Admiral Zukunft. So most of this fleet cannot accommodate 
women.
    Senator Inhofe. OK. Admiral, I also serve on the Senate 
Armed Services Committee. And I think it was the NDAA 2014, as 
I recall, that I got some language into the bill to transfer 
from DoD to the Coast Guard 14 of the C-27J, that's the Spartan 
aircraft, the smaller one than the C-130. And I thank you for 
your work to facilitate this transfer, which saves a lot of 
money. I think we approximated around $500 million was saved as 
opposed to the alternative.
    You've made it real clear that these aircraft are 
instrumental for the Coast Guard to perform its mission, 
providing maritime surveillance among the maritime borders and 
enforcing our laws. And I look forward to see these aircraft 
fully operational. But I understand that you are having issues 
with parts in getting the aircraft missionized, I guess you'd 
say. What kind of problems are you having?
    Admiral Zukunft. Just the lack of spare parts. And as we 
mature this program, we'll be able to ramp up the spare parts. 
Our immediate problem right now is with the simulator. We end 
up having to send our pilots to Italy to get simulator 
training. So as a result, most of their training is actually in 
an airplane.
    Senator Inhofe. Now, we're the simulation capital of the 
world in Tulsa, Oklahoma. Are you aware of that?
    Admiral Zukunft. We are, and, in fact, that's where we're 
looking at----
    Senator Inhofe. OK.
    Admiral Zukunft.--to source a Coast Guard-owned simulator.
    Senator Inhofe. Hmm. I'd like to have you come and visit 
sometime.
    Admiral Zukunft. Yes, sir.
    Senator Inhofe. Thanks for the great work.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Admiral, it's great to see you. Thank you 
for being here.
    The 2016 Association for Rescue at Sea Gold Medal recipient 
was someone from Long Beach. They had used one of the 52-foot 
motor lifeboats for that rescue mission. We only have four 52-
foot motor lifeboats in the entire Coast Guard. Two are in 
Washington. So what's the replacement plan here?
    Admiral Zukunft. We've been using our 47-foot motor 
lifeboats, which don't have quite the same capability of these 
old 52 legacy motor lifeboats that have served----
    Senator Cantwell. Like what? Like what don't they have?
    Admiral Zukunft. They don't have the towing capability, and 
they're not quite as seaworthy as the 52-footers. So I've been 
on several of those lifeboats, and great credit to those crews. 
We've been able to maintain these boats that are probably over 
50 years old now, but they continue to have a fairly lengthy 
service life. But it's the 47 motor lifeboat that has been 
their replacement that we have sourced.
    But as you well know, your--the Pacific Northwest, the 
Graveyard of the Pacific, is probably where we see the most 
extreme weather conditions. But for the near term, we are still 
able to maintain and operate those vessels.
    Senator Cantwell. What can we do to maintain that fleet 
given, as you just said, the 47s don't have that towing 
capacity, and this is a very prime fishing fleet location for 
the Pacific Northwest? What can we do? Are you committed to 
making sure we keep these 52-foot vessels?
    Admiral Zukunft. Committed that we continue to maintain and 
operate, but if we reach a point where they're no longer 
sustainable, parts obsolescence, we need to re-engine, there's 
a whole range of options, but we will need something more 
capable than a 47-foot motor lifeboat for some of the extreme 
conditions that we have up in the State of Washington.
    Senator Cantwell. I agree. That's what I wanted to hear you 
say. So the 47s aren't getting the whole job done, and when we 
look at both the conditions and the flow of traffic and who 
we're talking about, we want to make sure our fishermen are 
safe. So thank you so much, Admiral.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you, Admiral, for your very impressive and dedicated 
work, and all of the men and women who work in the Coast Guard 
under you and serve our Nation with such immense excellence and 
devotion to duty.
    You and I have talked about the Coast Guard Museum. The 
Coast Guard is the only service that has no such museum. It has 
an awe-inspiring story that should be told. And the proposal, 
indeed, the plan, to put that museum in New London is one that 
will be a great destination for Connecticut and the Nation. It 
will be an extraordinary tribute to the Coast Guard with that 
story that will move generations and will inspire them to join 
the Coast Guard.
    You and I have talked about the funding, and I am gratified 
that our private conversations have indicated your very strong 
commitment to the building of the Coast Guard Museum. That's 
correct I hope.
    Admiral Zukunft. Absolutely, Senator.
    Senator Blumenthal. And on our watch, so to speak, that is, 
the Committee's, I hope that we can lead the effort to frame 
language that makes it clear that none of the Federal funding 
that may be invested, it's an investment, in the museum would 
come from otherwise necessary operational or capital funding, 
and very, very clear that that kind of commitment is necessary 
for the Coast Guard's well-being, because that has to be our 
priority, and its effective service to our Nation.
    Admiral Zukunft. That's correct.
    Senator Blumenthal. I want to ask you, if I may, about the 
issue of sexual assault. And one reason I ask it is that I will 
leave here within minutes and go to an announcement of the 
introduction of the bill that would reform the efforts to 
discipline sexual assault and deter and prevent it in all of 
our military services. And I know there have been some 
instances at the Coast Guard Academy and perhaps elsewhere in 
the Coast Guard. Can you give us your assessment of how the 
Coast Guard is doing? And I know that the Coast Guard in no way 
condones or tolerates sexual assault within its ranks.
    Admiral Zukunft. Senator, we're making progress. So from 
the RAND survey that was done back in 2014 to the latest 
surveys to present, the prevalence is down nearly 40 percent. 
We are seeing more and more victims submitting unrestricted 
reports that conveys confidence that there will be standards of 
accountability, that they will not be revictimized, but it 
still disturbs me that we still have sexual assault, this 
behavior, occurring in a service that lives by the creed, 
``Honor, Respect, and Devotion to Duty.''
    Senator Blumenthal. And I know that at the Coast Guard 
Academy you've taken steps to provide counselors and victims' 
advocates and so forth, and I think that kind of service would 
be helpful to better reporting as well as better discipline.
    Admiral Zukunft. Yes, sir, Senator. And part of this is, 
you know, to be an all-inclusive service, you know, women have 
filled every capacity in the Coast Guard for over 40 years 
running now. We have nearly 40 percent women that comprise the 
Corps of Cadets at the Coast Guard Academy. These will be our 
future leaders.
    At the same time, we want to grow a more diverse workforce. 
And so any intimation of racial bias is equally concerning to 
me as well as we look at growing a more diverse cadre of senior 
leaders in the future of the Coast Guard as well. And we want 
to lead the way at the Coast Guard Academy, but as you are well 
aware, we've had several setbacks there.
    Senator Blumenthal. I want to shift in the small remaining 
time I have to Puerto Rico. And you and I have talked about the 
situation on a number of occasions. And I know the Coast Guard 
has performed extraordinary service in delivering food, water, 
and medicine to parts of the island that have been isolated, as 
well as in the Virgin Islands, also struck very heavily by 
Maria and the hurricanes that preceded Maria during this 
hurricane season. And I understand from you the situation is 
improving, but the Coast Guard is committed to stay there. You 
have, I believe you told me--I'm going from memory--about 2,000 
men and women on the various bases that are there doing 
interdiction of drugs and other missions, but have provided 
invaluable service to the Americans who live in Puerto Rico. 
And I wonder if you could just give us your assessment of how 
Puerto Rico is doing?
    Admiral Zukunft. Yes. Unfortunately, Puerto Rico probably 
was not resilient before Hurricane Maria struck, and I've 
never, having been to multiple natural disasters, see a 
hurricane take out an entire commonwealth. It approached the 
southeast corner of the Commonwealth of Puerto Rico, it exited 
the northwest, and it literally devastated the entire 
Commonwealth of Puerto Rico, immediately taking out the power 
grid, communications. Very rugged interior, bridges washed out 
that are now isolated, which is why we're using helicopters to 
provide medical, water, food, and commodities to those isolated 
committees, but--communities.
    But at the end of the day, this is our home, too. Our Coast 
Guard men, women, and families that come up to nearly 2,000 
people, this is their home. We've been active in these 
communities with elected leaders. And, similarly, the Coast 
Guard is not going to leave there as well. As we've been doing 
restoration work, we've seen an increase of illegal migration 
activity trying to come across the Mona Pass, and we've had 
several significant drug seizures just to the south of Puerto 
Rico, perhaps mindful that maybe the Coast Guard is distracted 
and they might be able to sneak in a shipment of drugs or 
illegal migrants. So we're still trying to balance all of that, 
but right now we're keeping our head above water.
    Senator Blumenthal. Thank you very much, Commandant. My 
time is expired. I look forward to continuing our conversation 
about these issues and others. Thank you.
    And thank you to--again, thank you to the men and women of 
the Coast Guard for their extraordinary service and sacrifice 
for our Nation.
    Admiral Zukunft. And let me just go on record, Senator. 
Thank you, and I also want to thank Senator Murphy, for your 
ardent support of our national museum in New London, 
Connecticut.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Blumenthal.
    Admiral, I wanted to follow up on the line of questioning 
that Senator Schatz had started with regard to--it's actually a 
broader topic--the deployment of and home-basing of new assets. 
We're nearing the end of the Coast Guard's recapitalization 
process on the national security cutter. And having been there 
with you and former Homeland Security Secretary Kelly at the 
commissioning of the MONRO, got a good sense of just how 
capable those are, the fast response cutters that you're 
looking to deploy.
    I know that there has been a lot of focus on this. I just 
ask that you involve Congress a little bit more on the 
deployment of these assets. There are things that we're hearing 
in Alaska, and I don't want to go into specifics, but, you 
know, maybe three new FRCs in one place to help on maintenance, 
but it might not help with regard to the scope and scale, and 
the same with the national security cutters, particularly if 
there are a couple more online.
    So can I get your commitment that you would work with this 
Committee in particular on, you know, the plan, the ops, the 
kind of strategic thinking that is going into the home-basing 
and deployment of these assets? As you know, whether it's IUU 
fishing, as Senator Schatz mentioned, or, you know, extremely 
increased activity in the Arctic and the migration of fish 
there, I think we have an important role to play.
    Admiral Zukunft. You have my commitment on that, Senator. 
I've spent a lot of time patrolling those waters. The fast 
response cutter, much more capable than the 110-foot patrol 
boat it replaces, but it is the tyranny of distance as well. 
And our concern driving some of these decisions are the outyear 
expenses.
    Senator Sullivan. Yes.
    Admiral Zukunft. And so we're dealing with negative growth 
in our operating expense account, which is why I'm looking for 
a 5 percent increase. So we're not making budget-driven 
decisions, we're making operational decisions to provide the 
optimal force lay-down for the State of Alaska.
    Senator Sullivan. No, and, look, I'm certainly focused on 
Alaska, but other places, Hawaii, and other parts; Senator 
Cantwell is here, Washington State. But I think that's where we 
can play a really important role because if some of your 
decisionmaking that is going on internally within the Coast 
Guard is operational or maintenance, or a combination of both, 
and you need to have certainty on accounts, we can help with 
that in terms of overall making the strategic decisions more 
viable for the long term, but it's important for all of us to 
work together to understand your thinking and to know what you 
need to maximize kind of the reach.
    Admiral Zukunft. Yes, sir, Chairman. And we will provide 
full transparency. I will not sign any final document until it 
has been briefed to you personally.
    Senator Sullivan. Excellent.
    Senator Peters, do you have another follow up----
    Senator Peters. Just a follow up before we get to Senator 
Markey.
    Admiral, you mentioned and I wanted to just get back to the 
Great Lakes and the oil cleanup and your statement of how 
concerned you are about a major oil spill in the Great Lakes 
and our ability to clean that up, to understand the dynamics of 
cleanup in fresh water in particular, where there's a dearth of 
research as to how to do that.
    As you're well aware, the 2017 Coast Guard authorization, 
which we'll hopefully be moving quickly, does include the 
creation of a center of expertise, something you and I have 
spoken about, work with the Coast Guard, but also realizing 
resource constraints, although there are innovative ways that 
we can involve our universities, some private contractors, 
others that have an interest in it.
    But if you could talk briefly as to why a center of 
excellence is important to better understand freshwater cleanup 
and the dynamics of cleaning up in fresh water, and how it 
would be important to locate that center near a place that 
could potentially suffer from a catastrophic oil spill, and 
having prepositioned equipment there with people who are 
trained to use that equipment, as well as how to train in ice 
cover? You mentioned that in your previous comments.
    And I know there has been some testing at your research 
center, which does outstanding work, but some of the skimming 
techniques and others were not particularly effective in ice. 
And given ice is a problem not just in Michigan, but in Alaska 
and all across pipelines all across Northern America, if you 
could speak briefly of why a center of expertise to evaluate 
freshwater cleanup would be a great aid to our abilities to 
keep the environment clean and something as important as the 
Great Lakes, which provides drinking water for 40 million 
people.
    Admiral Zukunft. Yes, sir, Senator. So let me just go back 
briefly in time. And the reason I said, you know, we would not 
be semper paratus is probably recall a pipeline spill in 
Kalamazoo. It was really in EPA's area of responsibility. We 
helped in that response as well, a land-based, and it's 
difficult in a very expensive oil spill because of the unique 
aspects of that oil as well. Now you put it in a lake, and now 
you put ice over a lake, and we do not have the technology to 
bear. So, yes, we need to move out on this.
    The infrastructure piece, that obviously comes with a bill, 
so I want to make sure that we don't let that stand in the way 
of progress. We do have a great R&D center. Part of that is 
funded by the Oil Spill Liability Trust Fund. And I think we do 
need to make this a high priority as we look at more pipelines 
crossing navigable waterways, and those waters have multiple 
uses besides just for navigation.
    I'd be happy to work with your staff, with your 
constituents as well, to make sure that we have a strategic way 
forward of what are we doing to address this? The Finns have 
some unique capability in removing oil from ice. You know, what 
is the state-of-the-world technology in addressing some of 
these very same challenges? And then we can address the 
infrastructure component of that as we go forward as well. But 
we can't let, you know, brick and mortar stand in the way of 
good science because right now some of that is lacking.
    Senator Sullivan. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman. Thank you and 
Senator Peters for having this very important hearing.
    Commandant, thank you for being here. Good to see you 
again. And I just want to say for the record that the fishermen 
of the State of Massachusetts would like to thank the Commander 
of District 1, Admiral Steven Poulin, for his great work and 
everyone in his division for the work and safety that they 
provide on a daily basis.
    On December 20, 2004, the Northern Edge, a New Bedford-
based scallop vessel, sank, and six fishermen were lost at sea. 
The Coast Guard conducted a 43-hour search, but only one 
fisherman unfortunately survived. This tragic loss was the 
worst accident since the tragedy depicted in the famous movie 
The Perfect Storm where the Andrea Gail of Gloucester sank in 
1991.
    The sinking of the Northern Edge prompted the Massachusetts 
Bay Fishing Partnership Support Services to create a safety and 
survival training program to train fishermen on man overboard 
procedures, emergency communications, flooding and pump 
operation, and other skills to be able to act quickly in 
emergency situations so that these tragedies do not reoccur. 
These trainings are heavily valued by fishermen and have spread 
from coast to coast. The safety and survival trainings are 
lifesaving and also save the Coast Guard millions in resources. 
However, these programs do not have stable funding. They have 
been appropriated funds, but only on a year-by-year basis, and 
fishermen need to have the assurance that these programs will 
be funded every year.
    The 2-day search for the Northern Edge cost over of $1.5 
million. While we all agree that the Coast Guard search and 
rescue missions are essential, we should work to stop these 
tragic events before they happen, and that's what these 
training programs are designed to do.
    Commandant, can you speak to the importance of having 
safety programs in place and how having consistent training 
supported by constant funding would help the Coast Guard's 
budget?
    Admiral Zukunft. Senator, you're a strong advocate of 
prevention and so we don't have to respond. And so anything 
that takes us out of the business of having to respond and 
preventing, providing these mariners with the wherewithal to 
operate, and again, up in--up off the Grand Banks in the 
wintertime, it's a hazardous operating environment. So it's 
absolutely critical. It used to be called the ``Deadliest 
Catch'' in Alaska, but I would say, you know, we've seen more 
fatalities of late off the Pacific Northwest, but no different: 
cold water, extreme weather. And this training, if it saves one 
life--I said earlier in this hearing you can't put a dollar 
value on a life. And I think consistent funding, if it saves 
lives, is money well spent.
    Senator Markey. So just moving on, in response to our 
hearing last March, you stated that only Class 2 Coast Guard 
vessels are equipped with naloxone, Narcan, and that Coast 
Guard commanders are assessing the opioid threat in the local 
area to identify any high-risk areas, populations, and risk of 
exposure. Have you identified any high-risk areas? And what are 
you doing to encourage other classes of Coast Guard vessels to 
be equipped with Narcan?
    Admiral Zukunft. Thank you for that question, Senator. We 
have since moved on, and we are putting this out to all field 
units in the Coast Guard. Yes, we have an epidemic on our hands 
right now, so this is Coast Guard-wide, not one tier of ships. 
It could be on a fishing fleet or recreational boater. There is 
no community that exempt--is exempt to this epidemic.
    Senator Markey. So since March, you have created a program 
that covers all of those classes?
    Admiral Zukunft. Yes, sir.
    Senator Markey. Yes. Excellent. And, of course, the Coast 
Guard can't perform their lifesaving work if they can't 
navigate our Nation's rivers and channels and harbors. For some 
communities in Massachusetts: Essex, Plymouth, Gloucester, 
Newburyport, the waterways are filling up with so much sand 
that Coast Guard vessels cannot safely pass. Many of these 
waterways are federally owned, and it's the U.S. Army Corps of 
Engineers' responsibility to dredge these waterways to ensure 
the swift and safe passage of ships. Has the backlog of Corps 
dredging projects harmed the Coast Guard's ability to perform 
its critical functions?
    Admiral Zukunft. The Army Corps was a key partner when we 
reopened numerous ports following this year's hurricane season. 
And in the interim, we would reset aids to navigation where 
there was survey work. We knew there was shallow water, but it 
still allowed ships, boats, to safely pass as we remarked 
waters, as they addressed some of those shoaling activities. I 
can't address what the backlog is in the Army Corps of 
Engineers, but what I can say is they have been a reliable 
partner as we look to reconstitute ports.
    Senator Markey. But from your perspective, it would be 
better if there were dredging pots of funding in order to 
ensure that sand was cleared out so that you could do your job 
even better?
    Admiral Zukunft. Certainly, if there is shoaling, 
absolutely critical for us to be able to carry out our 
missions.
    Senator Markey. Thank you. Thank you for your good work and 
all the people who work for you. Thank you, sir.
    Senator Sullivan. Thank you, Senator Markey.
    And, Admiral, thanks again for your great service. Please 
pass on from this Committee and the rest of the Senate the 
appreciation that we all have for the great job that the men 
and women of the Coast Guard are doing for our country.
    Admiral Zukunft. Thank you. Thank you, Chairman, Ranking 
Member.
    Senator Markey, thank you as well.
    Senator Sullivan. Great. I would now like to invite the 
second panel forward. We have a distinguished panel of citizens 
who have come from all across our country. The first is a 
constituent of mine, Ms. Etta Kuzakin, who is the President of 
the Agdaagux Tribe of King Cove. She is a leader in Alaska. She 
has a compelling story, I believe brought a family member with 
her. And literally came from thousands of miles for this 
hearing.
    So, Etta, thank you for being here.
    We have Mr. Lee Smithson, the Executive Director of the 
Mississippi Emergency Management Agency. And I know that 
Senator Wicker already spoke of his strong background.
    And Dr. Guy Meadows, from the Michigan Technological 
University. And Senator Peters is going to say a few words 
about Dr. Meadows before we begin testimony from each of our 
witnesses.
    Senator Peters. Thank you, Mr. Chairman. I'm pleased to 
introduce Dr. Guy Meadows, who is the Director of the Great 
Lakes Research Center and a research professor for mechanical 
engineering and engineering mechanics at Michigan Tech.
    Dr. Meadows has a long history of working in and around the 
Great Lakes with research interests in geophysical fluid 
dynamics and with an emphasis on environmental forecasting and 
experimental hydrodynamics.
    In September, Dr. Meadows was selected by the Michigan 
Pipeline Safety Advisory Board to lead a panel of academic 
experts from around Michigan to develop a risk analysis for the 
dual pipeline that crosses underneath the Straits of Mackinac.
    Thank you for being here today, Dr. Meadows. And we all 
look forward to your testimony. Thank you again.
    Senator Sullivan. So each of our witnesses will have 5 
minutes for their opening statement. If you wish to submit a 
longer statement for the record, we will, of course, accept 
that. We will begin with Ms. Kuzakin.

 STATEMENT OF ETTA KUZAKIN, PRESIDENT, AGDAGUUX TRIBE OF KING 
                    COVE, LIFELONG RESIDENT

    Ms. Kuzakin. Good morning, Chairman Sullivan, Ranking 
Member Peters, and members of the Subcommittee. My name is Etta 
Kuzakin. I'm an Aleut and President of the Agdaagux Tribal 
Council of King Cove, Alaska. I was born and raised and 
continue to live in King Cove, an isolated community surrounded 
by spectacular beauty. It is the land of my ancestors. The 
Aleut people have inhabited the area for more than 4,000 years. 
King Cove is a tight-knit community and a wonderful place to 
raise a family. My husband and I have three beautiful children 
ranging from 4 to 20 years old.
    Today I am speaking to you not only as the President of the 
Agdaagux Tribe, but as a mother who nearly lost her youngest 
child, and possibly my own life, were it not for the courageous 
men and women of the Coast Guard who came to the rescue, my 
rescue, more than four and a half years ago. Sorry.
    Because our community has no hospital or doctor, we must 
travel 600 miles to Anchorage for most medical procedures. Our 
local clinic is staffed with wonderful dedicated employees, but 
there is only so much the health aides can do with the limited 
resources. The clinic is unable to handle trauma, heart, and 
respiratory complications, and childbirth. I am unable to give 
birth naturally and must have a cesarean section, another 
complicated beyond the capability of our small clinics.
    In March 2013, I went into early labor. Despite my careful 
plans to travel to Anchorage well ahead of my due date, my baby 
had plans of her own. Gale-force winds were howling that day, 
and I knew as I waited in the clinic that no flights were going 
to make it into King Cove. My fears were later confirmed, I was 
in no condition to attempt to cross the choppy water by boat. 
My only hope was that the Coast Guard would send a helicopter 
from Kodiak for me. Without them, I wouldn't have been able to 
get out, and neither my daughter nor I would be here to tell 
the story.
    Thankfully, after waiting several hours, they came. The 
winds were so strong that the Coast Guard pilots had to 
maneuver the helicopter carefully so the doors wouldn't blow 
in. They were able to land safely in Cold Bay so I could get 
transported to a medevac plane and flown to Anchorage.
    I know it's not the job of the Coast Guard to medevac 
pregnant women, but I thank God every day for their courageous, 
selfless devotion to the people of Alaska and their willingness 
to put themselves in harm way to ensure our safety. It's 
because of the men and women of the Coast Guard stationed in 
Kodiak that my beautiful daughter, Sunnie Rae, is alive. Today 
she's an energetic 4-year-old, and I cannot imagine life 
without her. Every time my daughter smiles, I am reminded of 
how easily things could have turned out differently.
    Not every story has a happy ending in King Cove. From 1980 
to 2003, 18 people have died because of plane crashes during 
the severe weather or the inability to get timely medical care. 
Since former Interior Secretary Sally Jewell denied our road on 
December 2013, there have since been 68 medevacs from King 
Cove. Seventeen of those patients were seriously ill or injured 
and were medevaced by the Coast Guard. I am grateful that all 
of them, including the Coast Guard personnel, made it out of 
King Cove safely.
    Our notorious harsh and unpredictable weather on the Alaska 
Peninsula means that some Coast Guard medevacs are not only 
dangerous for the patients, but also for the Coast Guard. At 
least 30 percent of the time, flights are delayed or canceled 
because of gale-force winds, snow squalls, or dense fog. Yet, 
time and time again the Coast Guard has come to our rescue when 
no one else would.
    We are hopeful that in the near future, we'll have a 
single-lane gravel road connecting our isolated community to 
the nearby all-weather airport, providing a safe and reliable 
transportation alternative. We have been fighting to have this 
small road link through the Izembek National Refuge for more 
than 35 years for health, safety, and quality of life reasons. 
For us, having the peace of mind and knowing that our loved 
ones will be safe when traveling to and from King Cove means 
everything to us.
    Until then, I would like to once again express my profound 
gratitude to the men and the women of the U.S. Coast Guard who 
put their lives on the line day in and day out.
    Thank you.
    [The prepared statement of Ms. Kuzakin follows:]

Prepared Statement of Etta Kuzakin, President of Agdaguux Tribe of King 
                        Cove, Lifelong resident
    Good morning, Chairman Sullivan, Ranking Member Peters and Members 
of the Subcommittee. My name is Etta Kuzakin. I am an Aleut and 
President of the Agdaagux Tribe of King Cove, Alaska. I was born and 
raised, and continue to live in King Cove, an isolated community 
surrounded by spectacular beauty. It is the land of my ancestors. The 
Aleut People have inhabited the area for more than 4,000 years. King 
Cove is a tight-knit community, and a wonderful place to raise a 
family. My husband and I have three beautiful daughters ranging in age 
from 4 to 20 years.
    Today, I am speaking to you not only as President of the Agdaguux 
Tribe, but as a mother who nearly lost my youngest child and possibly 
my own life, were it not for the courageous men and women of the Coast 
Guard who came to my rescue more than four and a half years ago.
    Because our community has no hospital or doctor, we must travel 600 
miles to Anchorage for most medical procedures. Our local clinic is 
staffed with wonderful, dedicated employees, but there is only so much 
the health aides can do with limited resources. The clinic is unable to 
handle trauma, heart and respiratory complications and childbirth. I am 
unable to give birth naturally and must have cesarean sections, another 
complication beyond the capability of our small clinic.
    In March 2013, I went into early labor. Despite my careful plans to 
travel to Anchorage well ahead of my due date, my baby had plans of her 
own. Gale-force winds were howling that day. I knew, as I waited at our 
clinic, that no flights were going to make it into King Cove. My fears 
were later confirmed. I was in no condition to attempt crossing the 
choppy bay by boat. My only hope was for the Coast Guard to send a 
helicopter from Kodiak for me. Without them, I wouldn't have been able 
to get out, and neither I nor my daughter would be here today to tell 
our story. Thankfully, after waiting for several hours, they came. The 
winds were so strong, that the Coast Guard pilots had to maneuver the 
helicopter carefully so the doors wouldn't get blown in. They were able 
to land safely in Cold Bay so I could be transferred to a medevac plane 
and flown to Anchorage.
    I know it's not the job of the Coast Guard to medevac pregnant 
women, but I thank God every day for their courageous, selfless 
devotion to the people of Alaska and their willingness to put 
themselves in harm's way to ensure our safety. It's because of the men 
and women of the Coast Guard station Kodiak that my beautiful daughter, 
Sunnie Rae, is alive.
    Today, she is a joyful, energetic, wonderful four-year-old, and I 
cannot imagine my life without my precious little girl. Every time my 
daughter smiles, I am reminded of how easily things could have turned 
out differently. Not every story has ended as happily as mine. From 
1980 to 2003, 18 people have died because of plane crashes during 
severe weather or an inability to get timely medical care.
    Since former Interior Secretary Sally Jewell denied our road in 
December 2013, there have been 68 medevacs from King Cove. Seventeen of 
those patients were seriously ill or injured and were medevaced by the 
Coast Guard. I am grateful that all of them, including our Coast Guard 
personnel, made it out safely.
    Our notoriously harsh and unpredictable weather on the Alaska 
Peninsula means that some Coast Guard medevacs are not only dangerous 
for patients, but also for the Coast Guard. At least 30 percent of the 
time, flights are delayed or cancelled because of gale-force winds, 
snow squalls or dense fog. Yet, time and time again, the Coast Guard 
has come to our rescue when no one else could.
    We're hopeful that in the near future, we'll have a single-lane 
gravel road connecting our isolated community to the nearby all-weather 
Cold Bay Airport, providing a safe and reliable transportation 
alternative. We have been fighting to have this small road link, 
through the Izembek National Wildlife Refuge, for more than 35 years 
for health, safety and quality of life reasons. For us, having the 
peace of mind of knowing that our loved ones will be safe when 
traveling to and from King Cove means everything to us.
    Until then, I'd like to once again express my profound gratitude to 
the men and women of the Coast Guard who put their lives on the line 
day in and day out.
    Thank you.
                                 ______
                                 
                        2014 King Cove Medevacs
         (Updated 1/8/15. Confirmed with the King Cove Clinic.)
Coast Guard Medevacs:
  1.  Feb. 7, 2014: Peter Pan Seafoods (PPSF) employee, male, in his 
        60s. Gastro-intestinal (GI) bleed.

     Feb. 14, 2014: 63-year-old Irene Newman was medevaced because of 
        heart problems.

     March 11, 2014: Wyatt Wilson, Walter's infant son, struggled to 
        breathe. Was later diagnosed with RSV. He and his father were 
        medevaced separately via the Coast Guard.

     March 11, 2014: Fisherman Walter Wilson, Jr., 33, dislocated both 
        hips and fractured his pelvis after a 600-lb. cod pot fell on 
        him.

     March 31, 2014: 58-year old fisherman aboard the M/V Golden 
        Alaska, a Seattle-based processor, came into clinic with a 
        severely injured eye.

     Oct. 16, 2014: An 84-year old male from King Cove was transported 
        by ambulance to the King Cove Clinic at 10:30 p.m. He was very 
        ill and was treated for sepsis. About three hours later, he was 
        loaded onto a U.S. Coast Guard helicopter (at approximately 
        1:30 a.m.) and was taken to Cold Bay. (Guardian can only land 
        in King Cove during daylight hours, according to FAA 
        regulations.) Guardian then flew the patient from Cold Bay to 
        Anchorage for medical care. Fortunately, the weather was clear.
Total Coast Guard medevacs = 6
Other Medevacs:
   1.  Jan. 3, 2014: Local resident. Male, GI bleed. In his 50s. 
        Physician's Assistant Katie Eby monitored him throughout the 
        night. He was medevaced the next day, via Guardian.

   2.  March 16, 2014: PPSF employee, male, in his late 40s, head 
        trauma. Guardian medevac.

   3.  March 21, 2014: 19 year old, male. Infection. His leg was cut 
        working on a boat. Infection started setting in later. Guardian 
        medevac.

   4.  April 11, 2014: Alaska man suffering from apparent heart attack 
        was medevaced aboard a Coastal freight boat from King Cove to 
        Cold Bay. No other planes or boats were traveling because of 
        high winds and seas.

   5.  April 15, 2014: Elderly King Cove resident suffering from 
        possible internal bleeding. Was medevaced via a local charter 
        airline service to Cold Bay and then to an Anchorage hospital. 
        Weather was decent for flying.

   6.  April 18, 2014: King Cove female resident in her 50s with severe 
        breathing difficulties due to an anaphylactic type reaction to 
        an allergen. Unable to get any other airline service to come in 
        because winds were very high. Due to patient's condition, boat 
        travel was out of the question. Coast Guard didn't come. Had to 
        wait until morning for Guardian to medevac patient out of King 
        Cove.

   7.  June 19, 2014: A male in his mid-20s (works for Peter Pan 
        Seafoods, but not a King Cove resident) was in acute 
        respiratory distress when he arrived at the King Cove Clinic. 
        The patient has a history of asthma and was seen for 
        respiratory problems over the past few months. All medication 
        and treatment options had been exhausted. He was medevaced by 
        Guardian to Providence Alaska Medical Center in Anchorage at 
        7:30 p.m. The weather was clear.

   8.  July 7, 2014: A 49 year-old male (not a resident of King Cove) 
        suffering from internal bleeding was treated at the King Cove 
        Clinic. He was medevaced out on Guardian on a clear day.

   9.  Aug. 23, 2014: A King Cove man in his late 40s suffered from a 
        severe abdominal infection. Guardian arrived in Cold Bay but 
        was unable to fly into King Cove due to deteriorating weather 
        conditions (fog and low visibility). High wind and waves 
        prevented travel by boat. The patient was stabilized and waited 
        for a medevac for about 14 hours. The medevac pilot was able to 
        fly into King Cove after the weather improved and daylight 
        arrived.

  10.  Sept. 9, 2014: An 84 year-old King Cove woman with chest pains 
        arrived at the clinic because of concerns about a possible 
        heart attack. Patient was monitored overnight at the King Cove 
        Clinic until Guardian could safely land at the King Cove 
        airstrip during daylight hours. The patient was stable while 
        waiting about nine hours for the medevac team to arrive. (The 
        weather was clear.
Total non-Coast Guard medevacs: 10
Total King Cove medevacs = 16
                                 ______
                                 
                        2015 King Cove Medevacs
(Updated 12/22/15. Confirmed with Eastern Aleutian Tribes and the Coast 
                                 Guard)
Coast Guard Medevacs:
  1.  February 22, 2015: A female in her 80s was seen at the King Cove 
        Community Health Center for an infection at about 6:30 p.m. It 
        was determined by the emergency department in Anchorage that 
        the patient needed to be medevaced out of King Cove as soon as 
        possible. The Coast Guard arrived about 3 hours later (9:30 
        p.m.) and transported the patient from King Cove to Cold Bay 
        where the patient was then transferred to Guardian to come into 
        Anchorage. No weather delays. The Coast Guard plane was used 
        from King Cove to Cold Bay due to the fact that the patient 
        needed to be transported to Anchorage immediately and planes do 
        not fly in and out of King Cove when it is dark.

  2.  July 20, 2015: a female in her 20s (resident of Nevada) was 
        treated at the King Cove Clinic at 9 a.m. for an immediate 
        life-threatening condition, according to Eastern Aleutian 
        Tribes. EAT did not specify the condition. However, according 
        to the Coast Guard, she was treated for a severely obstructed 
        airway. Clinicians consulted with Providence Hospital and ANMC. 
        It was recommended that the patient be brought into ANMC for 
        evaluation. EAT said it was unsafe for Guardian to land in King 
        Cove due to weather. The Coast Guard was called at 2 p.m. A 
        helicopter from a cutter in the Bering Sea was dispatched and 
        arrived at about 4:40 p.m. The Coast Guard was unable to land 
        at the King Cove airstrip because of fog and low visibility, so 
        the helicopter landed in the old high school parking lot 
        instead. The patient was transported to Cold Bay and 
        transferred to Guardian Flight. Guardian then transported the 
        patient to Anchorage.

  3.  July 20, 2015: a King Cove male resident in his 40s was treated 
        at the King Cove Clinic at 9:45 a.m. According to Eastern 
        Aleutian Tribe, he was '' very ill.'' EAT did not specify the 
        condition. The Coast Guard said it was breathing difficulties. 
        EAT said a Providence emergency room doctor recommended that 
        the patient be medevaced to Anchorage. Due to weather, it was 
        not safe for Guardian to land in King Cove. The Coast Guard was 
        called. After transporting another patient to Cold Bay earlier 
        that afternoon, the Coast Guard refueled and returned to King 
        Cove, landing in the old high school parking lot due to low 
        visibility and fog at the airstrip. The Coast Guard arrived at 
        about 5:30 p.m. and transported the patient to the Cold Bay 
        Airport. Guardian then transported the patient to an Anchorage 
        Hospital.

  4.  July 27, 2015: A King Cove male resident in his 70s arrived at 
        the King Cove Clinic at 4:45 p.m. on July 26, 2015 after 
        feeling extremely ill. After clinicians consulted with ANMC's 
        ER doctor, they decided to medevac him out of King Cove. 
        Guardian Flight was called, but was on weather hold (fog and 
        limited visibility). The patient was stabilized overnight. The 
        following morning (July 27, 2015), the elderly man's condition 
        began to deteriorate. Because of his previous medical 
        conditions, the Coast Guard said there was cause for concern. 
        In the interest of time, the Coast Guard launched a MH 60 
        Jayhawk helicopter. It arrived in King Cove at noon to medevac 
        the patient to the Cold Bay Airport. From there, the patient 
        was transferred to a Coast Guard C-130and transported to an 
        Anchorage hospital. The patient waited 19\1/2\ hours to be 
        medevaced from the time he arrived at the clinic to the time he 
        was medevaced.

  5.  Oct. 16, 2015: A male resident of King Cove in his 50s was 
        treated at the King Cove clinic for internal bleeding. After 
        clinicians consulted with an ER doctor in Anchorage, it was 
        determined that the patient needed to be medevaced due to the 
        severity of his condition. Guardian was unable to fly into King 
        Cove because it was dark, so the Coast Guard was called. The 
        Coast Guard transported the patient after 10 p.m. to Cold Bay. 
        The patient was then transferred to a Guardian plane and 
        brought into Anchorage for treatment.

  6.  Oct. 24, 2015: A male in his late 50s from Deer Park, Washington 
        was treated at the King Cove Clinic for a possible life-
        threatening medical condition (ketoacidosis). Clinicians 
        consulted with an E.R. physician in Anchorage and it was 
        determined that he needed to be medevaced out. Due to poor 
        visibility, Guardian was unable to fly into King Cove so the 
        Coast Guard was called at 12:15 p.m. The Coast Guard arrived at 
        1:30 p.m. The Coast Guard's MH-65 Jayhawk helicopter 
        transported the patient to Cold Bay. Once there, the patient 
        was transferred to a Guardian Flight plane and transported to 
        an Anchorage hospital for treatment.

  7.  Nov. 5, 2015: A King Cove female in her 50s was treated at the 
        King Cove Clinic early in the morning. Clinicians consulted 
        with an E.R. physician in Anchorage and it was determined that 
        she needed to be medevaced out due to a severe medical 
        condition that required a higher level of care. Due to low 
        visibility and high winds, Guardian Flight was not able to fly 
        into King Cove. The Coast Guard was called at 1:45 a.m. Coast 
        Guard personnel arrived at the King Cove airport at 9:45 a.m. 
        in a MH-60 Jayhawk. The patient was transferred to the Coast 
        Guard's C-130 and transported to an Anchorage hospital.

  8.  Nov. 12, 2015: A male in his 20s (city of origin not documented) 
        was treated at the King Cove Clinic at 1 a.m. for trauma. After 
        clinicians consulted with ER doctors in Anchorage, it was 
        recommended that the patient be medevaced to Anchorage. 
        Guardian was unable to come in because of excessively high 
        winds. The patient's vitals were becoming more irregular over 
        time. The Coast Guard was called and arrived in King Cove at 
        2:45 p.m. to medevac the patient to Anchorage.
Total Coast Guard medevacs = 8
Other Medevacs:
   1.  Jan. 15, 2015: A male in his 20s working in the community (not a 
        resident) was transported to the clinic by ambulance for a head 
        trauma injury at about 1:15pm. The weather was up and down at 
        the time (wind, snow/rain squalls). Because the clinic lacks 
        access to CT scan equipment needed to evaluate the extent of 
        the injury, it was determined by the emergency department in 
        Anchorage that the patient needed to be medevaced out of King 
        Cove. Life-Med was called, but would not send a plane into King 
        Cove because of the weather. The Coast Guard was considered, 
        however, the weather broke long enough for Guardian (based in 
        Unalaska) to come in before nightfall. Guardian arrived at 
        about 5:00p.m. to transport the patient.

   2.  Feb. 3, 2015: A female King Cove resident in her 40s was seen in 
        the clinic for abdominal pain. The providers were concerned and 
        contacted the emergency department in Anchorage who determined 
        that she needed to be medevaced out of King Cove. Weather was 
        not an issue. There were no significant delays. (airline not 
        specified)

   3.  Feb. 4, 2015: A female in her 50s (residency not specified) was 
        seen in the clinic for an altered mental status. Provider(s) 
        were concerned and contacted the emergency department in 
        Anchorage who determined that the patient needed to be 
        medevaced out of King Cove. Guardian picked her up. No 
        challenges were noted. No weather delays were noted.

   4.  February 14, 2015: A female in her 50s was seen at the King Cove 
        Community Health Center for a displaced wrist fracture at about 
        2:30 a.m. After unsuccessful attempts to reduce the fracture, 
        the providers consulted with the emergency department and 
        orthopedics in Anchorage. They requested that the patient be 
        medevaced. The King Cove runway was closed due to mud from 
        excessive rain, and it was too dark for planes to fly in, so 
        the patient was put on a fishing boat that transported her to 
        Cold Bay, arriving at about noon the following day to meet the 
        Guardian plane which then transported her to Anchorage. There 
        were no weather issues or problems with the boat getting to the 
        Cold Bay dock.

   5.  Feb. 25, 2015: A male in his 50s (California resident) was seen 
        at the King Cove Community Health Center on Feb. 24, 2015 at 
        approximately 7:30 p.m. for a cardiac emergency. The Anchorage 
        emergency department highly recommended that the patient be 
        medevaced out of King Cove. Guardian Flight was contacted but 
        unable to land that evening due to darkness. The Coast Guard 
        was contacted but unable to transport the patient to Cold Bay. 
        The next morning, Guardian was able to land directly at the 
        King Cove airfield and transported the patient to Anchorage at 
        around 9:30 a.m. on Feb. 25, 2015.

   6.  Feb. 25, 2015: A King Cove male resident in his 50s was seen at 
        the King Cove Community Health Clinic at approximately 4:00 
        a.m. on Feb. 25, 2015 for gastrointestinal bleeding. The 
        Anchorage emergency department determined that the patient 
        needed to be medevaced to Anchorage for further medical 
        evaluation and monitoring. Guardian was contacted and scheduled 
        to pick up this patient and the other patient (#5 on this list) 
        once daylight arrived. The patients left at approximately 9:30 
        a.m.

   7.  May 21, 2015: A King Cove female resident in her 80s was treated 
        at the King Cove clinic for internal organ issues at about 3 
        p.m. on May 20, 2015. Because of fog and poor visibility, she 
        could not be medevaced out until the following day. She was 
        monitored overnight and medevaced to Anchorage on May 21, 2015 
        at 10:30 a.m. via Guardian Flight during calm weather 
        conditions.

   8.  May 29, 2015: A King Cove resident (gender and age unknown at 
        this time) was treated at the King Cove Clinic for unusual pain 
        at about 4:20 p.m. on May 29, 2015. After clinicians consulted 
        with the Alaska Native Medical Center emergency department, it 
        was determined the patient should be medevaced out. Guardian 
        Flight's pilot determined that the extreme low cloud ceiling 
        would prevent him from safely landing in King Cove. The patient 
        remained at the King Cove Clinic for about 2 hours and 40 
        minutes before being transported on a local airline to Cold 
        Bay. From Cold Bay, the patient was transported to the local 
        clinic at about 8:40 p.m. Guardian Flight arrived shortly 
        afterward and transported the patient to an Anchorage hospital.

   9.  July 14, 2015: A male in his 60s from California was treated at 
        the King Cove Clinic at 8:15 a.m. After routine lab work was 
        conducted, clinicians consulted with an emergency room doctor 
        who determined the patient was suffering from a possible 
        malfunctioning internal organ. Guardian was called to medevac 
        the patient. The weather was calm and was not an issue.

  10.  July 22, 2015: a male in his 50s arrived at the clinic at 12:40 
        a.m. and was treated for an abnormal EKG. After clinicians 
        consulted with an Anchorage emergency room doctor, it was 
        determined the patient needed to be medevaced out of King Cove 
        and to an Anchorage hospital. Unclear from Eastern Aleutian 
        Tribes how patient was medevaced out.

  11.  July 28, 2015: An elderly King Cove male in his 90s was treated 
        at the King Cove Clinic for breathing difficulties. He arrived 
        at 8:30 p.m. An ER doctor with ANMC was called and determined 
        the man needed to be medevaced to Anchorage. The King Cove 
        Clinic called Guardian Flight that evening for the medevac, but 
        Guardian was on weather hold. So the clinic called the Coast 
        Guard. The Coast Guard's flight surgeon determined that the 
        nature of the patient's medical situation was such that he 
        could be stabilized and they could wait 12 hours until it was 
        safer to fly in. By that time, the weather improved and 
        Guardian was able to fly in to King Cove at about 8:40 a.m. on 
        July 28th to medevac the patient.

  12.  Aug. 30, 2015: A female under the age of 18 arrived at the King 
        Cove Clinic at 8:30 p.m. and was treated for seizures. After 
        clinicians consulted with an Anchorage emergency room doctor, 
        it was determined the patient needed to be medevaced. Guardian 
        Flight transported the patient to an Anchorage hospital.

  13.  Oct. 13, 2015: A female resident of King Cove in her 20s arrived 
        at the King Cove Clinic at 12:20 p.m. According to Eastern 
        Aleutian Tribes, she was treated for a worsening medical 
        condition. After the clinic consulted with an ER doctor in 
        Anchorage, it was determined that the patient should be 
        medevaced. Guardian arrived at 4 p.m. The weather conditions 
        did not cause any delays.

  14.  Dec. 5, 2015: A female King Cove resident in her 20s was treated 
        at the King Cove Clinic at 10 a.m. for anaphylaxis. Guardian 
        was called and came from Unalaska. Health clinicians were able 
        to stabilize the patient until Guardian arrived at 3:30 p.m. to 
        transport the patient to a hospital in Anchorage. The weather 
        conditions did not cause any delays.
Total non-Coast Guard medevacs: 14
2015 total# King Cove medevacs = 22
8 Coast Guard
14 non-Coast Guard
                                 ______
                                 
                        2016 King Cove Medevacs
Coast Guard Medevacs:
  1.  March 6, 2016: A King Cove female in her 20s arrived in the King 
        Cove Clinic at 7:55pm with severe internal pain. The clinic 
        consulted with the hospital's emergency room physician who 
        decided to request an immediate medevac. A Coast Guard 
        helicopter arrived at 11:00 p.m. and took the patient over to 
        Cold Bay where they were met by Life Med, who transported the 
        patient to an Anchorage hospital.

  2.  March 20, 2016: A King Cove female in her 50s was found 
        unconscious. The King Cove Clinic consulted with the hospital's 
        emergency room physician who decided to request a medevac. Due 
        to high winds, Guardian was unable to fly into King Cove. The 
        Coast Guard flew in from Cold Bay with a MH-60 Jayhawk 
        helicopter, arriving in King Cove at 6:30 p.m. At 7:56 p.m., 
        the Coast Guard helicopter departed King Cove and flew to Cold 
        Bay where the patient was transferred to Guardian Flight. The 
        patient was then taken to an Anchorage hospital.

  3.  June 16, 2016: A King Cove female in her 70s was treated at the 
        King Cove health clinic at 12:47 for heart issues. The clinic 
        consulted with an Anchorage hospital's emergency room physician 
        who decided to request a medevac. Due to high winds, Guardian 
        Flight was unable to fly into King Cove. The Coast Guard flew 
        in from Cold Bay with a MH-65 Dolphin helicopter, arriving in 
        King Cove at 5:30 p.m. The patient was transported to Cold Bay 
        where she was stabilized until a Guardian Flight plane arrived. 
        At 8:02 p.m., the patient was transferred to Guardian and 
        transported to an Anchorage hospital.
Total Coast Guard medevacs = 3
Other Medevacs:
   1.  Feb. 4, 2016: A King Cove female in her 60s arrived at the 
        clinic in the afternoon of Feb. 4th after experiencing a 
        fracture from a fall. Because of the fracture, it was 
        recommended that she be medevaced out. Guardian Flight was 
        called, but was delayed due to unavailability of flights. 
        (Their planes were being used in other communities.) When a 
        Guardian airplane became available, it was delayed due to fog, 
        rain and low visibility. The Coast Guard was called, but 
        because the patient was stable, it was determined that it was 
        unnecessary at that point. The patient waited at the clinic for 
        4\1/2\ hours. After the weather improved, Guardian made it into 
        King Cove at 7:10 p.m. and transported the patient to an 
        Anchorage hospital.

   2.  March 26, 2016: A non-resident male in his 60s arrived in the 
        King Cove clinic at 5:25pm with internal pain. The King Cove 
        Clinic consulted with the hospital's emergency room physician 
        who decided to immediately request a medevac. Guardian made it 
        to King Cove at 8:15 p.m. and transported the patient to an 
        Anchorage hospital.

   3.  April 11, 2016: An Anchorage female in her 40s was treated at 
        the King Cove Clinic at 1:40 p.m. following a seizure. After a 
        consultation, an emergency room doctor in Anchorage advised 
        clinicians to immediately medevac the patient. Guardian Flight 
        flew into King Cove and medevaced the patient at 5:30 p.m. The 
        patient was taken to Alaska Regional Hospital in Anchorage for 
        treatment.

   4.  April 23, 2016: A King Cove female in her 80s arrived at the 
        King Cove Clinic at 12:45 p.m. following an open fracture of 
        the arm. Following a consultation, an emergency room doctor in 
        Anchorage advised clinicians to immediately medevac the 
        patient. Guardian flew in and medevaced the patient at 6 p.m. 
        She was transported to the Alaska Native Medical Center for 
        treatment.

   5.  June 28, 2016: A King Cove female in her 70s arrived at the 
        clinic at 1 p.m. seeking treatment for chest pains. Following a 
        consultation, an emergency room doctor in Anchorage advised 
        clinicians to medevac the patient. There was a delay due to a 
        change of shift at Guardian and an additional delay due to 
        weather. Guardian medevaced the patient at 9:45 p.m. The 
        patient was transported to the Alaska Native Medical Center for 
        treatment.

   6.  July 13, 2016: A woman in her 70s from Anchorage went to the 
        King Cove clinic at 3:29 p.m. because of breathing 
        difficulties. After health clinicians consulted with an 
        emergency room doctor in Anchorage, they were advised to 
        immediately medevac the patient. There was a delay of at least 
        one hour because of a shift delay with the air ambulance 
        carrier. Guardian arrived in King Cove to transport the patient 
        at 7:45 p.m.

   7.  Aug. 13, 2016: A female King Cove resident in her 70s arrived at 
        the King Cove clinic at 11 p.m. on Aug. 13, 2016 to be treated 
        for a hip fracture. After health clinicians consulted with an 
        emergency room doctor, they were advised to medevac the 
        patient. Because of the weather, Guardian was delayed 40-plus 
        hours so the patient was stabilized until then. The Coast Guard 
        was called, however, because the patient was stable, the agency 
        did not respond, but told the clinic it would reevaluate if the 
        patient's condition worsened. The patient was medevaced by 
        Guardian at 4:30 p.m. on August 15, 2016.

   8.  Aug. 15, 2016: A male in his 50s from Anchorage went to the King 
        Cove clinic at 2:09 p.m. because of abdominal pain. Health 
        clinicians consulted with an emergency room doctor in Anchorage 
        who advised medevacing the patient. Guardian medevaced the 
        patient at 5:30 p.m. from King Cove and transported the patient 
        to Anchorage.

   9.  Aug. 22, 2016: A King Cove woman in her 50s went to the King 
        Cove clinic at 9:30 a.m. due to abdominal pain. Clinicians 
        consulted with an Anchorage emergency room doctor who 
        recommended she be medevaced to an Anchorage hospital. The 
        Coast Guard was called, but the clinic was told the agency did 
        not have resources available to come to King Cove. Guardian was 
        unable to come in due to fog and low visibility. About 90 
        minutes later, a local charter service was able to come into 
        King Cove and transport the patient to Cold Bay. The patient 
        was stabilized at the Cold Bay clinic for two hours before 
        being medevaced by Guardian at 1:30 p.m. and then transported 
        to an Anchorage hospital.

  10.  Aug. 24, 2016: A King Cove woman in her 50s went to the King 
        Cove clinic at 3:15 p.m. due to chest pain. Clinicians 
        consulted with an Anchorage emergency room doctor who 
        recommended she be medevaced to an Anchorage hospital. At the 
        time, fog and low visibility prevented Guardian from landing in 
        King Cove. At about 5:15 p.m. a local airline was able to 
        transport the patient to Cold Bay. The patient was transferred 
        to a Guardian plane and transported to Anchorage.

  11.  Sept. 16, 2016: A King Cove woman in her 20s arrived at the King 
        Cove clinic at 12:30 p.m. She was treated for an obstetrics 
        gynecology complication. Clinicians consulted with an Anchorage 
        emergency room doctor who recommended that she be medevaced to 
        an Anchorage hospital. She was stabilized until an air 
        ambulance was available. LifeMed arrived in King Cove at 9 p.m. 
        and transported the patient to Anchorage.

  12.  Nov. 15, 2016: A King Cove male in his 50s arrived at the clinic 
        at 1:40 a.m. with multiple injuries, including a fracture. The 
        patient was medevaced to Anchorage's Alaska Native Medical 
        Center via Guardian Flight. There were no weather challenges.

  13.  Dec. 7, 2016: A male in his 40s from California arrived at the 
        clinic at 10 a.m. and was treated for pneumonia as well as 
        other complications. A local airline transported him to Cold 
        Bay. He was then transferred to a Guardian Flight plane and 
        medevaced to an Anchorage hospital for treatment.

  14.  Dec. 10, 2016: A King Cove male in his 80s was treated at the 
        clinic at 12:40 p.m. for abdominal pain. The patient required a 
        CT scan, so he was medevaced to an Anchorage hospital via 
        Guardian Flight.
Total non-Coast Guard medevacs = 14
2016 total# King Cove medevacs = 17
3 Coast Guard
14 non-Coast Guard
2015 total # King Cove medevacs = 22
8 Coast Guard
14 non-Coast Guard
2014 total# of King Cove medevacs = 16
6 Coast Guard
10 non-Coast Guard
                                 ______
                                 
                        2017 King Cove Medevacs
Coast Guard Medevacs:
Total Coast Guard medevacs: 0
Other Medevacs:
   1.  Feb. 4, 2017: A young man in his 20s (info on residence 
        unavailable) was treated at the King Cove Clinic for an 
        infection in his airway. The local airline, Grant Aviation, was 
        unable to land in King Cove because the runway was too soft 
        (muddy). Therefore, the physician's assistant accompanied the 
        patient on a fishing tender with the patient, due to concerns 
        about the patient's airway. The plan was to send the patient on 
        PenAir as an urgent patient. However, when they arrived in Cold 
        Bay and went to the clinic, health providers were concerned 
        about the airway and contacted emergency room doctors in 
        Anchorage. Emergency room doctors agreed that due to concerns 
        with the patient's airway, the patient should not be sent on a 
        commercial plane. Instead, a medevac airplane was authorized to 
        come to Cold Bay to pick up the patient and transport him to an 
        Anchorage hospital.

   2.  March 12, 2017: an Alaska male in his 30s was treated at the 
        King Cove Clinic for large lacerations. An Anchorage emergency 
        room doctor recommended that the patient be medevaced. The 
        weather was calm and there were no weather delays. The patient 
        was medevaced by LifeMed from King Cove to an Anchorage 
        hospital.

   3.  March 23, 2017: A female King Cove resident (age unknown) was 
        treated at the King Cove Clinic. The reason for treatment is 
        not available (from Eastern Aleutian Tribes). An Anchorage 
        emergency room doctor recommended that the patient be 
        medevaced. The patient was medevaced from King Cove to 
        Anchorage via LifeMed.

   4.  April 12, 2017: a female King Cove resident in her 50s to 60s 
        was treated at the King Cove Clinic for head trauma. The 
        visiting physician consulted with an Anchorage hospital 
        emergency room physician, and it was recommended that the 
        patient be medevaced. No other details are available from 
        Eastern Aleutian Tribes.

   5.  April 26, 2017: A King Cove male in his 30s to 40s was treated 
        at the King Cove Clinic for head trauma and loss of 
        consciousness. The visiting physician consulted with an 
        Anchorage hospital emergency room physician, and it was 
        recommended that the patient be medevaced. No other details are 
        available from Eastern Aleutian Tribes.

   6.  April 26, 2017: A King Cove girl was treated at the King Cove 
        Clinic at 10 p.m. for suspected appendicitis. The visiting 
        physician consulted with an Anchorage hospital emergency room 
        physician, and it was recommended that the patient be medevaced 
        out due to worsening symptoms. Because it was getting dark 
        outside, a local airline transported the patient, accompanied 
        by a health care provider, to Cold Bay. A medevac airline 
        company medevaced the patient from Cold Bay to Anchorage.

   7.  May 4, 2017: A King Cove female in her 30s to 40s was treated at 
        the King Cove Clinic at midnight for a leg injury that occurred 
        after falling. The visiting physician consulted with an 
        Anchorage hospital emergency room physician, and it was 
        recommended that the patient be medevaced. No other details are 
        available from Eastern Aleutian Tribes.

   8.  July 3, 2017: A King Cove patient (gender unknown) in their 60s 
        arrived at the clinic at 3:30 p.m. Eastern Aleutian Tribes 
        reported that the patient had an internal concern that needed 
        immediate surgery. After consulting with an emergency room 
        doctor at ANMC, it was determined that the patient should be 
        medevaced to Anchorage. The patient was transported on a local 
        airline and was then transferred to a Guardian plane and 
        transported to Anchorage.

   9.  July 24, 2017: A King Cove woman in her 60s arrived at the 
        community's clinic at 11:45 a.m. and was treated for a possible 
        drug overdose. Because her condition was deteriorating, 
        clinicians made arrangements for her to be medevaced. Guardian 
        Flight departed with the patient from King Cove at 6 p.m. and 
        transported her to an Anchorage hospital.

  10.  July 25, 2017: A King Cove male in his 60s was treated at the 
        King Cove Clinic for respiratory problems. After consulting 
        with an Anchorage hospital emergency room physician, clinicians 
        decided to medevac him to Anchorage via Guardian Flight.

  11.  Sept. 11, 2017: A King Cove male in his 40s was treated at the 
        King Cove Clinic for an infection. After consulting with an 
        Anchorage hospital emergency room physician, clinicians decided 
        to medevac him to Anchorage. He was transported on a local 
        airline to Cold Bay and then transferred to a Guardian Flight 
        plane, which then transported the patient to Anchorage.

  12.  Sept. 15, 2017: A male (non-resident) in his 60s was treated at 
        the King Cove Clinic for stroke. After consulting with an 
        Anchorage hospital emergency room physician, clinicians decided 
        to medevac him to Anchorage. He was transported on a local 
        airline to Cold Bay and then transferred to a Guardian Flight 
        plane, which then transported the patient to Anchorage.

  13.  Oct. 22, 2017: A King Cove male infant was treated at the King 
        Cove Clinic for respiratory problems. After consulting with an 
        Anchorage hospital emergency room physician, clinicians decided 
        to medevac the baby to Anchorage via Guardian Flight.
Total non-Coast Guard medevacs = 9
2017 total# King Cove medevacs--13
0 Coast Guard
13 non-Coast Guard
2016 total# King Cove medevacs = 17
3 Coast Guard
14 non-Coast Guard
2015 total# King Cove medevacs = 22
8 Coast Guard
14 non-Coast Guard
2014 total# of King Cove medevacs = 16
6 Coast Guard
10 non-Coast Guard
Since former Interior Secretary Sally Jewell denied the road in Dec. 
        2013:
68 total medevacs
17 Coast Guard
51 non-Coast Guard

    Senator Sullivan. Thank you, Etta, for that very powerful 
testimony and for your willingness to come all the way from 
Alaska to testify here today. It's very important, and I think 
your story, which is indicative of so many other stories, and 
what the Coast Guard does, needs to be known in this body, 
needs to be known, that an 11-mile gravel road is denied time 
and time again, most callously by Sally Jewell the latest time, 
where they put the lives of birds above the lives of people, 
whether it's you and your daughter or the brave men and women 
in the Coast Guard, and it's got to stop. It's outrageous. 
Nobody in the lower 48, nobody, would put up with this. But 
somehow for 30 years we've had to deal with it, and it's 
ridiculous. And you saw the Commandant agrees 100 percent with 
you and me. So thank you.
    Dr. Meadows.

           STATEMENT OF DR. GUY A. MEADOWS, DIRECTOR,

                  GREAT LAKES RESEARCH CENTER,

               MICHIGAN TECHNOLOGICAL UNIVERSITY

    Dr. Meadows. Mr. Chairman and members of the Subcommittee, 
I am Dr. Guy Meadows, and I am Director of the Great Lakes 
Research Center at Michigan Technological University in 
Houghton, Michigan.
    Our nation's northern coastlines present unique and 
demanding challenges in marine operations, and therefore to the 
U.S. Coast Guard. Much of the navigable water of Alaska and the 
Northeast Atlantic States and the Great Lakes can be classified 
as ``icebound seas'' for some part of the year.
    For the Upper Great Lakes, access through the Federal locks 
at Sault Ste. Marie closes annually from January to March, when 
ice shuts down the commercial shipping of the Great Lakes. 
During the remainder of the icebound season, it is the 
responsibility of the, and I quote, ``U.S. Coast Guard to 
assist in keeping open to navigation by means of ice-breaking 
operations . . . channels and harbors in accordance with the 
reasonable demands of commerce.'' That's from Executive Order 
7521 of 1936.
    The Guardians of the Great Lakes, the 6,000 men and women 
of the Ninth District of the Coast Guard, are responsible for 
the five Great Lakes, the Saint Lawrence Seaway, and parts of 
the surrounding states, including 6,700 miles of shoreline and 
1,500 miles of the international border with Canada.
    The Inland Seas of the Great Lakes are massive natural 
resources for the United States and Canada. Consider the Great 
Lakes as inland seas. Strung end-to-end, the Great Lakes would 
cover most of the U.S. East Coast and continental shelf from 
Maine to mid-Florida.
    The Great Lakes forms the largest group of freshwater lakes 
on Earth by total area, and second largest by total volume, 
containing 21 percent of the world's surface freshwater supply 
by volume. The United States are 84 percent of the surface 
water supply in North America. And more than 35 million people 
rely on the Great Lakes for their drinking water, jobs, and 
their way of life. This number includes 8 percent of the U.S. 
population and 32 percent of the Canadian population. Much of 
the world's fresh water is threatened by contamination and 
desertification. The Great Lakes also face toxic and nutrient 
pollution, invasive species introduction, and habitat and 
fisheries degradation.
    Last month, October 24 through 26, during the Lake Superior 
storm, the waves along the southern shore reached a height of 
28.8 feet, the largest waves ever recorded in the Great Lakes. 
The federally operated wave and meteorological buoys along the 
center of the Great Lakes and Michigan Tech's coastal 
monitoring buoys near shore are registering increases in both 
the number of storms and their severity. This wave phenomena is 
not unique to the Great Lakes, but presents--but is present 
along most of the Nation's coastline. And throughout these 
storms, it is the U.S. Coast Guard that responds.
    Oil has spilled in the seas of all four of our coastlines: 
the Atlantic, the Pacific, Gulf of Mexico, and to a much lesser 
extent, in the Great Lakes. Perhaps fortunately, due to the 
lack of exposure and incidents, the science of oil and oil 
cleanup in fresh water lags far behind that of our ocean 
counterparts. This fact, coupled with the complexities of 
icebound coasts, provide challenges in disaster preparedness 
along our Alaskan and Great Lakes coastlines. As ice begins to 
appear along our icebound coasts, research and supply ships, 
tugs, and barges all become frozen in the harbors and channels. 
This is true also for the environmental monitoring buoys that, 
at the present level of technology, cannot survive a major ice 
season at sea.
    When these disasters occur, natural or manmade, it is the 
Coast Guard that is first to be called and first on the scene 
while being ``scientifically blind'' to actual environmental 
conditions of wind, waves, and currents.
    The U.S. Coast Guard, in partnership with the Nation's 
research universities and Federal partners, is capable of 
developing advanced technologies to reduce the risk and to 
decrease response times. Surface environmental monitoring buoys 
can be replaced by underwater sensing platforms that are 
capable of remaining and providing valuable information through 
icebound seasons. Unmanned surface and subsurface vehicles can 
provide valuable onsite information. Full unmanned and 
autonomous surface vessels are currently being used in 
conjunction with geophysical survey ships in the Gulf of Mexico 
and offshore of the Alaska coastline. These new technologies 
hold great promise for advancing the Coast Guard's mission and 
providing safety for its personnel.
    If we expect when needed the Coast Guard will save lives, 
enforce the law, operate ports and waterways, we should first 
invest in the science and technology necessary for the Coast 
Guard to successfully execute their missions.
    Thank you.
    [The prepared statement of Dr. Meadows follows:]

    Prepared Statement of Dr. Guy A. Meadows, Director, Great Lakes 
           Research Center, Michigan Technological University
    Mr. Chairman and Members of the Subcommittee--I am Dr. Guy Meadows 
and I am the Director of the Great Lakes Research Center at Michigan 
Technology University in Houghton, Michigan.
    Our nation's northern coastlines present unique and demanding 
challenges in marine operations and therefore to the U.S. Coast Guard. 
Much of the navigable waters of the Alaskan, Northeast Atlantic States 
and the Great Lakes can be classified as ``Ice Bound Coasts,'' for some 
part of the year. For the Upper Great Lakes, access through the Federal 
Locks at Sault Ste. Marie closes annually from January through March 
when ice shuts down commercial shipping on the Great Lakes. During the 
remainder of the ice bound season it is the responsibility of the 
``U.S. Coast Guard to assist in keeping open to navigation by means of 
ice breaking operations . . . channels and harbors in accordance with 
the reasonable demands of commerce.'' (Executive Order 7521, 1936). The 
Guardians of the Great Lakes, the 6,000 men and women of the Ninth 
District of the Coast Guard are responsible for the five Great Lakes, 
the Saint Lawrence Seaway and parts of the surrounding states including 
6,700 miles of shoreline and 1,500 miles of the international border 
with Canada.
    The Inland Seas of the Great Lakes are a massive natural resource 
for the United States and Canada. Consider the Great Lakes as inland 
seas. Strung end-to-end, the Great Lakes would cover most of the U.S. 
East Coast and Continental Shelf from Maine to mid-Florida.

  <bullet> The Great Lakes form the largest group of freshwater lakes 
        on Earth by total area, and second largest by total volume 
        containing 21 percent of the world's surface fresh water by 
        volume;

  <bullet> The Great Lakes are 84 percent of the surface water supply 
        in North America;

  <bullet> More than 35 million people rely on the Great Lakes for 
        their drinking water, jobs, and their way of life. That number 
        includes 8 percent of the U.S. population and 32 percent of the 
        Canadian population; and

  <bullet> Much of the world's freshwater is threatened by 
        contamination and desertification. The Great Lakes also face 
        toxic and nutrient pollution, invasive species introductions, 
        and habitat and fisheries degradation.

    Last month, October 24-26, during the Lake Superior storm, the 
waves along the southern shore reached a height of 28.8 feet--the 
largest waves ever recorded in the Great Lakes. The federally operated 
wave and meteorological measuring buoys along the center of the Great 
Lakes and Michigan Tech's coast monitoring buoys near shore, are 
registering increases in both the number of major storms and their 
severity. This wave phenomenon is not unique to the Great Lakes, but 
present along most of our Nation's coastlines. And throughout these 
storms, it is the U.S. Coast Guard that responds.
    Oil has spilled in the seas of all four of our coastlines; the 
Atlantic, Pacific, Gulf of Mexico and to a much lesser extent, in the 
Great Lakes. Perhaps fortunately, due to lack of exposure and incident, 
the science of oil and oil cleanup in freshwater lags far behind that 
of our ocean counterparts. This fact, coupled with the complexities of 
ice bound coasts provide challenges in disaster preparedness along our 
Alaskan and Great Lakes shorelines. As the ice begins to appear along 
our ice bound coasts, research, supply ships, tugs and barges all 
become frozen at shore in harbors and channels. This is true also for 
our environmental monitoring buoys, that, at the present level of 
technology, cannot survive a major ice season at sea.
    When these disasters occur, natural or manmade, it is the Coast 
Guard that is first to be called and first on the scene, while being 
``scientifically blind'' to actual environmental conditions of winds, 
waves and currents.
    The U.S. Coast Guard, in partnership with the Nation's research 
universities and other Federal partners, is capable of deploying 
advanced technologies to reduce their risk and to decrease response 
times. Surface environmental monitoring buoys can be replaced by 
underwater sensor platforms that are capable of remaining and providing 
valuable information through ice bound seasons. Unmanned surface and 
sub-surface vehicles can provide valuable, ``on site'' information. 
Full unmanned and autonomous surface vessels are currently being used 
in conjunction with geophysical survey ships in the Gulf of Mexico and 
offshore of the Alaska coastline. These new technologies hold great 
promise for advancing the Coast Guard mission and providing safety for 
its personnel.
    If we expect that when needed the Coast Guard will save lives, 
enforce the law, and operate ports and waterways, we should first 
invest in the science and technology necessary for the Coast Guard to 
successfully execute their missions.
    Thank you.

    Senator Sullivan. Thank you, Dr. Meadows.
    Mr. Smithson.

            STATEMENT OF LEE W. SMITHSON, DIRECTOR, 
            MISSISSIPPI EMERGENCY MANAGEMENT AGENCY

    Mr. Smithson. Thank you, Chairman Sullivan and Ranking 
Member Peters, for allowing me the opportunity to provide you a 
statement for the record on our nation's Coast Guard.
    As Senator Wicker said, I'm Lee Smithson, the Director of 
the Mississippi Emergency Management Agency. I was appointed to 
this emergency management position after retiring from the 
Mississippi National Guard, where I served as a Colonel and the 
Director of Military Support. In both of these roles, I have 
worked with the U.S. Coast Guard on numerous events along the 
Mississippi Gulf Coast and the Mississippi River. The longest 
and most notable was from April until late summer 2010 during 
the BP-Deepwater Horizon explosion and subsequent oil spill 
that devastated the Gulf of Mexico.
    I was sent by then Governor Haley Barbour to the 
Mississippi Gulf Coast to assist with the establishment of a 
Unified Command Post for Deepwater Horizon. From the beginning, 
Mississippi's relationship with the U.S. Coast Guard, the 
mandated lead Federal agency, had significant challenges.
    Mississippi responders were well versed in emergency 
response operations and the need for an integrated local, 
state, and Federal partnership. This was because of our 
experiences during Hurricane Katrina in 2005. Katrina taught us 
that the only way to ensure the needs of citizens are served is 
by close collaboration and a unified approach to all actions.
    While the Coast Guard was instrumental in Katrina response, 
especially in New Orleans, they were not the lead Federal 
agency. Deepwater Horizon was different, and the Coast Guard 
was designated as the Federal on-scene coordinator. The lessons 
we learned during Katrina were the same lessons that the Coast 
Guard learned during Deepwater Horizon, but it took until the 
middle of June for the Coast Guard to fully obtain a firm grasp 
on the need for a unified approach.
    Now, gentlemen, in the years since the oil spill, it is 
very apparent that the Coast Guard has worked diligently in 
establishing a positive rapport with its local, state, and 
other Federal partners. In fact, gentlemen, it is my opinion 
that no other Federal agency has done more to learn the nuances 
of a unified approach to disaster response and consequence 
management than the United States Coast Guard. My agency 
frequently meets with the Coast Guard, and we have conducted 
numerous joint training exercises, ranging from search and 
rescue operations to a weapon of mass destruction response 
exercise.
    In recent years, the Federal Emergency Management Agency 
has championed the ``Whole of Community'' concept. This concept 
brings together residents, emergency management officials, 
organizations, and community leaders, along with government 
officials to collectively assess the needs of each community. 
It is also vital in determining the best ways to organize and 
strengthen assets, capabilities, capacities, and interests. In 
Mississippi, we lead the way in our ``Whole of Community'' 
approach with the adage that no one gets left behind. We work 
hard every day to foster partnerships with our local, state, 
and Federal agencies and organizations to facilitate effective 
response to and recovery from disasters.
    When Hurricane Nate struck my state last month, the 
preparedness and mitigation efforts undertaken since Hurricane 
Katrina produced no injuries and minimal damage to our coastal 
communities. Our comprehensive emergency planning with entities 
like the Coast Guard exemplified our ability to prepare not 
only the public and their property, but local governments, more 
than 48 hours prior to landfall. There were only two rescues 
that needed to be made during Hurricane Nate, but the 
coordination with the U.S. Coast Guard and our operations along 
with U.S. Coast Guard Sector Mobile and U.S. Coast Guard Sector 
Lower Mississippi River had us prepared to do many, many more 
rescues.
    In addition, the Federal investments in mitigation made 
since 2005 in Mississippi showed a tremendous return on 
investment as we saw very little damage to our homes, property, 
or infrastructure. Gentlemen, I guarantee you, had we not 
received the Federal dollars in mitigation funding post-
Katrina, we would have seen tens of millions of dollars in 
damage caused by Nate.
    While I'm not here today to discuss budgets, I would like 
to leave you with this thought: If the Coast Guard had 
additional resources, my counterparts and I across the Nation 
would be able to have more direct access to Coast Guard 
personnel, especially if they were stationed inside our State 
Emergency Operation Centers, and this is on a daily basis, not 
just when we have a disaster looming.
    In the 16 years since the September 11 terrorist attacks on 
our nation, all too often our leaders have forgotten how 
important it is to maintain a constant state of readiness. 
Readiness translates to resources. Our Coast Guard must have 
highly qualified, motivated, and dedicated service members. 
Their equipment must be modern and fully functional. As our 
Nation's only multi-role, military force, we must have a Coast 
Guard that can perform each of its missions in a superlative 
manner.
    I am proud of my agency's relationship with the U.S. Coast 
Guard, and I'm committed to maintaining this rapport.
    Thank you, gentlemen.
    [The prepared statement of Mr. Smithson follows:]

           Prepared Statement of Lee W. Smithson, Director, 
                Mississippi Emergency Management Agency
Introduction
    Thank you, Chairman Sullivan, Ranking Member Peters, and 
distinguished members of the Committee, for allowing me the opportunity 
to provide you with a statement for the record on our Nation's Coast 
Guard. I am Lee Smithson, the Director of the Mississippi Emergency 
Management Agency. I was appointed to this emergency management 
position after retiring from the Mississippi National Guard where I 
served as a Colonel and the Director of Military Support. In both 
roles, I have worked with the U.S. Coast Guard on numerous events along 
the Mississippi Gulf Coast and Mississippi River. The longest and most 
notable was in April 2010 during the BP-Deepwater Horizon explosion and 
subsequent oil spill that devastated the Gulf of Mexico.
    I was sent, by then Mississippi Governor Haley Barbour, to the 
Mississippi Gulf Coast to assist with the establishment of a Unified 
Command Post for Deepwater Horizon. From the beginning, Mississippi's 
relationship with the Coast Guard, the mandated lead response agency to 
the spill, had significant challenges.
    Mississippi responders were well-versed in emergency response 
operations and the need for an integrated local, state and Federal 
partnership because of our experiences during Hurricane Katrina in 
2005. Katrina taught us that the only way to ensure the needs of 
citizens are served is by close collaboration and a unified approach to 
all actions. While the Coast Guard was instrumental in the Katrina 
response, especially in New Orleans, they were not the lead Federal 
agency. Deepwater Horizon was different and the Coast Guard was 
designated as the Federal On-Scene Coordinator. The lessons we learned 
during Katrina were the same lessons the Coast Guard had to learn 
during Deepwater Horizon. It took until middle of June for the Coast 
Guard to obtain a firm grasp on the need for a unified approach.
    In the years since the Oil Spill, it is very apparent that the 
Coast Guard has worked diligently in establishing a positive rapport 
with its local, state and Federal partners. In fact, it is my opinion 
that no other Federal agency has done more to learn the nuances of a 
unified approach to disaster response and consequence management than 
the U.S. Coast Guard. My agency frequently meets with the Coast Guard 
and we have conducted numerous joint training exercises ranging from 
search and rescue to a weapon of mass destruction response.
    In recent years, the Federal Emergency Management Agency has 
championed the ``Whole of Community'' concept. This concept brings 
together residents, emergency management officials, organizations and 
community leaders, along with government officials to collectively 
assess the needs of each community communities. It also vital in 
determining the best ways to organize and strengthen assets, 
capacities, and interests. In Mississippi, we lead the way in our whole 
community approach with the adage that no one gets left out. We work 
hard every day to foster partnerships with all our local, state and 
Federal agencies and organizations to facilitate effective response and 
recover to disasters.
    When Hurricane Nate struck my state last month, the preparedness 
and mitigation efforts undertaken since Hurricane Katrina produced no 
injuries and minimal damage to our coastal communities. Our 
comprehensive emergency planning, with entities like the U.S. Coast 
Guard, exemplified our ability to prepare not only the public and their 
property, but local governments as well more than 48 hours before 
landfall. There were only two rescues that needed to be made during 
Hurricane Nate, but the coordination with the U.S. Coast Guard in our 
operations center along with the USCG Sector Mobile and USCG Sector 
Lower Mississippi River had us prepared to do many more. In addition, 
the Federal investments to mitigation made since 2005 in Mississippi, 
showed a tremendous return on investment as we saw very little serious 
damage to homes, public property or infrastructure. I guarantee you, 
had we not received the Federal support in mitigation funding post 
Katrina, we would have seen tens of millions of dollars in damage 
caused by Nate, a category one hurricane.
    While I'm not here today to discuss budgets, I would like to leave 
you with this thought: If the Coast Guard had additional resources, I 
and my counterparts across the Nation would be able to have more direct 
contact with Coast Guard personnel if they were stationed inside our 
emergency operations centers on a daily basis, not just during large 
scale emergencies. In the sixteen years since the September 11 
terrorist attacks on our nation, all too often our leaders have 
forgotten how important it is to maintain a constant state of 
readiness. Readiness translates to resources. Our Coast Guard must have 
highly qualified, motivated and dedicated service members. Their 
equipment must be modern and fully functional. As our Nation's only 
multi-role military force, we must have a coast guard that can perform 
each of its missions in a superlative manner. I'm proud of my agency's 
relationship with the U.S. Coast Guard and I am committed to 
maintaining that rapport.
    Thank you for allowing me to be here today.

    Senator Sullivan. All right. Well, I want to thank all 
three of the witnesses here for your compelling testimony.
    Ms. Kuzakin, I want to begin with you. You know, the 
Commandant mentioned, and I think your testimony underscored 
the whole idea of ``You can't put a dollar figure on a life,'' 
whether it's the life of your daughter or the life of a Coast 
Guardsman who's doing the rescues.
    But you also talked about this issue of peace of mind. And 
can you focus on that a little bit more? I think that to be 
perfectly honestly, and, again, I know I keep emphasizing it, 
but if you live in a city in the lower 48, you don't have to 
worry about, you know, getting to the hospital on time for the 
most part to deliver your baby. But in King Cove, that's a 
worry. The peace of mind element I think is really important 
for this committee to hear about that. Can you expound upon 
that a little bit, please?
    Ms. Kuzakin. Peace of mind, for an example, right now in 
King Cove, we're having a great windstorm. When we have 
windstorms, when we get up in the morning, the first thing we 
think about is the safety of everybody in town because we know 
that if somebody gets hurt, they're not getting out.
    Senator Sullivan. So you have a--so there's a big 
windstorm, and we get a lot of windstorms in King Cove.
    Ms. Kuzakin. Right now it's gusting to 75. I talked to my 
husband last night, and it was--and that's a normal day. And it 
is where we choose to live, but----
    Senator Sullivan. It's a beautiful place.
    Ms. Kuzakin. But when we get up in the morning and the wind 
is blowing like that, we don't have any peace of mind. If we 
see the ambulance out, it is--it's heartbreaking to our entire 
community because we are very tight-knit and we know that that 
person isn't getting out unless we can get them out on a boat 
blowing 70, and I don't know if anybody has ever seen seas like 
that, but it's horrendous and it's scary. Or if the Coast Guard 
can make it in. And there's no peace of mind when it comes to 
that.
    And I raise my--you know, I have three beautiful children, 
and I--you know, if they break an arm--for people here, it's 
just as easy as going to the hospital and getting that taken 
care of. It's not that easy at home. When they break an arm and 
it's severe, that means that we've got to find a way to get 
out.
    Senator Sullivan. And can you explain again, because I 
think in Alaska we understand this issue intuitively, but 
there's an alterative that can provide a lot more peace of 
mind, and it's the road, correct?
    Ms. Kuzakin. Yes. It's--right now we have--the only stretch 
that we are needing to finish is 11 miles.
    Senator Sullivan. Yes. And by the way, you know, previous 
testimony of the people who oppose this say, ``Oh, it's this 
area that there are no roads, there's no--,'' you know, I was 
out there this summer, I flew over it, there's a whole network 
of roads that already exist within the refuge, right?
    Ms. Kuzakin. Right. And those roads were made by the Army 
way back when, and they're all over in there.
    Senator Sullivan. Well, the notion that there are no roads 
in the refuge is completely false.
    Ms. Kuzakin. That is completely incorrect.
    Senator Sullivan. Yes. And that gets spun by a lot of 
people who don't want you guys to have--or us to have the road.
    Ms. Kuzakin. No, that is completely incorrect. The Izembek 
is full of roads, and we're just asking to connect a small 
portion so that we can have help and safety to get our people 
out if needed.
    Senator Sullivan. A gravel road?
    Ms. Kuzakin. Yes. A gravel--a one-lane, non-commercial 
gravel road.
    Senator Sullivan. That can bring literally hundreds of 
American citizens peace of mind that most Americans wake up, 
and when they see 70-mile-an-hour winds, don't have--their 
first thought doesn't--being, ``Oh, my goodness, I hope my son 
doesn't break his arm today.''
    Ms. Kuzakin. Yes, sir.
    Senator Sullivan. Yes. I think it's just outrageous that 
we've spent 30 years trying to deal with this. I'm so glad 
you're here, and I really, really appreciate your compelling 
testimony.
    Mr. Smithson, I want to ask you about--you raise a really 
good point about kind of interoperability and integration with 
what you're doing and what the Coast Guard does. Can you talk 
about where--you've already mentioned in your testimony where 
you think that that's working well, but where are areas that we 
can improve and that the Coast Guard can improve? And how can 
Congress, if at all, help in that kind of interoperability, 
seamless operations that you seem to have led and done such a 
good job at in your community?
    Mr. Smithson. Well, Senator Sullivan, it all begins with 
relationships, and I think that that is absolutely key. You 
know, the first time that I dealt with at that time Captain 
Poulin, who was the captain of the Coast Guard Sector Mobile, 
was after the oil started flowing from the Deepwater Horizon.
    So one of the biggest issues that we can improve on with 
regards to interagency operations is to establish those 
relationships, conduct the joint training exercises, and do 
those more and more frequently as budgets will allow, so--and, 
again, to get rid of the stovepipes. We've done a very, very 
good job of doing training exercises with the Coast Guard. And 
then we'll do an exercise with the National Guard. Then we'll 
do an exercise with the Department of Homeland Security.
    But it's absolutely imperative that we pool those resources 
and conduct joint training assignment--or, I'm sorry, joint 
exercises across the entire spectrum. We've got to tear those 
stovepipes down, and that saves on resources as well.
    Senator Sullivan. So you're very focused on training 
realistically so when there's a real-world contingency, you're 
not learning this for the first time, and you're able to kind 
of get a sense of what those stovepipes are, break them down 
during training exercises so you don't have to deal with them 
in real-world contingencies, correct?
    Mr. Smithson. Yes, sir. At the end of the day, it all--it 
all revolves around preparedness.
    Senator Sullivan. Great. That's an excellent example. Thank 
you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And, again, thank you to the three witnesses, really 
outstanding testimony from all three of you. And it's certainly 
clear, from each of the statements that you've made, how 
important the Coast Guard is to our country, to the citizens of 
this nation, whether it's rescuing folks in very tough weather 
in Alaska or in 28-foot seas in Lake Superior or disasters on 
an oil rig, the Coast Guard always responds.
    When I think about lifesaving missions in particular, by 
definition, that's really bad weather when they go out there. 
It's when no one else wants to go out, and, in fact, when folks 
are out there, they've gotten into serious trouble; and, yet, 
the men and the women of the Coast Guard saddle up basically 
and go out and take on some pretty, pretty difficult jobs.
    But in addition to that, I want to ask you questions 
related to this, Dr. Meadows. In addition to the lifesaving 
operations of the Coast Guard, protecting our environment and 
protecting our resources is a critical part of the Coast Guard 
mission as well. And we are particularly--both you and I share 
our concern with the Great Lakes, given the fact that it does 
provide drinking water for nearly 40 million people, not to 
mention recreational resources and all of the other great 
benefits of the Great Lakes, but we have to make sure that 
we're protecting it for future generations going forward.
    And I am particularly concerned about an oil spill there. 
We heard from the Commandant as to the state of preparedness 
when it comes to handling freshwater spills, which is not where 
it should be. We need to do a whole lot more, both from a 
technological standpoint as well as from basic research as to 
how oil mixes with freshwater and the challenges associated 
with that.
    But before I get to some broader questions, I want to drill 
down a little bit to an issue related to Line 5, which I 
mentioned in my opening comments, which is the oil pipeline 
between the Upper and Lower Peninsula.
    In June, the State of Michigan was owed an analysis on the 
risk posed by Line 5, but due to conflicts of interest, the 
original risk analysis had to be discarded, as you're well 
aware. The Michigan Pipeline Advisory Board has recommended you 
to lead this new review team that will conduct a thorough 
analysis of the risk that Line 5 poses to the Great Lakes and 
to the entire Great Lakes region.
    So my question to you is, What will go into this risk 
analysis? And what do we need to do to fully understand the 
threat that this pipeline poses to the Great Lakes?
    Dr. Meadows. Thank you, Senator Peters. As you indicated, 
the state has asked me to organize state universities to 
respond to the scope of work that was failed in the first 
attempt. I'm very happy and proud to report that we have formed 
our teams. That has been ongoing now for the last couple of 
months. There are nine Michigan universities and two 
universities external to the State of Michigan that have 
contributed highly qualified experts in this area.
    We have divided ourselves--I'm a seagoing oceanographer, so 
I spend a lot of time on ships--just as the way a research ship 
is organized. There will be a chief scientist in each of the 
nine areas. There will be a lead person from Michigan Tech in 
each of those areas to coordinate amongst the areas. It's a 
total of 41 researchers that will address the issues specified 
by the state in the scope of work. And the ultimate objective 
then is to assess the worst-case scenario, to use advanced 
computing capabilities that we have at Michigan Tech to 
determine the fate and transport of that worst-case spill and 
then to assess all impacts of that financially as well as on 
the people of the Great Lakes.
    I'm proud also to report that the Ann Arbor NOAA 
Laboratory, the Great Lakes Environmental Research Laboratory, 
is contributing two people from their hydrodynamic team to 
assist with that numerical computations, and the university has 
set aside, Michigan Tech University has set aside, a 
significant portion of their supercomputer cluster so that we 
can do those calculations at great resolution and with great 
fidelity.
    Senator Peters. Well, Dr. Meadows, as you know, I mentioned 
this to the Commandant. In the Coast Guard authorization bill, 
we have language to create a national center of expertise that 
will focus on improving freshwater oil response, which the 
concept is to bring academic resources, to bring the resources 
of the Coast Guard, resources from private industry as well, 
together for a center that will look beyond just Line 5, as 
important as that is, but look at the broader issue of how we 
deal with freshwater response and all sorts of bodies of fresh 
water, particularly with this web of pipelines that we have all 
across the country.
    Could you speak to the importance of having a national 
center of expertise and what you think could come out of that?
    Dr. Meadows. In my view, that is extremely critical. As I 
indicated, we are far behind our ocean coasts in this critical 
area. There are some unique capabilities that exist throughout 
the Great Lakes, and working with the Coast Guard would be an 
honor and a privilege to bring this to the Great Lakes.
    And one of the things about the Great Lakes, they respond 
exactly the way the oceans do, but we like to say that there is 
one important difference, and it's that 30-some million people 
that drink the water. So in many ways, our ability to predict 
the fate and transport of all types of pollutants in the Great 
Lakes is advanced more so than on our ocean coasts, and some of 
the reason is they're enclosed seas, they're bounded, so the 
boundary conditions are a little bit better, but the other 
reason is there has been tremendous work in the Great Lakes to 
be able to accurately predict where nasty things go so 
Cleveland, Chicago, Detroit can close down their municipal 
water intakes. So it is a very important thing for the Great 
Lakes. And the oil piece has been sorely missed.
    Senator Peters. Great. Thank you.
    Senator Sullivan. Great. I just have two more follow-up 
questions.
    Dr. Meadows, there has been a lot of talk about 
icebreakers. I think you see Senator Peters and I were highly 
motivated to get the Coast Guard authorization bill voted on, 
on the Senator floor and moved. So this hearing I think 
provides additional motivation for us.
    A lot of discussion you saw earlier on icebreakers and some 
discussion in Senator Peters' testimony about recovering oil 
from fresh water versus salt water in terms of spills. Can you 
also talk about how ice complicates the cleanup process or may 
complicate it either in fresh or salt water?
    Dr. Meadows. As the Commandant indicated, the presence of 
ice makes it almost an impossible situation. And we share with 
our Alaskan colleagues very, very strong winds, particularly in 
this time of year. Again, 77 miles an hour is tremendous, and 
we experienced similar things a few weeks ago. So the 
difficulty of an icebound coastline with large chunks of ice 
being tossed around by enormous waves in these very strong 
winds makes it almost impossible.
    Senator Sullivan. Let me ask one other follow-up question 
for Ms. Kuzakin.
    I know you followed very closely, and I mentioned it, and 
it's notorious in Alaska, the ``Christmas Eve lump of coal'' 
that we received from Secretary--former Secretary Jewell. And 
in that, she mentioned that there were alternative methods, 
alternative avenues, instead of constructing a road to 
providing the residents of King Cove safety and peace of mind. 
Are there? Do you believe there are?
    Ms. Kuzakin. No.
    Senator Sullivan. I think it's very unconvincing that there 
are, from your testimony. What do you believe on that?
    Ms. Kuzakin. The answer is no. And we have looked at them 
all. Again, this--we've been doing this for 35 years, so this 
isn't something new. We have looked at everything. We have 
looked--I mean, any suggestion that was made that made some 
sense, we tried. We have tried everything. And now we're at the 
only thing that's left, which is the road, which is what we 
asked for in the beginning.
    Senator Sullivan. So her notion in 2013 that there was an 
alternative is not accurate?
    Ms. Kuzakin. It is not.
    Senator Sullivan. And one that they've talked about a lot, 
``Well, just get in a boat and hop on over from King Cove to 
Cold Bay.'' What's it like to get in a boat when the wind is 
gusting at 70 miles an hour? Like what would it be like to get 
in a boat to do that boat ride today?
    Ms. Kuzakin. It's horrific. For people--you just don't 
understand when you're--when the boat is going straight up and 
all you see is the sky because that's how high the boat is 
flipping up. And when it smacks down, and you've got to think 
if you're sick or injured or you have your children onboard, to 
be--and then that's not even the fun part. The fun part is 
getting up the 30-foot ladder in Cold Bay that is made of 
metal, and when it's icy and windy and you're holding on, it's 
absolutely terrifying.
    Senator Sullivan. So when you were rescued by the Coast 
Guard, heroically by the members of the Coast Guard, during 
your pregnancy and delivery, would a boat have been an 
alternative, like Secretary Jewell implied in her decision? Was 
that an alternative for you that day?
    Ms. Kuzakin. No, it was not. There would have been--there 
would have been no boat big enough to, first of all, have all 
the doctors on the boat, or anybody that--you know, the mid-
levels with me to get up to Cold Bay, and then to try to get me 
up the ladder would be--I just wouldn't have been able to do 
it. I was in labor. There was no way a boat could have--could 
have brought me over there. No.
    Senator Sullivan. Well, listen, I want to thank all the 
witnesses again for your testimony, for flying here to 
Washington to present on really, as Senator Peters mentioned, 
just--these are important anecdotes, more broadly speaking, of 
the daily heroism that we see in our Coast Guard. And I think 
you've all witnessed it, we've all witnessed it, but to hear it 
directly from people who have experienced it, understand it, 
it's very important and powerful for this Committee, and 
hopefully it's going to bring about an emphasis not only to fix 
things like the road, but also to make sure we're fully funding 
and moving forward with our Coast Guard authorization bill 
that, again, passed this Committee with strong bipartisan 
support. So thank you for doing that.
    The hearing record will remain open for 2 weeks. During 
this time, Senators may submit additional questions for the 
record. Upon receipt, the witnesses are respectfully requested 
to submit their written answers to the Committee as soon as 
possible.
    And, again, I want to thank our witnesses for appearing 
today. All three of you did an outstanding job.
    This hearing is adjourned.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                        Admiral Paul F. Zukunft
    Question 1. The Coast Guard is nearing the end of the 
recapitalization process for National Security Cutters. These vessels 
have been hugely successful from a capability and mission success 
standpoint. Have final homeporting decisions been made, and is Kodiak 
going to receive a replacement for its current High Endurance Cutter 
MUNRO?
    Answer. The Coast Guard has made final homeporting decisions for 
all planned National Security Cutters (NSCs) (Hulls 1 through 9) as 
well as the first four Offshore Patrol Cutters (OPCs). Kodiak, AK is 
scheduled to receive two Offshore Patrol Cutters (OPCs), (Hulls 3 and 
4) in FY 2023 and FY 2024 to replace the USCGC DOUGLAS MUNRO and the 
USCGC ALEX HALEY.

    Question 2. The Integrated Ocean Observing System (IOOS) Program, 
housed in NOAA, is an interagency program that leverages ocean 
observing assets across multiple Federal agencies, state and local 
agencies and the private sector. We understand the Coast Guard relies 
on assets and data products provided by the IOOS Program, including 
wave buoys, high frequency radars measuring surface currents used in 
search and rescue and oil spill response preparations, and in Alaska, 
AIS transmitters that disseminate weather and safety information to 
mariners. As maritime activity in the Arctic increases, does the Coast 
Guard see these capabilities as aiding in managing the risk of maritime 
accidents and the agency's effective response to marine casualties? 
Does the Coast Guard see other ways the tools provided by IOOS can be 
an asset in fulfilling the Service's missions in the Arctic?
    Answer. As maritime activity in the Arctic region increases, IOOS 
and other NOAA capabilities will likely aid the Service's ability to 
manage risk and to effectively respond to marine casualties.
    IOOS information specific to the Alaskan region, https://
ioos.noaa.gov/regions/aoos/, may assist the Coast Guard in gaining 
background information about the Arctic Ocean; oceanographic data, 
e.g., surface current data tracked by high frequency radar; 
meteorological data; and sea ice concentration.

    Question 3. Does the Coast Guard have a sundown date for supporting 
CENTCOM FIFTH Fleet operations in the Arabian Gulf? And if not, are 
there plans to replace those aging Island Class Patrol Boats with FRCs?
    Answer. In 2003, the Coast Guard assigned six Coast Guard 110-foot 
Island Class Patrol Boats and a shore support detachment in Bahrain and 
Kuwait to support vital CENTCOM mission requirements. An analysis of 
the Island Class Patrol Boat hulls completed in 2017 estimates that 
they will reach their End of Service Life in Fiscal Year 2022, due to 
material condition and lack of any available remaining weight and 
stability margins to update weapons and communication systems needed in 
the current threat environment.
    Replacing the six Island Class Patrol Boats with Coast Guard 154-
foot Sentinel Class Fast Response Cutters would deliver a superior 
asset with additional capability that meets CENTCOM's requirements. 
However, the Coast Guard's current 58-ship Fast Response Cutter program 
of record only includes hulls required to support domestic Coast Guard 
missions.
    CENTCOM leadership continues to express the need to sustain the 
mission conducted by Coast Guard cutters, and is aware the Coast Guard 
is not currently resourced for FRCs above the current program of 
record.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                        Admiral Paul F. Zukunft
    Question. Over the past many weeks, my staff has worked closely 
with the Coast Guard and the National Response Center regarding 
reporting requirements for agricultural operations under the 
Comprehensive Environmental Response, Compensation, and Liability Act--
more commonly referred to as CERCLA. Earlier this year, the U.S. 
District Court for the DC Circuit ruled that animal operations would 
need to submit reports to the NRC under CERCLA. I am very appreciative 
of the NRC's willingness to meet with agriculture stakeholders while 
also working with the EPA to explore solutions that provide livestock 
and poultry producers' relief from these unnecessary reporting 
requirements. On November 2, 2017, the NRC communicated to my office 
that ``At the current NRC resource levels, an influx of calls will 
cause tremendous wait times for all callers. This may result in extreme 
delays in incident notifications, or even failure altogether in 
receiving reports and disseminating time critical incident 
information.''
    Does the Coast Guard agree with this statement from the National 
Response Center to Senator Fischer's office? And can the Coast Guard 
please outline the impacts an additional 100,000 reports will have on 
the purpose of the National Response Center to process real 
emergencies?
    Answer. Yes, the Coast Guard agrees with the statement from the 
National Response Center to Senator Fischer's office.
    Receiving 100,000 additional agricultural reports under the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA) would impact the National Response Center (NRC) operations. 
The NRC is the single point of contact in the United States and its 
territories for fielding reports of all oil/hazmat, railroad, and 
maritime security incidents. The increased volume of reports associated 
with the new CERCLA reporting requirement would negatively affect the 
NRC's ability to serve the National Response Team's 15 member agencies 
and associated stakeholder agencies, and could divert existing 
resources away from immediate time critical release reporting as the 
NRC processes these non-time critical release reports. Such action has 
the potential to limit the effectiveness of the National Response 
System.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                        Admiral Paul F. Zukunft
    Question. The 2016 National Defense Authorization Act (NDAA) 
required all branches of the Armed Forces to implement a Blended 
Retirement System by January 1, 2018. A component of this system is 
``Continuation Pay,'' an incentive bonus to improve personnel 
retention. While the other Services have the benefit of funding 
Continuation Pay through a trust fund, the Coast Guard has no similar 
funding mechanism. As you know, I worked with Members of this Committee 
and the Armed Services Committee with the hope of achieving a one-time, 
permanent fix to the Coast Guard's funding predicament. We were 
successful in getting a short-term resolution in the 2018 NDAA; 
however, I know there are longer-term impacts. Could you explain, in 
operational terms, what the impacts are in the near-term and long-term 
if Congress doesn't legislate a permanent solution?
    Answer. The Coast Guard is extremely thankful for the assistance 
that you and your staff provided with respect to implementation of the 
Blended Retirement System (BRS). Your commitment to providing the Coast 
Guard a legislative remedy to resource this new retirement system 
garnered widespread Congressional support and served as the impetus to 
bring numerous committees, staffs, and Members together on the issue.
    Unfortunately, the short-term remedy delivered in the 2018 NDAA did 
not provide the Coast Guard relief to the challenges of implementing 
BRS Continuation Pay (CP) as it did not specifically authorize CP 
payment from the Service's Retired Pay mandatory appropriation. While 
we are very thankful for the legislative language that you drafted for 
the NDAA with respect to CP--a version that did authorize CP 
specifically from the Coast Guard's Retired Pay appropriation--the 
final NDAA language did not include such an authorization.
    That being said, it was, without a doubt, your legislative efforts 
that served as the essential building block for the short-term remedy 
that was delivered in the FY18 Continuing Resolution (CR)--specific 
authorization to fund BRS CP from the Coast Guard's Retired Pay 
mandatory appropriation. Unfortunately, that authorization only lasts 
for the duration of the CR, so the Coast Guard still requires a 
permanent fix to the BRS funding predicament.
    Absent such legislative reform, the Service will be forced to 
compete its CP retirement entitlement against operational funding 
levels--competition that will degrade our steady-state force profile 
and reduce our operational capabilities. In order to fund CP the 
Service may face one of the following trade-offs: a 2 percent reduction 
in operational fuel funding, a 9 percent reduction in military 
accession and training programs, or a 0.1 percent reduction of the 
military force.
    On 1 January 2018, the Coast Guard began implementing the new 
retirement system that may serve over 30,000 of our members. Thanks to 
your attention to this issue and the legislative remedy in the CR we 
have begun that implementation without flaw. To continue that success, 
we request your continued support to providing a permanent fix.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Admiral Paul F. Zukunft
    Question 1. Budget: The Coast Guard, one of the five armed 
services, continues to support combatant commanders and national 
defense missions, but the vast majority of your budget is categorized 
as non-defense discretionary spending. What must happen to properly 
categorize the Coast Guard's funding and align the Coast Guard's 
funding level with the Service's needs?
    Answer. Since 2001, Congress has annually appropriated $340 million 
to the Coast Guard's Operating Expenses (OE) appropriation for non-
emergency, defense-related activities (i.e., Function 050). In 2001, 
$340 million accounted for approximately 9 percent of the Coast Guard's 
budget.
    Despite our Service's enduring and increasing support to DOD 
Combatant Commanders and defense operations, the Coast Guard continues 
to receive only $340 million today, which now accounts for 4 percent of 
the Coast Guard's budget.
    According to the Coast Guard's Mission Cost Model, the Coast Guard 
expended $842 million (not including personnel costs) in FY 2016 
operating expenses (OE) on defense-related activities. This figure 
includes Coast Guard support to drug interdiction detection and 
monitoring in the transit zone. When the cost of personnel is included, 
this figure increases to $1,828 million in FY 2016 operating expenses 
(OE).
    Appropriations other than OE, including Acquisition, Construction, 
and Improvements (AC&I), Reserve Training (RT), and Research, 
Development, Test, and Evaluation (RDT&E) do not directly contribute to 
defense-related activities, but support these missions indirectly by 
contributing mission-ready assets and personnel. The estimate for these 
appropriations' indirect support to defense-related activities was $845 
million in FY 2016.
    In total, the Coast Guard's annual support (including both direct 
and indirect) to defense-related activities is more than $2.7 billion 
(including personnel costs), while our function 050 funding 
appropriation continues to be $340 million.

    Question 2. Maritime Industry Innovation: Natural and human-caused 
disruptions to ports and waterways can have cascading negative effects 
on national and economic security. How does the Coast Guard plan to 
keep pace with the maritime industry's push for innovation and the 
incorporation of emerging technologies without impeding the free flow 
of commerce?
    Answer. The Coast Guard meets these challenges through the 
establishment of National Centers of Expertise, implementation of 
robust marine inspector qualification and training programs, improved 
management and oversight of key marine safety processes, and continued 
strong engagement with key industry segments.
    In addition, the Coast Guard is developing a strategy to address a 
growing number of factors that threaten the uninterrupted flow of 
maritime commerce, such as the increasing complexity and accelerated 
pace of innovation by the maritime industry. The strategy will provide 
a framework that outlines the Coast Guard's vision over the next decade 
for sustaining America's maritime economic security.

    Question 3. Infrastructure Damage: In the 2000s, the Coast Guard 
facility in Great Inagua, Bahamas suffered significant damage as a 
result of a hurricane. Subsequently, this facility was rebuilt to be 
more resilient to extreme weather. In this year's hurricane season, 
this facility only suffered minimal damage. In October, Rear Admirals 
Kelly and Bouboulis testified that the Coast Guard has over one billion 
dollars in shore infrastructure backlog comprised of nearly one hundred 
projects. Would this backlog figure (one billion dollars) rebuild and 
repair the Coast Guard's infrastructure to make it more resilient to 
extreme weather in the future?
    Answer. The Coast Guard constructs shore infrastructure by 
incorporating the appropriate building ``risk category'' as part of the 
design process required by the American Society of Civil Engineers-
Minimum Design Loads for Buildings and Other Structures (ASCE 7-
series). Additionally, Coast Guard shore infrastructure is constructed 
in accordance with International building codes and local building 
codes when there are more stringent codes due to localized 
vulnerabilities to natural disasters.

    Question 4. Hurricane Response: In response to the hurricanes, 
Coast Guard helicopters flew almost sixteen hundred hours, more than 
twice the number they would ordinarily fly. Coast Guard planes flew 
over fourteen hundred hours, almost double the number of hours any one 
plane would normally fly in a year. Similarly, Coast Guard inland river 
vessels have operated over six hundred hours beyond what they otherwise 
would have. How do these additional hours on Coast Guard aircraft and 
vessels impact the Service's operational capabilities going forward?
    Answer. While the Coast Guard was able to respond to all of these 
disasters, this response has a cost. Operational missions, patrols, and 
training were canceled, additional unplanned hours and fatigue were 
incurred, and increased maintenance and repair was required. These 
operations have eroded our future readiness.
    In response to this summer's hurricanes, the Coast Guard 
reprioritized its missions and minimized coverage in some areas of 
responsibility in order to surge operations and provide the appropriate 
response to affected regions of the Nation. To meet the hurricane 
response needs, the Coast Guard relocated aircraft from outside the 
impacted areas, resulting in reduced coverage in regions of the country 
not affected by the hurricanes. The surge operations and accelerated 
rate of hours flown during these extended operations stressed the 
aviation maintenance model, resulting in a higher than normal usage of 
sparing. This high operational tempo created a ripple effect throughout 
the aviation maintenance enterprise, potentially leading to a decrease 
in the operational availability of Coast Guard air assets in the near 
future, should spare parts levels not be returned to normal levels.
    All classes of Coast Guard cutters, from our newest National 
Security Cutters and Fast Response Cutters, to our 50 year old inland 
river tenders responded to the 2017 hurricane season. These cutters and 
their crews evacuated citizens, delivered humanitarian supplies, 
conducted port and waterway surveys to reconstitute ports, maintained 
port and waterway infrastructure controls, and served as command and 
control in damaged areas. In particular, the post hurricane response of 
River Tenders and Construction Tenders highlight the need to 
recapitalize the capabilities essential for quick restoration of ports 
and waterways vital to maritime commerce. In order to quickly reopen 
ports and waterways following the hurricanes, the Coast Guard surged 
its Aids to Navigation cutters to the impacted areas, enabling the 
Marine Transportation System to resume economic activity and the safe 
navigation of mariners. Due to the hurricanes, unplanned maintenance 
and repairs required to restore and maintain vessels impacts our 
current year operating and repair budget and requires necessary and 
critical maintenance to be deferred.

    Question 5. National Security Cutter: In December, the Coast Guard 
will christen its eighth national security cutter, the CGC MIDGETT. 
These ships are designed to be highly capable, multi-purpose successors 
to the Coast Guard's aging fleet of high endurance cutters, which are 
now over fifty years old. How would the Coast Guard characterize the 
performance of the NSCs so far and the Nation's return on investment as 
these vessels have begun performing their duties, particularly 
regarding drug enforcement, our national security concerns in the 
Western Hemisphere, and during hurricane response?
    Answer. The NSC's advanced capabilities over WHECs and WMECs make 
the Coast Guard more able to accomplish its statutory missions related 
to drug enforcement and national security.
    During Fiscal Year 2017, the NSC's return on investment included 
the seizure of more than 71 metric tons of cocaine and the detention of 
228 suspected smugglers. Of those individuals detained, 197 were 
referred to the U.S. justice system for prosecution. Separately, NSCs 
directly contributed to more than 33 percent of all Coast Guard related 
cocaine removals and 33 percent of all smugglers referred to the United 
States for prosecution.
    The NSC's capabilities are significantly better than the WHECs and 
WMECs that have previously accomplished Coast Guard statutory missions 
related to drug enforcement and national security.
    For example, NSCs have more aircraft and cutter boat capability 
than a WHEC or a WMEC. The NSC has hangar space for two aircraft 
(versus one for the WHEC), and it embarks three cutter boats (versus 
two on the WHEC). The NSC also has increased surveillance and surface 
prosecution capabilities, contributing to extended reconnaissance range 
without compromising detection, improved interdiction capability, and 
enhanced ability to deploy boarding teams from the cutter. The 
increased stability and larger flight deck on the NSC allow for 
successful launching and recovery of aircraft during worse weather 
conditions than on the WHECs and WMECs.
    The NSC's expanded capabilities also include a more sophisticated 
combat information system and a multi-mode radar, capable of tracking 
multiple surface and air targets simultaneously while minimizing sea 
clutter interference. These capabilities significantly improve the 
NSC's Maritime Domain Awareness (MDA). The NSC is also the only Coast 
Guard cutter to maintain and operate an onboard Sensitive 
Compartmentalized Information Facility (SCIF) which allows the Coast 
Guard to exploit critical and timely information on-scene and exchange 
secure data with the national intelligence network, increasing the 
NSC's ability to interdict drug and human smuggling networks and 
investigate potential terrorist threats. These additional capabilities, 
as well as the weapons and decoy systems, improve interoperability with 
DoD and allied partners, and make the NSCs a vital part of Combatant 
Command planning and contingency operations efforts.
    The NSC's expanded capabilities also allow the Coast Guard to get 
to an operational area faster (due to its more efficient propulsion 
plant) and to remain on station longer (up to 60 days versus 45 days 
with the WHEC). The NSCs expanded capabilities reduce the need for 
logistics stops to refuel, restock supplies, and offload waste, and 
they provide the Coast Guard more time to patrol in the high threat 
areas. Finally, the NSC is the first cutter equipped with a 
``Collective Protection System'' for sustained operations (up to 36 
hours) in a contaminated environment. This means that a NSC crew is 
better protected from an adversary's use of chemical or biological 
weapons.
    During Hurricane Irma, Joint Inter-Agency Task Force South (JIATF-
S) was forced to evacuate from Key West, FL. The Coast Guard Cutter 
JAMES (WMSL-754), a NSC, coordinated all aviation and surface assets in 
the Eastern Pacific for a week. CGC JAMES facilitated 61 drug 
interdiction cases while working with 11 partner nations, five 
interagency entities, 12 surface assets, and over 24 flight missions. 
This resulted in the interdiction of 10,881 kg of cocaine and 747 kg of 
marijuana. Later, CGC JAMES was directed to assume Commander Task Unit 
(CTU) Maria, serving as a floating command center to execute local 
hurricane relief efforts in Puerto Rico. As CTU Maria, JAMES 
established tactical control for 11 Coast Guard cutters leading a 
coordinated multi-agency response between DHS, DOD, and other partner 
agencies. As CTU Maria, CGC JAMES managed maritime-related disaster 
recovery efforts to include search and rescue coordination, critical 
port assessments, and humanitarian relief. The ability to support, and 
to a degree, replicate the daily operations of major land-based units 
like JIATF-S and Coast Guard Sector San Juan, while simultaneously 
conducting normal cutter operations showcases the exceptional command 
and control capabilities of the National Security Cutter.

    Question 6. Coast Guard Aircraft: It seems as though the Coast 
Guard is continuously changing the type and quantity of aircraft 
assigned to its air stations and air facilities, leading me to wonder 
if there is an aircraft need that we (Congress) aren't hearing about. 
Does the Coast Guard have all the type and quantity of aviation 
resources that the Service needs to conduct its diverse missions and 
surge for incidents of national significance? And is the Coast Guard's 
aviation need higher now than it was five years ago?
    Answer. The Coast Guard has seen an increased demand for Airborne 
Use of Force Counter Drug, Short Notice Maritime Response, deployable 
Rotary Wing Air Intercept, and Arctic aviation capability needed to 
protect the homeland, combat terrorism and transnational criminal 
organizations and provide search and rescue coverage for the Arctic.
    The Coast Guard's aviation resources are in very high demand for 
all of our homeland security missions, but particularly during surge 
events and incidents of national significance. We continually seek to 
balance operational risk and achieve the greatest return from our 
finite resources, and will surge our resources and personnel from 
around the country to support our Nation in times of need.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                        Admiral Paul F. Zukunft
    Question 1. Great Lakes Icebreaking Tugs: In an answer to my 
question at the hearing about what is being done to ensure the 140-
icebreaking tug fleet is on track for recapitalization, the Commandant, 
Admiral Zukunft, stated that the Coast Guard wouldn't begin looking at 
recapitalization until 2030. That is twelve years away. It was 
previously stated that we only have approximately 5-6 years left for 
this fleet. This timeline does not line up. If the 140-foot fleet needs 
to be replaced in less than 10 years that would mean designs and 
appropriations need to be started as soon as possible. Please elaborate 
on the plan for ensuring that the Coast Guard will be able to support 
the Great Lakes icebreaking needs if the 140-foot fleet is not 
recapitalized until after 2030.
    Answer. The Coast Guard WTGB 140, icebreakers are currently 
undergoing a Service Life Extension Program (SLEP). The SLEP began in 
2014 and all cutters will have completed the extension by 2020. After 
SLEP, each cutter will have approximately 15 years of increased service 
life and is expected to provide service until the 2030s.

    Question 2. R&D Dilbit Study: During the hearing Admiral Zukunft 
mentioned that the Coast Guard's R&D Center uses Ohmsett lab in 
Leonard, New Jersey, to test oil spill recovery equipment. According to 
Ohmsett's website, the Coast Guard used the lab last winter to conduct 
a diluted bitumen study to evaluate the performance capabilities and 
limitations using two different type skimmers while recovering diluted 
bitumen (dilbit) off of fresh water. Please provide the report from the 
Coast Guard's study conducted at Ohmsett lab in Leonard, NJ.
    Answer. This report has not been finalized and is currently 
unavailable.

    Question 3. R&D Dilbit Study: Skimmers typically remove oil most 
effectively from the water surface, but as we learned in the Kalamazoo 
Oil Spill in 2010, dilbit sinks in freshwater posing an additional 
challenge to clean-up. How did the study address this complication 
posed by dilbit and are technologies being developed to address clean-
up of dilbit in freshwater systems?
    Answer. The Ohmsett study focused on skimmer performance in 
recovering floating diluted bitumen in various weathered states. The 
diluted bitumen in the Kalamazoo spill sunk because it mixed with 
sediment. The Coast Guard is planning to perform additional research in 
2018 on mitigation technology for that type of sunken diluted bitumen 
along lake and river bottoms.

    Question 4. Great Lakes NCOE for Freshwater Oil Spill Response: The 
Coast Guard Authorization Act of 2017 includes the creation of a Center 
of Expertise to evaluate freshwater oil spill response. How would the 
Coast Guard satisfy the requirements and implement the National Center 
of Expertise for Fresh Water Oil Spill Response?
    Answer. The Coast Guard Research and Development Center 
collaborates with other agencies and academia to identify the best 
methods for preventing, tracking, and removing oil from on, in, and 
under the ice in both salt and fresh water. The Research and 
Development Center is currently leading extensive research into fresh 
water oil spill response, including work through the Interagency 
Coordinating Committee on Oil Pollution Research to evaluate research 
options in the Great Lakes.

    Question 5. Great Lakes NCOE for Freshwater Oil Spill Response: My 
understanding is that Coast Guard Centers of Expertise have minimal 
collaborations with other agencies and outside research institutions 
and primarily serve to bring together resources and expertise within 
the Coast Guard. Title 14 of the U.S. Code section 58 subsection c 
provides for ``Joint Operation with Educational Institution 
Authorized'' by allowing the Commandant to ``enter into an agreement 
with an appropriate official of an institution of higher education to--
(1) provide for joint operation of a center; and (2) provide necessary 
administrative services for a center, including administration and 
allocation of funds.'' How would the Coast Guard implement and develop 
collaborations with research institutions and other agencies in 
developing a Center of Expertise for freshwater oil spill response?
    Answer. The Coast Guard continues to research the best methods for 
oil spill prevention, detection, and clean-up in both salt and fresh 
water under a wide range of conditions. The Coast Guard partners with 
DHS S&T on a number of projects directed at detecting and mapping oil 
on, in, and under ice. Additionally, the Coast Guard coordinates 
interagency and academia efforts in this area through the Interagency 
Coordinating Committee on Oil Pollution Research.

    Question 6. MH-60 Benefits: Air Station Traverse City recently 
transitioned from MH-65s (Dolphins) to MH-60s (Jayhawks), marking the 
first time since the early 1990s that a MH-60 was stationed in the 
Great Lakes region. I understand that this transition allows for a 
longer-range, ice-capable aircraft for search and rescue operations on 
the Great Lakes and the aircraft has an increased payload in order to 
assist in other missions. Has the Coast Guard considered transitioning 
the entire rotary wing fleet to MH-60s since they may be the better 
asset for the majority of Coast Guard missions?
    Answer. The Coast Guard conducts rotary wing operations across a 
diverse environmental and mission spectrum. Cold weather and longer 
range offshore operations are well suited for MH-60 aircraft while 
near-shore coastal and shipboard operations can be conducted with MH-65 
aircraft. Transitioning to a homogenous fleet of MH-60 aircraft would 
offer gains in maintenance, spare parts inventories and standardization 
for aircrews, but would carry up front acquisition and higher overall 
lifecycle costs. Since the early 1990s, the Coast Guard has operated a 
mixed fleet of H-65/H-60 helicopters and have been able to fully 
integrate nationwide operations to save thousands of lives during daily 
operations as well as natural disasters such as Hurricane Katrina and 
Harvey. Increased transit zone operations and special missions such as 
Rotary Wing Air Intercept (RWAI) has required the Coast Guard to make 
adjustments in force laydown such as the conversion of Air Station 
Traverse City from MH-65s to MH-60s.

    Question 7. Electronic Health Records: I understand that currently 
the Coast Guard's 41,700 active duty members still use paper health 
records, while the Department of Defense is already implementing 
electronic health records. Why does DoD have this benefit available to 
its members, but Coast Guard does not?
    Answer. The Coast Guard is currently pursuing an electronic health 
record for its active duty members through the required acquisition 
process.

    Question 8. Electronic Health Records: What are the inefficiencies 
associated with not having electronic records?
    Answer. The inefficiencies associated with not having electronic 
health records include: increased time to manage paper records, 
difficulty searching within paper records for information, increased 
time of patient encounters, increased time to schedule appointments; 
and difficulty understanding population health trends.

    Question 9. Electronic Health Records: What is the Coast Guard 
doing to move forward with electronic health records?
    Answer. The Coast Guard is following established processes in its 
pursuit of an electronic health record. Currently, we are in the 
Analyze & Select Phase of the Coast Guard Non-Major Acquisition 
Process.

    Question 10. Personnel Well-Being: In support of all three 
hurricanes, the Coast Guard mobilized over 2,900 personnel, including 
over 2,000 active duty, almost 800 reservists, and 150 civilians. I 
understand Coast Guard aircraft flew almost double the total programmed 
annual hours, and the Inland River Tender Fleet operated well over 
their programmed hours as well. What is the Coast Guard doing to ensure 
that its members are getting the proper rest and the training time that 
they need--especially during a situation like we have had recently with 
three major hurricanes back-to-back?
    Answer. The Coast Guard constructs shore infrastructure by 
incorporating the appropriate building ``risk category'' as part of the 
design process required by the American Society of Civil Engineers-
Minimum Design Loads for Buildings and Other Structures (ASCE 7-
series). Additionally, Coast Guard shore infrastructure is constructed 
in accordance with International building codes and local building 
codes when there are more stringent codes due to localized 
vulnerabilities to natural disasters.

    Question 11. Bench Strength: In your written testimony, you 
mentioned your bench strength is not what it needs to be in order to 
sustain operations, like the hurricane response, for an extended period 
of time. What are you doing to increase that bench strength?
    Answer. The Coast Guard continues to hone its manpower requirements 
and analysis processes to build and maintain a more proficient, 
diverse, and adaptable workforce--one ready to respond to changing 
technology, an increasingly complex operating environment, and dynamic 
partnerships.
    First, leveraging the Commandant's strategic guidance, statutory 
authorities and mission objectives, the Service is building a Force 
Planning Construct (FPC) as the foundation for resourcing and 
allocation decisions at both the strategic and operational levels. The 
FPC will inform and justify the size and shape of the force needed to 
execute all Coast Guard missions and strategies.
    Preliminary, FPC analysis has focused on steady-state operations 
across the Coast Guard and indicates that the Service is challenged to 
meet daily mission demands. In fact, preliminary results support the 
need for at least 6,100 additional personnel to tackle assigned 
missions (5,000 active duty and 1,100 reservists). As we refine the 
FPC through additional testing and validation and incorporate the needs 
of major contingency operations and heightened maritime security 
requirements, our ``bench strength'' estimate may change.
    Second, our Manpower Requirements Determination (MRD) Division 
builds upon the mission demands identified by the Force Planning 
Construct and ultimately defines the manpower needed for Coast Guard 
units to effectively execute their assigned missions. This process 
transforms mission requirements into manpower requirements using a 
repeatable, defendable, process built on industrial engineering 
principles to define both the number of personnel and the necessary mix 
of skills for the positions required.
    Finally, the Coast Guard has focused its human resource efforts 
towards attracting, training, and retaining the workforce of tomorrow. 
Through increased recruiting, improved retention policies, and member 
incentives, the Coast Guard has seen active duty military ``bench 
strength'' grow.

    Question 12. Reserve Force: The Coast Guard Reserve has been a 
force multiplier tool in the past and reservists have played a critical 
role in significant events, like the recent hurricanes, Superstorm 
Sandy, and Deepwater Horizon. As a former Navy reservist, I am a firm 
believer that the reserve component is critical to any service. How 
does the Coast Guard's reserve force compare to other reserve forces?
    Answer. Unlike DoD reserve forces, the Coast Guard Reserve performs 
both national defense missions under Title 10 authorities and domestic 
contingency operations under Title 14 authorities. Approximately one 
fourth of the Reserve force is assigned to CG Port Security Units--
which primarily support our defense readiness mission requirements--and 
the remaining three fourths of the Reserve force are comprised of 
individuals more closely aligned with the active component. This 
augmentation provides the Coast Guard flexibility and increased 
capacity for domestic contingency and operational surges.

    Question 13. Reserve Force: Is the Coast Guard's reserve force 
where it should be with regards to membership and training to be able 
to support in the areas needed, specifically for emergency management 
for events like hurricanes, oil spills, or terrorists' attacks?
    Answer. The Coast Guard is currently reviewing all its personnel 
requirements through an integrated Force Planning construct--a multi-
faceted approach that codifies manpower requirements for the entire 
workforce. This analysis is on-going; however, preliminary results show 
we have a workforce deficit of at least 1,100 beyond our authorized 
strength (7,000).

    Question 14. Reserve Force: If the Coast Guard's reserve force is 
not where it should be as far as numbers and training, please describe 
the plan for meeting this need.
    Answer. While we maximize every opportunity that we have, the Coast 
Guard faces several distinct challenges in growing the Reserve 
Component. First, all military components compete for a limited pool of 
qualified candidates and this competition has only increased over time. 
We make every attempt to entice members departing the active service 
into the Reserve component. Second, providing competitive financial 
incentives to members interested in the Reserve force is always 
difficult in constrained budget environments. Finally, we continue to 
seek the proper alignment of our recruiting centers, training 
facilities, and Reserve unit locations to align our force with 
available populations of candidates.

    Question 15. Cyber-Security: Cyber-attacks unfortunately are on the 
rise, but knowing this should give organizations the ability to 
prepare. Managing cyber risks will continue to be an ongoing effort 
requiring time and attention for all Federal agencies. I understand the 
Coast Guard has implemented a new cyber protection team. Please provide 
a summary overview of the Coast Guard's Cyber Protection Team--what is 
its role and how will it reinforce the Coast Guard's readiness posture?
    Answer. The mission of the Coast Guard's Cyber Protection Team 
(CPT) is to survey, defend, secure and protect networks supporting DOD 
and Coast Guard critical infrastructure. The CPT will be organized, 
trained, equipped and assessed to joint standards of the DoD Cyber 
Mission Force. The planned CPT consists of a command element and six 
squads (totaling 39 members) trained in Defensive Cyber Operations 
(DCO). The Coast Guard CPT currently consists of one initial squad 
which is embedded with the DHS National Cybersecurity and 
Communications Integration Center's (NCCIC) Hunt and Incident Response 
Team. Once fully manned, the CPT will reinforce the defense posture of 
the Coast Guard's Cybersecurity Service Provider and may deploy in 
support of regional Sector Commanders in the event of a Cyber incident 
to the Marine Transportation System.

    Question 16. Cyber-Security: I understand that funds dedicated to 
improving your cyber security program had to be diverted to hurricane 
response efforts. Can you elaborate to the extent that this will impact 
your cyber security program?
    Answer. The Coast Guard's Cybersecurity program continued to be 
funded during hurricane response efforts. However, the Coast Guard was 
forced to make numerous other tradeoffs in order to fund hurricane 
response operations. For example:

  <bullet> Cutter maintenance was either cancelled or curtailed: CGC 
        MOHAWK was pulled from a dockside maintenance, patches were 
        welded over holes and she sailed without her anchors; CGC 
        HAMILTON's Tailored Shipboard Training Availability and CGC 
        OAK's maintenance periods were cancelled.

  <bullet> To pay for the cost of our response, the Coast Guard was 
        forced to defer multiple contracts. For example, we did not 
        award a $7 million contract to procure 19 Response Boat Small, 
        with potential future readiness implications.

    Question 17. Resiliency: You have identified over $650 million in 
needs to restore infrastructure readiness from the impact of Harvey and 
Irma, and are still assessing and evaluating the units impacted by 
Maria. I understand that in the aftermath of Hurricane Ike in 2008, 
Station Sabine, Texas and the OPBAT Great Inagua, Bahamas hangar were 
rebuilt to withstand a Category 3 hurricane and as a result suffered no 
damage from Harvey or Irma. What is the Coast Guard doing to ensure 
that other infrastructure being rebuilt or built new will also be 
resilient?
    Answer. The Coast Guard constructs shore infrastructure by 
incorporating the appropriate building ``risk category'' as part of the 
design process required by the American Society of Civil Engineers-
Minimum Design Loads for Buildings and Other Structures (ASCE 7-
series). Additionally, Coast Guard shore infrastructure is constructed 
in accordance with International building codes and local building 
codes when there are more stringent codes due to localized 
vulnerabilities to natural disasters.

    Question 18. Impacts from Hurricanes on Coast Guard: We heard that 
there is great need for repairs to Coast Guard infrastructure that was 
hit by the hurricanes, and also for the backlog of previously deferred 
maintenance. These back-to-back hurricane responses changed things up 
quite a bit for the Coast Guard for several months, and still continues 
to. I imagine this has strained units. What were/are the costs 
associated with operational missions, patrols, and training courses 
that were cancelled? (not just quantitative data, but the qualitative 
data as well).
    Answer. The Coast Guard's surge of assets and personnel in response 
to these hurricanes impacted operations and eroded future readiness. In 
order to respond, the Coast Guard reduced maritime security operations, 
including: reduced port security patrols and escorts, reduced 
counterdrug operations, temporary closure of Operations Bahamas and 
Turks and Caicos, and a thirty day suspension of Atlantic Area cutter 
deployments to the Eastern Pacific Ocean Area. The Coast Guard also 
reduced maritime safety operations, including: temporary closure of 
Coast Guard Air Facilities Charleston and Waukegan, temporary closure 
of Coast Guard Stations Two Rivers and Washington Island, postponed 
maintenance for aids to navigation, canceled or curtailed cutter 
maintenance, and canceled all flight training at Aviation Training 
Center Mobile for two weeks.
    The Coast Guard typically provides coverage to support Joint 
Interagency Task Force South missions. During the response to these 
hurricanes, coverage for these missions was reduced. A dockside 
availability for CGC MOHAWK was interrupted, and she sailed with 
patches welded over holes and without her anchors. CGC HAMILTON's 
Tailored Shipboard Training Availability and CGC OAK's maintenance 
period were canceled.

    Question 19. Readiness: If $30M is to come from the Depot 
Maintenance account, but Coast Guard assets require more depot 
maintenance due to increased operations from the hurricanes, how will 
this impact the Coast Guard's depot level maintenance?
    Answer. The loss of $30 million in the Depot Maintenance account 
will place strain on maintenance accounts that are already experiencing 
funding shortfalls. The loss of funding will directly impact the supply 
inventory for both aircraft and surface assets. Additionally, the 
increased funding shortfall will delay equipment overhauls, repair of 
inventory parts, and large maintenance projects for surface assets such 
as dry-dock availabilities.

    Question 20. Readiness: How does this impact Coast Guard readiness?
    Answer. Coast Guard readiness will be impacted by creating high 
risk that casualties will render assets not mission ready for future 
operations. A reduction in parts/supply inventory, delaying large 
maintenance projects, and running equipment longer than planned 
intervals increases the risk of unplanned maintenance and equipment 
failures.

    Question 21. Readiness: Are there any equipment needs or equipment 
that needs replacement due to the hurricanes?
    Answer. The Coast Guard expended parts, equipment, and assets 
during the 2017 hurricane season that require replacement and repair. 
Some examples include: replacement of a capsized 26, Trailerable Aids 
to Navigation Boat (TANB), replacement of damaged MH-60T tail rotor 
blades, repair of damaged mobile boat hoists, repairs to damaged 55, 
Aids to Navigation boat and a Special Purpose Craft-Airboat (SPC-AIR), 
and replacement of punt boats.

    Question 22. Readiness: Are there any equipment needs that would 
have improved the hurricane response efforts?
    Answer. Like the other Armed Forces, the Coast Guard has 
experienced a significant deterioration in readiness, and our aging 
assets are in dire need of restoration and recapitalization. While the 
Coast Guard was able to respond to all of these disasters, this 
response had a cost and has eroded future readiness. Operational 
missions, patrols, and training were cancelled, additional unplanned 
hours and fatigue was incurred and increased maintenance and repair was 
required.

    Question 23. E-ATON: To date, the Coast Guard has deployed 336 
synthetic ATON and 51 Virtual ATON across all nine districts. Prior to 
Hurricane Irma's landfall, the Coast Guard established over 300 
electronic Aids to Navigation (eATON) around critical U.S. waterways 
including Key West, Tampa and up the eastern shore to Charleston, South 
Carolina. I understand these navigation aids augmented Coast Guard Buoy 
Tenders and Aids to Navigations Teams post landfall as the teams worked 
to reconstitute buoys and beacons. Then mariners equipped with an 
Automatic Identification System (AIS) or electronic charting system 
were able to capture information from the Coast Guard's Nationwide AIS 
to acquire the information on the eATONs. This helped get ports back up 
and running. What percentage of the ATON in the Great Lakes are e-ATON 
or virtual buoys?
    Answer. 69 of 2,481 AtoN, or approximately three percent, in the 
Great Lakes are e-AtoN.

    Question 24. E-ATON: Are there plans for using e-ATON or virtual 
buoys for the entire Coast Guard ATON mission, and specifically for the 
Great Lakes where ice can have a significant impact on ATON? What is 
the plan?
    Answer. There are no plans to use E-AtoN for the entire Coast Guard 
AtoN mission. In the Great Lakes, the Coast Guard is examining and has 
plans to use E-AtoN where ice poses significant impact to a physical 
buoy. For example, during the 2017-2018 winter season, the Coast Guard 
plans to l use e-AtoN to augment 30 buoys that historically have been 
seasonally replaced by less conspicuous winter buoys, and it plans to 
use E-AtoN to augment 29 buoys that historically have been seasonally 
withdrawn.

    Question 25. E-ATON: If not, why not?
    Answer. E-AtoN is intended to augment the physical AtoN 
constellation, similar to how land-based navigators use GPS in their 
cell phones to augment the physical constellation of road and highways 
signs. Additionally, unlike E-AtoN, physical AtoN has no cyber risk.

    Question 26. Communications: The Coast Guard responded to thousands 
of citizens in distress during the recent hurricanes. During Hurricane 
Harvey, 911 centers had such a large volume of calls, many individuals 
could not get through. Even when the Coast Guard posted multiple 
numbers on their social media accounts for the public to use, that did 
not stop individuals from using social media to report ``mayday'' 
notifications to the Coast Guard. I understand that is not the typical 
procedure for Coast Guard's social media platforms. But seeing the 
need, you set up an impromptu center in Washington, D.C. with over 65 
members assigned to field search and rescue calls from social media. 
What is being done to ensure that in the future, the public has a 
better way to contact and communicate with the Coast Guard when phone 
lines are not available?
    Answer. The Coast Guard's ability to adapt and respond to phone 
calls and social media pleas for assistance was critical to the success 
of the response to the 2017 hurricanes. During hurricane response 
operations, the Coast Guard rapidly developed interim policy guidance 
and a technical solution for operational commands to utilize social 
media websites from certain Coast Guard computers to support search and 
rescue operations. The Coast Guard is currently developing a permanent 
policy, along with tactics, techniques, and procedures, for the use of 
social media during the prosecution of search and rescue cases. The 
Coast Guard is currently examining lessons learned from the 2017 
hurricane season operational requirements.

    Question 27. Autonomous Vessels: Autonomous vessels might not be 
something that the U.S. is ready for, but it is a technology that is 
starting to be explored around the world, and even here in the U.S. How 
will the Coast Guard ensure the safety and security of our waters and 
ports if, and more likely, when autonomous boats begin to conduct 
research, collect data, clean up oil, and eventually transport goods 
and personnel?
    Answer. The Coast Guard has broad statutory authorities to inspect 
commercial vessels, credential mariners, manage navigable waterways, 
and protect maritime security. This breadth of authority, used in 
concert with ample regulatory discretion, provides the Coast Guard with 
the flexibility to mitigate risks associated with emerging technologies 
integral to autonomous vessel operations. Coast Guard Sector Commanders 
are uniquely positioned to coordinate with all stakeholders to ensure 
the continued safety, security, and resiliency of the marine 
transportation system while supporting the industry's expanding use of 
autonomous technologies. The Coast Guard is currently working with 
international and domestic stakeholders to develop standards that 
address these technologies, to protect economic prosperity without 
compromising safety, security, or environmental protection.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Admiral Paul F. Zukunft
    Question 1. 52, Motor Lifeboats: The Coast Guard operates 52-foot 
Special Purpose Heavy Weather boats on the large coastal bars of 
Washington and Oregon. These boats were purpose built for the Pacific 
Northwest, and are rapidly approaching the end of their service life. 
Even at 60 years old, 52,s fill an essential role ensuring the safety 
of Pacific Northwest mariners, as well as the Coast Guard members 
operating in the heavy surf environment. What specific steps is the 
Coast Guard taking to ensure we do not lose the unique 52-foot motor 
lifeboat capability in the Pacific Northwest?
    Answer. The Coast Guard is currently focused on executing a Service 
Life Extension Program (SLEP) for the 47 foot Motor Lifeboat (47 MLB) 
fleet. The 47 MLBs conduct the vast majority of SAR in surf and heavy 
weather conditions throughout the nation, and are approaching the end 
of their projected service lives. The SLEP will replace the engines and 
other major components, and is expected to extend the MLB's service 
life by an additional 20 years.

    Question 2. 52, Motor Lifeboats: I am concerned that without a 
viable replacement vessel for the 52,s, Coast Guard surf stations will 
not be able to meet a number of missions, including search and rescue 
of distal fishing fleets off of Washington and Oregon. For example, 
could the Coast Guard respond to an albacore vessel in distress 150 
miles offshore with a surface asset? If so, does that capability 
include the ability to bring back the vessel, as well as the mariners 
in a safe and timely manner? Specifically, could the Coast Guard still 
effect a tow, on a breaking bar, of a 250 gross ton trawler without the 
52-footers?
    Answer. The Coast Guard maintains capability to respond to persons 
in distress offshore via both aviation and surface assets. The primary 
focus of Search and Rescue (SAR) is saving the lives of mariners in 
distress, with a secondary focus on saving property. Any decision to 
tow a vessel back to port would be made in accordance with the Coast 
Guard Maritime SAR Assistance Policy and would be based on a careful 
balance of risk versus return. Currently only the 52' Motor Lifeboat is 
capable of towing vessels displacing 250 tons across a breaking bar.

    Question 3. 52, Motor Lifeboats: Maintaining the four 60 year old 
52,s is becoming a serious engineering and financial challenge. How can 
the Congress work with the Coast Guard to accelerate the acquisition 
timeline for replacement vessels for the 52-foot motor lifeboats?
    Answer. The Coast Guard is currently focused on executing a Service 
Life Extension Program (SLEP) for the 47 foot Motor Lifeboat (47 MLB) 
fleet. The 47 MLBs conduct the vast majority of SAR in surf and heavy 
weather conditions throughout the nation, and are approaching the end 
of their projected service lives. The SLEP will replace the engines and 
other major components, and is expected to extend the MLB's service 
life by an additional 20 years.

    Question 4. 52, Motor Lifeboats: Should the four 52-footers be 
replaced in-kind, or are there efficiencies to be realized by building 
additional boats with the 52,s capability?
    Answer. A fleet mix analysis of the current and potential future 
assets would need to be conducted to determine how many boats would be 
required at any given location.

    Question 5. 52, Motor Lifeboats: Due to the superior performance of 
the 52,s, should the Coast Guard consider replacing the 47-foot Motor 
Lifeboats at Stations Grays Harbor, Cape Disappointment, Yaquina Bay, 
Coos Bay and the National Motor Lifeboat School with a more capable 52-
foot replacement?
    Answer. The 47 foot MLB meets all operational requirements for 
these stations. If a determination is made that a replacement boat is 
required for the 52 foot MLB, the Coast Guard would ensure the asset 
all of the mission requirements for those units.

    Question 6. 52, Motor Lifeboats: Would this reduce the training 
burden on the stations by eliminating the need to learn two different 
boats?
    Answer. Yes, the training required to attain and maintain 
proficiency in multiple boat types is greater than for a single boat 
type.

    Question 7. 52, Motor Lifeboats: There are approximately only 200 
surfmen in the entire Coast Guard and only an estimated 50 of those 
members are certified to operate the 52-foot motor lifeboat. The Coast 
Guard Motor Lifeboat School at Cape Disappointment, Washington does not 
have a 52-foot motor lifeboat to use as a training platform. What is 
the Coast Guard doing to ensure enough surfmen are trained and 
proficient to safely operate and handle the 52-foot motor lifeboat?
    Answer. The Coast Guard Motor Lifeboat School provides instruction 
pertaining to the skills and knowledge needed to operate a heavy 
weather and/or surf capable boat in those conditions. The Coast Guard 
Motor Lifeboat School does not qualify or certify students on the 47 
MLB. Specific boat type training, qualification, and certification on 
the Coast Guard's surf-capable boats occur at the individual stations. 
The Coast Guard is in the process of reviewing its Prospective Surfman 
Program to ensure that it adequately supports the needs of the service.

    Question 8. Combat Related Special Compensation (CRSC): I secured 
an amendment to the Coast Guard Authorization Act of 2015 (Public Law 
No: 114-120) to require the Coast Guard to implement the Combat Related 
Special Compensation benefits in the same manner as the Department of 
Defense branches. In February 2017, I began discussions with the Coast 
Guard due to concerns that the Combat Related Special Compensation pay 
benefit was being improperly calculated. In July of 2017, at my 
request, the Coast Guard conducted an internal audit of the Combat 
Related Special Compensation program. The audit found that 69 retired 
Coast Guard members were being underpaid their Combat Related benefits 
due to an accounting error. More than 4 months have lapsed since this 
error was detected and I understand from Coast Guard veterans that this 
error has not been fully addressed. What is the Coast Guard's timeline 
correcting this error? Please answer this question in terms of 
notification of members, audits required versus completed, correcting 
the benefit for future payments, and delivering back pay to which these 
members rightfully earned and deserve.
    Answer. The Coast Guard has positively identified 61 retirees being 
impacted by the Combat Related Special Compensation (CRSC) law change. 
The Coast Guard (CG) is currently auditing these cases and expects to 
have all cases completed by April 2018. Each retiree will be notified 
as we complete their case by memo that addresses the underpayment and 
the amount they are due.
    The CG is working on multiple updates to Direct Access one of which 
is an update to Global Payroll which calculates retiree pay. The memo 
that each affected retiree receives will inform them that until this 
system change is tested and implemented (expected by summer 2018) the 
CG will be manually crediting them the amount they are owed each month. 
After the system change is in place the payroll system will 
automatically calculate their retired pay and no further crediting will 
be needed.

    Question 9. Combat Related Special Compensation (CRSC): How will 
the Coast Guard ensure this error in calculating Combat Related Special 
Compensation benefit payments will not reoccur?
    Answer. The Coast Guard will thoroughly test the system change when 
it is put in place to validate that CRSC is being properly calculated.

    Question 10. Combat Related Special Compensation (CRSC): It is 
important that Coast Guard members are well versed at the beginning of 
their careers on Combat Related Special Compensation benefits. I am 
concerned that the Coast Guard is not doing enough to educate young 
Coast Guardsmen and women who are just entering the service. How will 
the Coast Guard improve its outreach and education to members who are 
beginning their careers?
    Answer. The Coast Guard has utilized multiple venues as 
opportunities to educate members on CRSC.

  <bullet> On the CG Disability Evaluations Branch and Pay Center 
        websites information and resource links have been imbedded.

  <bullet> The Disability Evaluations Branch Ombudsman has been 
        instructed to discuss CRSC with every members going through the 
        disability process.

  <bullet> A dedicated CRSC trifold has been developed and distributed 
        throughout the medical and operational communities that 
        provided awareness by highlighting the clarifying criteria of 
        CGAA 2015, how to apply for CRSC, and providing pertinent 
        resources and points of contact.

  <bullet> A training module was developed to be included in Transition 
        Assistance Program (TAP) classes that are conducted in 
        coordination with the Department of Veterans Affairs. It 
        discusses eligibility requirements and exceptions, elections 
        when a member is entitled to both CRSC and Concurrent 
        Retirement and Disability Pay (CRDP) and refers members to 
        their branch of service for more information, etc.

  <bullet> Force Readiness Command provides a monthly training news 
        letter to all units in the Coast Guard. Preparations are 
        underway for an upcoming issue that will highlight CRSC, when 
        it may apply, and the importance of documenting injuries 
        properly when they occur.

    Question 11. Combat Related Special Compensation (CRSC): Has the 
Coast Guard considered integrating training on Combat Related Special 
Compensation pay during Coast Guard accession points such as enlisted 
basic training, Officer Candidate School, or the Coast Guard Academy? 
Why or why not? What tools, resources, and funding would the Coast 
Guard need to execute this integration?
    Answer. Consideration is being given on how to best implement the 
addition of a standardized training module on Combat Related Special 
Compensation into indoctrination programs at all accession points 
(Enlisted Basic Training, Officer Candidate School, Direct Commission 
Officer and the Coast Guard Academy). Due to the rigid structure of the 
boot camp curriculum changes must be carefully considered for impact 
and efficacy. Officer accession sources may provide more flexibility 
and a better venue for this information in regards to accession 
sources.
    This information is being included in the CG Command Cadre course 
materials for unit Commanders and Executive Officers (who are typically 
the designated unit medical officers). Command awareness of CRSC will 
promote reporting and proper documentation for injuries that occur 
during all operational events.
    The need for additional resources to complete this task are not 
known at this time, but is expected to be minimal.

    Question 12. Combat Related Special Compensation (CRSC): Has the 
Coast Guard considered conducting an analysis to best target specific 
rates and career fields where additional emphasis and training on 
Combat Related Special Compensation is appropriate? Additionally, have 
focal point trainings such as flight school, surf school, dive school, 
or rescue swimmer school been considered as opportunities to conduct 
refresher training on Combat Related Special Compensation? Why or Why 
not? What tools, resources, and funding would the Coast Guard need to 
execute the analysis and integration of Combat Related Special 
Compensation in the programs mentioned above?
    Answer. An addition to A-school curriculum is likely the best venue 
for our junior enlisted workforce. The historical breakdown of CRSC 
benefits by specialty indicate a relatively even rate of 1 percent 
across all ratings and specialties. There is a common leadership module 
in the curriculum of all A-schools where CRSC could logically be 
included. The Coast Guard will work on a standardized information 
module for Combat Related Special Compensation to include in all A-
Schools. The need for additional resources to complete this task are 
not known at this time, but is expected to be minimal.

    Question 13. Combat Related Special Compensation (CRSC): Has the 
Coast Guard considered developing a web-based training for Combat 
Related Special Compensation? Why or why not? What tools, resources, 
and funding would the Coast Guard need to develop and implement a web 
based training program?
    Answer. Like most of the Coast Guard's training, the curriculum 
development and fielding of web based training undergoes a standard 
analysis, evaluation, development, and approval process. The Coast 
Guard will add CRSC to the list of proposed web based training courses 
for evaluation. Additional funding may be required for development and 
implementation of this proposal.

    Question 14. Combat Related Special Compensation (CRSC): What 
outreach has the Coast Guard conducted to Coast Guard medical providers 
and clinic administrators regarding Combat Related Special Compensation 
benefits? If the Coast Guard is conducting outreach to these members 
and staff, does that include charting, communication strategies with 
patients, and the importance of charting incidents? If the Coast Guard 
is not conducing outreach or training to these members and staff, when 
will the Coast Guard develop a training and outreach program for 
medical professionals?
    Answer. The Coast Guard provides annual training to medical 
providers and clinic administrators on Combat Related Special 
Compensation benefits. The training involves the importance of charting 
the nexus and history of injuries or illnesses to include the missions 
that could qualify for CRSC.

    Question 15. Combat Related Special Compensation (CRSC): The Coast 
Guard has increased outreach to its retiree population with regard to 
Combat Related Special Compensation pay, however more can be done. What 
other steps will the Coast Guard take to ensure Coast Guard members 
eligible for Combat Related Special Compensation will have the 
information they need to secure this benefit? How is the Coast Guard 
partnering with the Department of Veterans Affairs to improve member 
education, outreach and training on this issue?
    Answer. The Coast Guard will continue to publish Combat Related 
Special Compensation articles in each Retiree Newsletter. The Coast 
Guard partners with the Department of Veterans Affairs in presenting 
TAP. During TAP, a training module on Combat Related Special 
Compensation is presented.

    Question 16. Oil Spill Prevention in Puget Sound: During the March 
2017 Ocean, Atmosphere, Fisheries, and Coast Guard Subcommittee hearing 
on the ``State of the Coast Guard: Ensuring Military, National 
Security, and Enforcement Capability and Readiness,'' you stated that 
the Coast Guard had ``modest'' funding in its Research and Development 
budget for oil spill response and that it is one of your highest 
priorities to remove spilled tar sands oil once spilled. What resources 
and funding does the Coast Guard need to support research and 
technology development to be better prepared to prevent and more 
effectively respond to a tar sands oil spill?
    Answer. The Coast Guard chairs the Interagency Coordinating 
Committee on Oil Pollution Research (ICCOPR). ICCOPR coordinates oil 
spill research and is comprised of multiple partners, including Federal 
agency, industry, international, state, and academic institutions. 
Together, these components advance the body of knowledge to increase 
marine environmental response capabilities and address known research 
gaps. Additionally, the Coast Guard Research and Development Center 
(R&DC) is examining innovations in prevention and response capabilities 
for spills involving oil sands. This project began in 2014 and is 
expected to continue through July 2019. It is funded through an 
allocation from the Oil Spill Liability Trust Fund.

    Question 17. Oil Spill Prevention in Puget Sound: What can the 
Coast Guard do now with its current resources and funding to better 
boost its oil spill response capabilities?
    Answer. As the vast majority of spill response is conducted by Oil 
Spill Response Organizations (OSROs), the Coast Guard's best mechanism 
for improving oil spill response capabilities is through policy 
development and coordination with international and domestic 
stakeholders. The Coast Guard is committed to ensuring that adequate 
response capabilities exist to respond to oil spills in the coastal 
zone. A longstanding model of international spill planning and 
cooperation, the Canada-United States Joint Marine Contingency Plan 
(JCP) marks its 43rd anniversary in 2017. The JCP has guided the 
Canadian Coast Guard (CCG) and United States Coast Guard (USCG) in an 
ongoing collaborative approach to spill response and preparedness. 
Additionally, the Coast Guard directs Area Committees, comprised of 
Federal, state, local, and Tribal organizations. The Area Committees 
develop and exercise Area Contingency Plans which address the removal 
of a worst case discharge and mitigate or prevent substantial threats 
of discharges in U.S. coastal zones.

    Question 18. Oil Spill Prevention in Puget Sound: In October, Coast 
Guard Sector Puget hosted the first Ports and Waterways Safety 
Assessment workshop in Washington state since 2002. This workshop was 
comprised of more than 80 maritime and waterway community users, 
stakeholders and representatives from Canada, the State of Washington, 
Coast Salish Tribe and indigenous peoples. What is the timeline for the 
final report to be produced and made available to the public?
    Answer. The Coast Guard expects to release the Puget Sound Ports 
and Waterways Safety Assessment (PAWSA) workshop report in early-2018.

    Question 19. Oil Spill Prevention in Puget Sound: What are the core 
recommendations identified by the Ports and Waterways Safety Assessment 
workshop?
    Answer. The Puget Sound PAWSA workshop did not result in any 
actionable recommendations other than to reconvene in another forum to 
continue the discussion on ways to enhance navigation safety in the 
Salish Sea.

    Question 20. Oil Spill Prevention in Puget Sound: What resources 
and funding does the Coast Guard need move forward and implement the 
recommendations from the Ports and Waterways Safety Assessment?
    Answer. The Coast Guard has not identified a need for additional 
resources or funding for this assessment.

    Question 21. E-Medical Records: As you know I have been a vocal 
advocate in ensuring Coast Guard members receive equivalent benefits, 
healthcare, and services as the other military branches. When the Coast 
Guard terminated its contract with Epic citing significant risks and 
irregularities our office immediately engaged on the issue, requested 
to be briefed on the best pathway forward, and offered the Coast Guard 
legislative assistance. The Coast Guard has administrative tools and 
authorities at its disposal to move forward with awarding a contract 
for development of an electronic health record system that is seamless 
integrated with the Department of Defense's system. What is the Coast 
Guard's plan and status for moving through an administrative process to 
award a contract for development of an electronic health record system?
    Answer. The Coast Guard is following established processes in its 
pursuit of an electronic health record. Currently, we are in the 
Analyze & Select Phase of the Coast Guard Non-Major Acquisition 
Process.

    Question 22. E-Medical Records: As the Coast Guard moves through 
the administrative process to award a contract for the development of 
an electronic health record system, what is the Coast Guard's 
forecasted timeline from award of a contract to full transition to an 
electronic health record system?
    Answer. The Coast Guard's forecasted timeline from contract award 
to full transition to an electronic health record system is 
approximately three years.

    Question 23. E-Medical Records: I understand that in 2019 U.S. 
Military Entrance Processing Command (USMEPCOM) will fully transition 
to a 100 percent electronic health records based system. Does the Coast 
Guard have a plan to ensure that new service members entering the Coast 
Guard will have seamless coverage and integration of the medical 
records?
    Answer. Yes. Recruits will be responsible for hand carrying paper 
copies of their health records to boot camp. These paper health records 
will be integrated into their Coast Guard paper health records at the 
training center.

    Question 24. E-Medical Records: Does the Coast Guard expect to have 
an electronic health record system in place by USMEPCOM's transition 
date?
    Answer. No. The Coast Guard is following established processes in 
its pursuit of an electronic health record. Currently, we are in the 
Analyze & Select Phase of the Coast Guard Non-Major Acquisition 
Process.

    Question 25. E-Medical Records: What is the Coast Guard's 
contingency plan in the event the service will not have an electronic 
health record system in place by the transition date?
    Answer. The Coast Guard will continue to use paper records until an 
electronic health record system is in place.

    Question 26. Childcare: Access to childcare in remote locations 
places an unnecessary burden on Coast Guard families living and serving 
in these communities. What specific steps can be taken to address 
access to childcare challenges for members stationed at remote Coast 
Guard stations, such as Coast Guard Station Neah Bay? Has the Coast 
Guard conducted a nationwide assessment of childcare needs for members? 
Why or why not? What would the Coast Guard need from Congress to 
conduct such an assessment?
    Answer. Ensuring the Coast Guard workforce has adequate access to 
programs to provide family support is a high priority for me.
    Since not all locations offer the same childcare options, Coast 
Guard families are encouraged to explore all available childcare 
options prior to finalizing a decision.
    The last national assessment of childcare was conducted in Fiscal 
Year 2004.
    The President has recently signed the Fiscal Year 2018 Omnibus 
Appropriations Act which directs the Coast Guard to conduct and report 
on the results of a survey regarding cost and availability of child 
care. Approximately $500K would enable the survey execution to be 
expedited.
    Upon completion of the directed survey, the Coast Guard will be 
better suited to determine what level of additional funding may be 
needed to increase access to childcare services.

    Question 27. Access to Medical Care: Coast Guard members and 
families serving in remote locations often face additional burdens when 
accessing healthcare providers. For example, many families at Station 
Grays Harbor must drive hours to receive care as far away as Olympia, 
Washington, which is about an hour and a half away. Families in Neah 
Bay often travel to Port Angeles (1 hour and 40 minutes), or to 
Bremerton (3 hours 10 minutes) to receive care. This often includes 
members and dependents seeking OB/GYN care, which is a particular need 
in the region. What is the Coast Guard doing to assess healthcare 
access for members and dependents in remote locations?
    Answer. Access to healthcare for all members and dependents is a 
high priority for the Coast Guard. Healthcare access for members and 
families assigned to remote location units is discussed during 
quarterly patient advisory committee meetings. Additionally, the Coast 
Guard has increased education on TRICARE accessibility via public 
affairs communication action plans such as blogs, message traffic, flag 
notes, etc.

    Question 28. Access to Medical Care: What can the Coast Guard do to 
improve healthcare access for members and families stationed at remote 
locations?
    Answer. The Coast Guard works with the Defense Health Agency (DHA) 
in identifying remote locations where TRICARE Prime Remote is the 
appropriate designation for members and their families. The Coast Guard 
also works with the TRICARE Contractor to improve the network where 
problems are identified.

    Question 29. Access to Medical Care: There is an urgent care clinic 
in Neah Bay that currently doesn't accept TRICARE. Has the Coast Guard 
engaged with TRICARE to attempt to secure TRICARE coverage for families 
stationed in Neah Bay at a local facility? Why or why not?
    Answer. The Coast Guard is unaware of any access to care issues in 
Neah Bay at this time. We will investigate further.

    Question 30. Access to Medical Care: Access to behavioral health 
providers is also particularly challenging in remote locations. What is 
the Coast Guard doing to improve access to behavioral healthcare for 
members and dependents in remote locations?
    Answer. The Coast Guard interacts with the TRICARE contractor to 
ensure mental health services are available to all beneficiaries. When 
services are not available, the Coast Guard engages with TRICARE to 
strengthen that provider network.

    Question 31. Access to Medical Care: Has the Coast Guard increased 
the availability for family members to access telemedicine for 
behavioral health needs?
    Answer. Family members receive care via DoD or TRICARE providers. 
DOD has a robust telemedicine program for beneficiaries.

    Question 32. Access to Medical Care: Has the Coast Guard considered 
staffing models for Coast Guard clinics where behavioral health 
professionals could work part time, or rotate between facilities to 
ensure access to care?
    Answer. Mental health professionals, both uniform and contracted, 
are assigned to Coast Guard units based on expressed need. As need is 
discovered, mental health professionals are sent to other units on 
occasion. Coast Guard mental health professionals see only active duty 
members. Dependents receive their care via DoD or TRICARE providers.

    Question 33. Access to Medical Care: I am concerned that Coast 
Guard Sector Astoria only has a part-time flight surgeon, because the 
surgeon is split between Astoria and Coos Bay. How long has this 
staffing model been in effect?
    Answer. The Coast Guard unit in Astoria has been receiving full 
coverage from Coast Guard physicians travelling to that unit. No Coast 
Guard units in Coos Bay or nearby have been negatively impacted.

    Question 34. Access to Medical Care: What is the Coast Guard doing 
to ensure consistent access to care for members stationed at either 
facility, instead of interrupted care?
    Answer. The Coast Guard is continuing to work directly with DHA and 
TRICARE to strengthen the provider network in those areas.

    Question 35. Natural Disaster Preparedness for Tsunamis: In Grays 
Harbor, the Coast Guard Station and Coast Guard family housing, is 
located in the inundation zone for a Cascadia Subduction Zone 
earthquake-generated tsunami. In the event of a tsunami, there is a 
vertical evacuation structure located at an elementary school in the 
area, but it is too far for Coast Guard members and dependents to 
access in the event of an emergency. Has the Coast Guard considered 
additional tsunami resilience planning and infrastructure for Station 
Grays Harbor?
    Answer. The Coast Guard acknowledges that tsunami inundation is a 
recognized vulnerability for Station Grays Harbor and the Coast Guard 
family housing in Grays Harbor and will incorporate tsunami resiliency 
planning into any future infrastructure projects located there.

    Question 36. What can the Congress do to support vertical 
evacuation infrastructure access for Coast Guard members and families 
in the region?
    Answer. As Coast Guard infrastructure is planned for 
recapitalization, resiliency to withstand natural disasters is a 
planning consideration which is factored into the facility design. 
Continued Congressional support for Coast Guard shore infrastructure 
projects will promote resiliency to withstand damage from natural 
disasters and ensure response operations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                        Admiral Paul F. Zukunft
    Question 1. What is the timeline for replacing the C-130 Hercules 
at Barbers Point with the newer, more capable C-130Js?
    Answer. The Coast Guard anticipates replacing the HC-130H aircraft 
at Air Station Barbers Point with HC-130J's in 2022.

    Question 2. Is there a plan to invest in new facilities at Barbers 
Point so that we can do the daily maintenance on those aircraft and 
protect them from the salt water environment?
    Answer. The Coast Guard is currently assessing the need to 
construct a new hangar facility at Barbers Point. To assist with 
corrosion prevention, the Coast Guard recently installed an aircraft 
rinse rack.

    Question 3. And what plans do you have to improve the installation 
power at Barbers Point, since assured power is critical to all of the 
air station's operations?
    Answer. The Coast Guard received a FY 2016 appropriation that 
includes funding for a new electrical distribution system to supply Air 
Station Barbers Point with a dependable electrical power supply. The 
project will replace the deteriorated Navy-owned distribution system 
and ensure compliance with national electrical distribution and utility 
systems.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Etta Kuzakin
    Question 1. What is the longest amount of time someone has waited 
for a medevac out of King Cove?
    Answer. There have been a number of times when medevacs, either by 
air or water, could not happen for days. I believe the longest time has 
been four days. In that situation the person needing to be medevaced 
died. I have attached our list of deaths that have occurred as a result 
of our notorious bad weather and access problems in reaching the Cold 
Bay Airport. In particular, note deaths 6, 7, 8, 10, and 11.

    Question 2. How do you think your experience would have been 
different if the road had been there?
    Answer. A road to the Cold Bay Airport from my home in King Cove 
would have eliminated the incredible STRESS and CONFUSION that I, my 
husband/family, clinic providers and staff had to endure for the many 
hours while a safe means of getting me to the Cold Bay Airport for my 
medevac flight from there to Anchorage. It was an experience that I 
hope nobody else in my community ever has to go through again, but 
until we get this road connection we are always going to be susceptible 
to these situations.

    Question 3. Where is the Coast Guard Air Station located that sends 
its crews to your community for medical evacuations?
    Answer. It depends on the time of the year and some luck. During 
the winter fishing season in the Bering Sea (primarily crab), the USCG 
station in Kodiak (about 300 miles east of King Cove) has a temporary/
seasonal base of operation in Cold Bay (about 25 miles north of King 
Cove). In my particular situation, the USCG crew and helicopter that 
day were about 200 miles north of Cold Bay in the Bering Sea. Once it 
was determined that my only option was going to be a USCG rescue, the 
helicopter and crew up in the Bering Sea on that day came into King 
Cove in some very nasty weather. Some of the USCG medevacs have even 
come from its District 17 headquarters in Juneau, which is 600 miles 
east of King Cove across the Gulf of Alaska.

    Question 4. How long does it take them to arrive?
    Answer. From Cold Bay it takes about 15-20 minutes, from Kodiak 3 
hours, and Juneau 5-6 hours. The daily weather and visibility also have 
an impact on these times.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Dr. Guy Meadows
    Question 1. Line 5 Risk Analysis: During the hearing, you mentioned 
that nine Michigan universities are participating in the team that will 
conduct the risk analysis for Line 5. What universities are part of the 
team? Can you outline the timeline for the risk analysis study?
    Answer. Michigan Technological University has been working 
diligently since September 18, 2017, when the Michigan Pipeline Safety 
Advisory Board (PSAB) unanimously recommended that Michigan Tech lead 
state universities in a risk analysis of the Line 5 Straits pipelines. 
At this time, a formal contract between Michigan Tech and the State of 
Michigan has not yet been executed. Barring any unforeseen changes, the 
risk analysis team will comprise 41 researchers, 21 from Michigan Tech 
and 20 from external organizations. Nine universities are contributing 
experts to the analysis, and seven of those nine are within the state 
of Michigan. They include Michigan Tech, the University of Michigan, 
Michigan State University, Wayne State University, Western Michigan 
University, Grand Valley State University, and Oakland University. The 
two out-of-state universities are North Dakota State University and 
Loyola University Chicago. Three researchers on the project are from 
consulting organizations, and two are independent contractors. Two 
other contributors, both from the National Oceanic and Atmospheric 
Administration (NOAA) Great Lakes Environmental Research Laboratory, 
will donate their time and services. Meadows will serve as project 
lead, with the team organized into nine sections based on the State's 
published scope of work: https://mipetroleumpipelines.com/document/
risk-analysis-final-rfp. Each section will have a section leader, a 
chief scientist and at least two section authors. In addition to the 
nine sections, a ``broader impacts'' team will provide a comprehensive 
overview of risks that various affected communities perceive in 
connection with the Straits pipelines. Affected groups include 
indigenous communities; local, state, Federal and Canadian government 
officials; environmental and historic preservation groups; and tourism, 
fishing and recreation industries. The risk analysis team will use 
Michigan Tech's high-performance computing cluster to run high-
resolution hydrodynamic models for Lakes Michigan and Huron to predict 
the fate and transport of worse-case spills. Researchers will also 
develop a multi-layer, web-based geographic information system GIS 
portal to accumulate output from each team. This portal will be made 
available to the State upon completion of the risk analysis to serve as 
a rapid response resource inventory.
    The proposed timeline for the risk analysis is the following:

  <bullet> Dec. 1--Full pre-proposal for an Independent Risk Analysis 
        was submitted to State of Michigan for review and feedback

  <bullet> Dec. 11--Meadows presentation to PSAB (Lansing, MI)

  <bullet> Dec. 15--Feedback expected from PSAB and State Technical 
        Team to be incorporated into final proposal to SOM

  <bullet> December--State and Michigan Tech enter into contract

  <bullet> Jan. 2--Project start

  <bullet> May--Delivery of Draft Risk Analysis

  <bullet> June--Public presentation of Draft Report

  <bullet> June/July--Public comment period 30 days

  <bullet> July/August--Respond to public and State input

  <bullet> Aug. 30--Delivery of Final Report

    Question 2. Pipeline inspections: The recent reports of coating 
damage at 42 of 48 locations inspected with divers along Line 5 deeply 
concerns me. Clearly, conducting inspections with remote operating 
vehicles is not sufficient to ensure the integrity of the pipeline and 
its protective coatings.
    What can be done to improve the technology for pipeline inspection 
capabilities?
    Do the conditions at the Straits of Mackinac--at over 100 feet deep 
with potentially strong currents--affect the effectiveness of current 
technologies?
    And are divers--in-person observations--the only way we can ensure 
the integrity of the coatings protecting underwater pipelines such as 
Line 5?
    Answer. There are currently two technologies that have been 
employed to complete external inspections of the Line 5 pipelines 
beneath the Straits of Mackinac. Remotely Operated Vehicle (ROV) 
inspections have been conducted by Enbridge and others, and Autonomous 
Underwater Vehicle (AUV) inspections of the pipeline and the 
surrounding underwater terrain have been conducted by Michigan 
Technological University, under a research contract to develop this 
technology supported by Enbridge.
    ROV inspections allow detailed video camera views (and recordings) 
of the pipeline to be made as the remotely operated vehicle is 
navigated along the pipeline. With a skilled operator, almost any view 
obtainable by a human diver, can be obtained and recorded remotely, 
including observation of coating integrity. Although time consuming, 
this is a very productive method by which to obtained detailed video of 
the condition of the exterior of the pipeline. Several Michigan 
commercial firms have both the expertise and equipment to perform this 
type of detailed pipeline inspection in the Straits. Michigan Tech, 
operates two such ROVs capable of operations to 1,000 feet of water 
depth, equipped with multiple video cameras, articulated arm, lights, 
and sonar. See adjacent photo.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    AUV methodologies to inspect the pipeline and the surrounding 
underwater terrain have been developed and conducted by Michigan 
Technological University. These consist of ``flying'' the AUV under 
fully autonomous control, at a prescribed elevation above the bottom 
(typically five meters, following the terrain) and at a prescribed 
horizontal offset from the pipeline (typically 15 meters) to place the 
pipeline in the field of view of the imaging, side-scan sonar system. 
This configuration allows large regions of the pipeline and surrounding 
underwater landscape (sea-scape) to be viewed. This technique does not 
provide an ``inspection'' of the pipeline and its associated coating, 
but does provide details of regions of the bottom that are either 
eroding or depositing sediment, and hence, details on the pipeline span 
lengths being supported. Attached below is an example of a high-
resolution, side-scan sonar image of a section of the Line 5 pipeline 
beneath the Straits of Mackinac, acquired by Michigan Tech's IVER3 AUV. 
The pipeline is the long linear feature on the left side of the image 
(at 18 meters from the dark center directly beneath the AUV), passing 
under a mound of bottom sediment.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The technology to acquire such images and to produce precise 
measurements of the unsupported span lengths, developed by Michigan 
Tech, has been transferred to Enbridge and their commercial contractors 
for ongoing implementation.
    In addition, with these advanced, high resolution, acoustic images 
it is also possible to detect underwater plumes. The following pair of 
images was acquired in shallow water of a ground water plume seeping 
out from the bottom. Give the acoustic contrast between oil and water, 
there is no doubt that a seep of oil would also be detectable with 
these systems.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Future improvement of these technologies is always possible. The 
Straits offer a challenging environment within which to make such 
detailed observations/measurements due to the strength and constant 
changes of near bottom currents. Direct measurements of currents from 
either Michigan Tech's surface buoy or from our proposed bottom 
mounted, underwater cabled observatories, has and will continue to 
greatly improve the forecasting of bottom current conditions. We are 
seeking research funds to continue development of these new 
technologies for implementation in the Straits of Mackinac. Under 
present conditions, the strength of currents on the bottom of the 
Straits do at times exceed the capabilities of AUV sensing and 
navigation systems.
    Michigan Tech, originally at the request of Enbridge and more 
recently at the request of the State of Michigan, has developed a plan 
for bottom-mounted, underwater cabled observatories to provide 24/7, 
all season monitoring of waves, currents and ice keel depth from the 
bottom looking upward. This plan involves placement so three such 
installations across the Straits of Mackinac, either in the vicinity of 
the Line 5 pipelines or supported by the pylons of the Mackinac Bridge, 
or both. With such a system, power to the instrumentation is supplied 
by underwater cables from shore and real-time data is transmitted back, 
providing instantaneous and continuous monitoring of the flows, waves, 
and ice depth. Underwater cables will be selected to have the 
capability to support a wide array of other, additional instrumentation 
such as live video, hydrocarbon sensors, water quality sensors, etc. A 
schematic of this proposed installation is provided below. Michigan 
Tech has previously developed and deployed an underwater/under-ice 
cabled observatory and operated it beneath the ice continuously for 
four months during the harsh winter of 2014-15 (see: http://
www.mtu.edu/news/stories/2015/january/michigan-tech-deploys-under-ice-
research-instruments-frozen-portage-waterway.html). The ``Tech 
Observatory'' is pictured to the right, along with a view from the 
live-to-the-internet, underwater, video camera from the observatory 
(left).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Estimated costs for the above system are approximately $500,000 for 
instrumentation and cables and approximately $100,000/year for 
Operation and Maintenance. These estimates do not include the costs of 
cable laying, but do include the cost of armored, underwater, high-
capacity data and power cables, capable of supporting the additional 
instrumentation outlined above (including live video).

    Question 3. New pipeline agreement: The Governor of Michigan and 
Enbridge signed an agreement to explore alternative options for Line 5 
at the Straits of Mackinac, halt pipeline operations if severe weather 
hits the current-churned stretch of water that separates Lakes Michigan 
and Huron, and improve monitoring and reporting on Line 5.
    How will this agreement influence the conditions considered in the 
risk analysis?
    Will the alternatives proposed by the agreement between the state 
of Michigan and Enbridge and the potential risks they pose be 
considered in the risk analysis that you are leading?
    Is shutting down the lines if waves reach 8 feet or more for more 
than 60 minutes adequate to reducing the risk of a spill incident?
    Are there other severe conditions, such as significant ice cover, 
that also would merit a shut down due to restricted response 
capabilities that such conditions pose?
    Answer. To adequately answer these questions, I would like to 
provide some relevant background information.
    In 2010, Michigan experienced the largest inland oil spill in U.S. 
history when a pipeline known as Line 6B burst and spilled heavy crude 
into a tributary of the Kalamazoo River. To prevent future accidents of 
this nature, the State formed a multi-agency task force called the 
Michigan Petroleum Pipeline Task Force. The task force issued a report 
in 2015 that made 13 recommendations, including the commissioning of an 
independent risk analysis for the Straits Pipelines portion of Line 5, 
two parallel 20-inch pipelines that run for 4.5 miles beneath the 
Straits of Mackinac. Line 5 is owned by Enbridge.
    In recommending the commission of an independent risk analysis, the 
task force said the State of Michigan should 1) require Enbridge to pay 
for (but not control) an expert analysis of the potential liability 
from a worst-case scenario spill, and 2) require Enbridge to then 
maintain an adequate financial assurance mechanism to cover liability 
for all damages or losses to public and private property. The State has 
the authority to do this under a 1953 easement that granted permission 
for the pipelines' construction.
    If the State engages Michigan Tech to lead the independent risk 
analysis, the underlying premise of our work is that the ``worst case'' 
has already occurred. The task is to define the magnitude and extent of 
this spill and to assemble the total costs of that disaster. At this 
point in time, it is difficult to say what influence, if any, the 
recently signed agreement between the State of Michigan and Enbridge 
will have in making those determinations.
    While it is difficult at this time in the process to evaluate the 
adequacy of the November 27 agreement between the State and Enbridge, I 
do believe the agreement is a positive step forward. The line can now 
be shut down quickly when necessary. In fact, just recently--on 
December 5--Line 5 was shut down temporarily when waves reached the 
limit of eight feet. The waves ultimately exceeded nine feet that day. 
Not long after, further action was taken by the PSAB to recommend to 
further reduce the wave-height criteria.
    I do want to point out here that the eight-foot wave criteria is 
based on the ability of clean-up equipment to skim oil. It is not based 
on reducing the risk of damage to the pipeline.
    Regarding other severe conditions that might merit a shutdown of 
the pipeline, I prefer to leave those determinations to the PSAB, from 
which I resigned earlier this year in order to undertake the 
independent risk analysis.

    Question 4. Collaboration with the Coast Guard: As you know, the 
worst inland oil spill in U.S. history occurred in Michigan in 2010. 
The Kalamazoo River was devastated by this event with clean-up costs 
exceeding $1 billion. The Coast Guard Research and Development Center 
has done a great deal to improve technologies to respond to oil spill 
response. Some of these transfer well from the oceans to the Great 
Lakes, but not all, and the Coast Guard Commandant has stated that the 
Coast Guard does not have the resources or research in the Great Lakes 
to respond to a freshwater oil spill.
    How much have you worked and collaborated with the Coast Guard R&D 
center?
    Answer. Prior to joining Michigan Tech in 2012, I have had 
extensive collaborations with the USCG while at the University of 
Michigan, both in graduate education of USCG offices at the MSE level 
and with the Marine Safety and R&D branches of the USCG. Since arrive 
at Tech, our operations in the Straits, including AUV operations above 
the pipelines and environmental monitoring buoy operations, are all 
closely coordinated through and with USCG Sector Soo. Initially at the 
request of Enbridge and later at the request the State of Michigan and 
Senator Peters' office, I have developed plans for a Center of 
Excellence on Oil in Freshwater. A summary is provided in the two 
slides below:
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Question 5. Oil spill response in ice: There were many challenges 
associated with cleaning up oil from a spill under ice in the 
Yellowstone River, including not only finding the oil, but the lack of 
stability of the ice. In your testimony, you highlight the potential 
for advanced technologies to improve oil spill response in ice.
    What can be done to improve our ability to respond to oil when ice 
is present?
    So far, technologies to skim oil in ice conditions have not proved 
as effective as hoped.
    What can improve our technology to recover oil in ice?
    What research are you currently conducting that could improve 
response?
    Answer. Oil with Ice is a very tough problem both in salt and to an 
even greater extent in water. Fresh water produces ice at a higher 
temperature and in some conditions to a greater extent than does 
seawater. To my knowledge there are no present, large scale, 
operational technologies to extract oil from within ice, on ice, or 
under ice. More and very recent information is available from the 
Arctic Response Technology website at: arcticresponsetechnology.org, 
and from their recent final report entitled ``Detection of Oil On-In-
and-Under Ice--Final Report 5.3,'' at: http://
www.arcticresponsetechnology.org/wp-content/uploads/2016/06/Remote-
Sensing-Report-Final.pdf.
    Remote sensing, however, of oil and ice is possible. We have 
proposed to NOAA on several occasions (all without funding success) to 
install oil sensing radars at the Straits of Mackinac. The Norwegians 
in the North Sea have taken the detection, tracking and clean-up of oil 
from petroleum exploration and production platforms very seriously. 
With work that has been led by Michigan Technological University's, 
Michigan Tech Research Institute (MTRI) in Ann Arbor, they have 
equipped oil platforms with oil detection and tracking radar units. The 
towers of the Mackinac Bridge are ideal for such a similar 
installation. It is important to note that this remote sensing 
technology, also directly measures, in real-time, surface water 
currents important for fate and transport estimates of spills, 
directing cleanup operations and for detection with ice present.
    MTRI has also teamed with AKELA Inc., to utilize a highly portable, 
wide-band, bistatic radar, operating from 300-3,000 MHz, to detect oil 
in or under sea ice, freshwater ice, and snow. The primary hypothesis 
is that a wide-band, bistatic data collection at penetrating radar 
frequencies provides sufficient measurement diversity to produce radar 
imagery with sufficient spatial resolution to reliably detect oil 
pockets/layers in an inhomogeneous ice/snow background. Practical field 
collection of wide-band bistatic data is feasible due to the recently 
development of a field-portable AKELA radar system to support 
Department of Defense (DoD) efforts to detect buried explosive hazards. 
The prototype system is lightweight, very portable, and can operate on 
the ice or snow surface, from a sled, ship, or other vehicle, or even 
potentially an Unmanned Aerial System (UAS). The system is relatively 
low cost; thus, many units could be constructed and deployed at oil 
spill recovery sites throughout the globe.

    Question 6. Unmanned surface vessels: You mention that unmanned 
surface vessels are currently being used in conjunction with 
geophysical survey ships in the Gulf of Mexico and offshore of the 
Alaska coastline.
    How do these unmanned surface vessels work?
    What are the capabilities and benefits of these unmanned surface 
vessels?
    Answer. Michigan Tech, through a collaboration with MTRI, and I 
were early developers of Autonomous Surface Vessels (ASVs) for use in 
surveying lakes of the Alaskan North Slope, used by the oil exploration 
industry. These ASVs were purposefully designed to be small (fit on 
your lap in a helicopter) for easy deployment on very remote bodies of 
water. Based on this experience, NOAA asked us to organize and conduct 
a recent national level workshop on new advances of ASVs to meet NOAA's 
needs. This workshop was held in November 2015 at Solomons, Maryland, 
and was attended by approximately 40 representatives from government, 
natural resources managers, academics, and manufacturers of ASVs. The 
workshop report is available at: http://www.act-us.info/Download/
Workshops/2015/CBL_Autonomous
_Surface/files/assets/basic-html/page-1.html#
    The current ``state of the art'' in ASV technology is quite 
advanced. These vessels can work either totally unattended or under 
``supervised autonomy,'' under the watchful eye of an operator on an 
adjacent vessel. In either case, the ASV knows and understands the 
``rules of the road,'' can sense other vessel approaching and alter its 
course accordingly, conduct a wide variety of missions without human 
intervention (including placing oil booms and monitoring the location 
and spread of spilled oil). Michigan Tech currently has a pending 
proposal before the National Science Foundation (NSF) to be the first 
university to operate an ASV as a fully autonomous research vessel. We 
have chosen the ASV Global, Co-Worker 5 to be a shared use asset across 
Great Lakes universities. This vessel, pictured below working off the 
cost of Alaska for the oil industry, is 5.5 meters in length (18 feet), 
can be transported down the road on a trailer behind a pick-up truck, 
can work up to five days, 24 hours a day. As indicated by our ASV 
Workshop report, these unmanned vessels are best utilized to perform 
duties that are dull, dirty and/or dangerous to human crews. The cost 
of such an advanced ASV is approximately $1million.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Lee W. Smithson
    Question 1. Post Katrina, can you talk about the measures 
Mississippi has put in place to improve communication between state and 
local officials to ensure that the resources available are effectively 
utilized?
    Answer. Since Hurricane Katrina in 2005, Mississippi has developed 
the Mississippi Wireless Integrated Network (MSWIN) that is truly the 
best in the Nation. This system is fully interoperable and has coverage 
of over 97 percent of the state. The system is reliable, redundant and 
hardened to withstand windspeeds of more than 160 mph. Thanks to the 
concerted efforts of our congressional delegation, more than $400 
million was invested by the Federal Government to build this system. 
The system was first tested in the summer of 2010 during the Deepwater 
Horizon oil spill. It proved capable of linking responders at the local 
level to state and even Federal responders. It is used daily by more 
than 35,000 responders.
    In addition to building a state of the art system, Mississippi has 
also improved its procedures for exchanging information during a 
crisis. We have implemented a process that defines critical information 
and when and to whom that information is sent. We have implemented a 
virtual situation room that allows local leaders as well as state 
leadership to access critical information via computer anywhere at any 
time. This ``one stop shop'' consolidates information and makes it 
readily available to all responders and stakeholders.

    Question 2. FEMA administers the Hazard Mitigation Grant Program, 
the Flood Mitigation Assistance Program and the Disaster Mitigation 
Program to provide state and local governments with funding mechanisms 
to build resiliency against disasters. Given the numerous recent 
hurricanes experienced along the Gulf Coast, can you comment on the 
importance of these programs and the benefits they have had for local 
communities?
    Answer. Without the Hazard Mitigation Grant Program, it is doubtful 
Mississippi would have recovered as well as we have from Hurricane 
Katrina's devastation. Since 2006, MEMA has managed more than $340 
million in mitigation projects ranging from safe rooms to flood 
mitigation projects to public awareness campaigns. In October 2017, 
Hurricane Nate made landfall as a Category One storm. While there was 
widespread damage, the gulf coast returned to normal operations with 
schools, businesses and government offices open less than 48 hours 
after landfall. The were no injuries or loss of life. This resiliency 
is due exclusively to the investment in mitigation efforts made by the 
local, state and Federal governments in the decade since Katrina.

    Question 3. Through your extensive experience on disaster response 
during incidents such as Hurricane Katrina, Deepwater Horizon, 
Hurricane Nate and numerous others, you have personally witnessed 
response efforts that were both effective and ineffective. From a 
Federal perspective, the U.S. Coast Guard's ability to provide adequate 
resources is critical in any major disaster relief effort. As you 
mentioned in your testimony, Hurricane Nate is one example of a well 
coordinated preparedness and response effort across multiple entities.
    As the Coast Guard's resources are strained with competing demands 
from different mission sets and simultaneous operations, what would be 
the effects on a community undergoing a major natural disaster if the 
Coast Guard were not able to provide a surge in manpower and resources?
    Answer. The U.S. Coast Guard has become an integral partner in 
preparedness and response. From the Gulf Coast to the Mississippi 
River, the Coast Guard provides outstanding support to Mississippi 
every day. As evidenced during the search and rescue in Houston, TX 
after Hurricane Harvey, the capabilities brought to a response by the 
Coast Guard cannot be replicated by other agencies. No agency has the 
ability to do aerial search and rescue like the Coast Guard. Without 
the ability to surge manpower and resources after a disaster, the 
simple truth is that people will die. It is imperative that the U.S. 
Coast Guard be fully funded and continue its close partnership with the 
states it serves.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Lee W. Smithson
    Question 1. Coast Guard and EOCs: You mention in your written 
statement that it would be ideal for Coast Guard members to be assigned 
to state emergency operations centers on a daily basis, not just during 
large scale emergencies.
    During emergencies they have a very clear role, can you elaborate 
on what their regular role would be if they were assigned to the 
centers as a tour of assignment?
    Answer. One of the many missions given the U.S. Coast Guard is to 
maintain our Nation's navigable waterways. The Mississippi River is a 
crucial part of the U.S. economy and makes up Mississippi's entire 
western border. There are navigation incidents almost daily on the 
Mississippi River that require local and state responses. The daily 
presence of a U.S. Coast Guard member in the State Emergency Operations 
Center would allow for instantaneous communication and collaboration 
with our Federal partners to ensure the waterways stay open and to 
respond to incidents that could require a large-scale response, such as 
a hazardous material release. Further, having a U.S. Coast Guard member 
in the operations center would be very beneficial in the exchange of 
intelligence pertaining to the security of the ports throughout the 
state. The Mississippi Intelligence and Analysis Center (Fusion Center) 
is located within the Mississippi Emergency Management Agency and has 
intelligence analysts from numerous state and local agencies including 
the Mississippi Bureau of Investigation, Mississippi Bureau of 
Narcotics, and the Hinds County Sheriff's Office. Additionally, the 
Center has a Department of Homeland Security intelligence analyst. The 
addition of a Coast Guard member would greatly benefit the intelligence 
gathering, analysis and dissemination statewide and with our Federal 
partners.

    Question 2. Would they mostly be standing by in case of emergency 
or do you envision a larger role for them within the emergency 
operation centers?
    Answer. A larger role. The Coast Guard member would be sending and 
receiving reports daily from the numerous Coast Guard Sectors that 
cover Mississippi. The presence of a Coast Guard member would also 
provide in-depth collaboration in operations management activities. A 
Coast Guard member would bring skill sets to the operations center that 
are not ordinarily present. The diverse training and real-world 
experiences of a typical mid-grade Coast Guard officer would greatly 
benefit the operations center. The interagency collaboration that a 
Coast Guard member would participate in would also greatly benefit the 
Coast Guard and would enhance the servicemember's career.

    Question 3. In 2010, as my home state of Michigan was facing the 
Kalamazoo River oil spill, you were facing the Deepwater Horizon oil 
spill that devastated the Gulf of Mexico. Can you expand on the unified 
approach and how that was realized as the way forward for Deepwater 
Horizon?
    Answer. Since the terrorist attacks in 2001, federal, state and 
local responders are required to follow the National Incident 
Management System (NIMS), as defined by the National Response 
Framework. NIMS is a comprehensive, national approach to incident 
management that is applicable at all jurisdictional levels and across 
functional disciplines. It is intended to be applicable across a full 
spectrum of potential incidents, hazards, and impacts, regardless of 
size, location or complexity. Additionally, it is designed to improve 
coordination and cooperation between public and private entities in a 
variety of incident management activities. Lastly, it provides a common 
standard for overall incident management. In the first 20 days of 
response to the Deepwater Horizon oil spill, the Coast Guard's mindset 
was that they were in charge and the assets, experience and dedication 
of state and local responders were ignored. This led to a disorganized 
response and created significant issues in deploying assets to detect 
and clean up oil in the Mississippi Sound. The utilization of boom 
material was critical. Yet the Coast Guard initially did not consider 
the requests for deployment of boom material by the local officials. 
However, it was the locals who were familiar with the coast's 
marshlands, oyster reefs and other sensitive environmental areas. 
Further, when National Guard helicopter flights detected degraded 
booms, the Coast Guard would take the reports and wait until the day 
after the reports were provided to develop a response. This led to 
further boom degradation. Also, the Mississippi Air National Guard had 
a fixed wing plane that had Forward Looking Infra-Red (FLIR) that was 
capable of detecting oil both during daylight and night time hours. The 
aircraft's sensors could also detect submerged oil. The Mississippi 
National Guard submitted numerous requests to have the Coast Guard 
approve the use of this aircraft. However, approval was not granted 
until the 20th of May, a full month after the well exploded. Once the 
aircraft was fully deployed, Admiral Zunkunft called it ``a game 
changer'' and ``worth its weight in gold''.
    It was only after then Governor Haley Barbour met with senior Coast 
Guard officials did the Coast Guard admit that response efforts were 
slowed due to poor communication with state and local officials. The 
Coast Guard agreed to establish an operations center in Gulfport, MS 
and collaborate with Mississippi's lead agencies including, the 
Department of Marine Resources, Department of Environmental Quality and 
the National Guard. When a unified approach was utilized, the responses 
to oil found in the Mississippi Sound were streamlined and expedited. 
The Coast Guard began operating on Mississippi's statewide 
interoperable radio system which was instrumental in getting manpower 
and equipment where it was needed. The Coast Guard members in the 
Mississippi operations center were exceptionally professional and 
dedicated to the mission. By the end of May 2010, the interagency 
collaboration and cooperation was exceptional and the partnership with 
both the Coast Guard and BP was exemplary. Mississippi formed the 
Vessels of Opportunity (VOO) taskforce, which was charged with locating 
and cleaning up oil. The Coast Guard was responsible for deploying the 
VOO taskforce. Once the interagency collaboration began, the success of 
the VOO taskforce grew exponentially. The reason is that National Guard 
helicopters would locate oil and immediately radio the VOO taskforce 
commanders using the statewide radio system. This allowed for 
instantaneous response to oil in the Sound and allowed for the oil to 
be skimmed. Prior to the collaboration between VOO and NG helicopters, 
the amount of oil cleaned up in the sound was negligible. Former U.S. 
Representative Gene Taylor referred to the VOO taskforce as ``a bunch 
of boats patrolling the Gulf with absolutely no clue''. Once the 
vessels integrated with the National Guard, literally tons of oil 
product were skimmed.
    When the Deepwater Horizon oil well exploded in April 2010, the 
U.S. Coast Guard had never been required to operate in an interagency 
environment of this magnitude. Four states were involved in responding 
to the oil leak 100 miles off the Mississippi coast and in water more 
than a mile deep. The complexity of this event was unprecedented and 
the only way the overall response would be successful was to leverage 
all available resources, both from the private sector and from 
government. While the Coast Guard's initial unwillingness to integrate 
other agencies into its response, it was obvious by the time the leak 
was stopped and all oil was cleaned up that the Coast Guard fully 
embraced NIMS and the need to form interagency alliances. As I stated 
in my initial testimony, I believe the U.S. Coast Guard fully applied 
the lessons learned from the largest man-made disaster in our Nation's 
history and it is indeed a better organization as a result of the 
Deepwater Horizon incident.

                                  [all]

                  This page intentionally left blank.


      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
